No. 20In the

Supreme Court of the United States
E.M.M., et al.,
Petitioners,
v.
DOUGLAS COUNTY, COLORADO, et al.,
Respondents.

On Petition for Writs of Certiorari to the United States
Court of A ppeals for the Tenth Circuit

PETITION FOR WRITS OF CERTIORARI
Thomas Brejcha
Thomas Olp
Thomas More Society
309 West Washington, Suite 1250
Chicago, IL 60606
(312) 782.1680

Rebecca R. Messall
Counsel of Record
Messall Law Firm, LLC
7887 E. Belleview Avenue, Suite 1100
Englewood, CO 80111
(303) 228.1685
rm@lawmessall.com

Richard J. Wall, Jr.
Attorney and Counselor at Law, P.C., L.L.O.
2935 Pine Lake Road, Suite D
Lincoln, NE 68516
(402) 421.8686
Counsel for Petitioners

304822

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Whether a “bright line” rule requires post-deprivation notice and hearing for

ex parte child seizures, as the FIFTH Circuit holds, or whether the right to notice
and hearing is not clearly established, as the TENTH Circuit holds.
2.

Whether subject matter jurisdiction exists for a federal claim using a plain-

tiff’s initials, as is held by the FIFTH Circuit and several federal district courts, or
whether subject matter jurisdiction is lacking, as the TENTH Circuit holds.
3.

Whether the right to appeal under 28 U.S. C. §1291 is contingent upon the

filing of a Rule 59(e) motion in the district court, as the TENTH Circuit holds, or
whether the opposite is correct, as the FIFTH Circuit holds.
4.

Whether sua sponte dismissal requires no prior notice to the parties, as the

TENTH Circuit holds, or whether notice is required prior to dismissal, as the
FIRST, SECOND, THIRD, FIFTH, SIXTH, SEVENTH, ELEVENTH and D.C. Circuits hold.

ii
PARTIES TO THE PROCEEDINGS
Petitioners sued, after turning 18, for a seizure when they were minors.
The Colorado Respondents are two individuals, social worker Lesa Adame
and sheriff’s deputy Carl Garza regarding the issue of qualified immunity. Claims
against Douglas County are not directly at issue in this Petition.
The Kansas Respondents are three individuals, Monica Gildner, Angela
Webb and Tina Abney.

iii
CORPORATE DISCLOSURE STATEMENT
Not applicable.

iv
RELATED PROCEEDINGS
1.

Prior to the two suits by Petitioners in the cases at bar, two of their older sib-

lings sued in the district of Colorado after turning 18, N.E.L. and M.M.A. In that action, the Colorado district court divided the suit into two cases. Claims against Kansas defendants were transferred to Kansas. Claims against Colorado defendants
were dismissed under Rule 12(b)(6).

N.E.L. and M.M.A. v. Douglas County, Colorado, Monica Gildner, Angela Webb, Tina Abney, Lesa Adame and Carl Garza in their individual capacities, in the United
States District Court for the District of Colorado, Case No. 15-CV-02847-REB-CBS.
January 27, 2017 - Magistrate Judge’s Recommendations on Pending Motions to
Dismiss. App I.
March 17, 2017 - Order, as amended, Overruling Objections to and Adopting Recommendation of United States Magistrate Judge. App H.
2.

N.E.L and M.M.A. v. Douglas County, Colorado, Lesa Adame, Carl Garza,

Monica Gildner, Angela Webb and Tina Abney, in the United States Court of Appeals for the Tenth Circuit, Case No. 17-1120
July 3, 2018 - Order and Judgment. App F.
3.

N.E.L., M.M.A., E.M.M. v. Monica Gildner, Angela Webb, Tina Abney, in the

United States District Court for the District of Kansas, Case No. 2:17-CV-02155CM-JPO

v
March 1 & 7, 2018 – Memoranda and Orders. App G.
4.

N.E.L. and M.M.A., Petitioners v. Douglas County, Colorado, Lesa Adame, in

her individual capacity, and Carl Garza, in his individual capacity, Respondents;
and N.E.L., M.M.A. and E.M.M. v. Monica Gildner, Angela Webb and Tina Abney,
in their individual capacities, Respondents, in the United States Supreme Court,
Case No. 18-503
March 18, 2019 - Cert. denied (“N.E.L. I”)
5.

N.E.L., M.M.A., E.M.M. v. Monica Gildner, Angela Webb, Tina Abney, in the

United States Court of Appeals for the Tenth Circuit, Case No. 18-3059 (“N.E.L. II”)
June 25, 2019 - Order and Judgment. App E.
August 20, 2019 - Rehearing denied
6.

N.E.L., M.M.A. and E.M.M. v. Monica Gildner, Angela Webb, Tina Abney,

Respondents, in the United States Supreme Court, Case No. 19-649.
January 21, 2020 - Cert. denied (“N.E.L. II”)
7.

E.M.M., N.M.M. and G.J.M. v. Douglas County, Colorado, Lesa Adame and

Carl Garza, individually, In the United States District Court for the District of Colorado, Case No. 1:18-CV-02616-RBJ
The district court dismissed under Rule 12(b)(6) based on res judicata.
September 27, 2019 - Order Granting Motion to Dismiss. App D.

vi
8.

M.A.C. v. Monica Gildner, Angela Webb and Tina Abney, in the United

States District Court for the District of Kansas, Case No. 2:20-cv-02226-HLT-KGG
May 6, 2020 - Order Dismissing. App C.
9.

E.M.M., N.M.M. and G.J.M. v. Douglas County, Colorado, Lesa Adame and

Carl Garza, individually, in the United States Court of Appeals for the Tenth Circuit, Case No. 19-1391
January 5, 2021 - Order upholding dismissal. App B.
10.

M.A.C. v. Monica Gilder, Angela Webb and Tina Abney, in the United States

Court of Appeals for the Tenth Circuit, Case No. 20-3105
March 17, 2021 - Order entered. App A.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED........................................................................ i
PARTIES TO THE PROCEEDINGS ......................................................... ii
CORPORATE DISCLOSURE STATEMENT...........................................iii
RELATED PROCEEDINGS ..................................................................... iv
TABLE OF CITED AUTHORITIES ......................................................... ix
DECISIONS BELOW ................................................................................. 1
JURISDICTION ......................................................................................... 1
RELEVANT CONSTITUTIONAL AND STATUTORY
PROVISIONS .................................................................................... 1
FEDERAL STATUTES INVOLVED ......................................................... 2
INTRODUCTION ....................................................................................... 2
STATEMENT OF THE CASE ................................................................... 3
A.

Factual Background ................................................................. 3

B.

Procedural Background ........................................................... 5
1.

The Colorado dismissal ................................................... 5

2.

The Kansas dismissal ..................................................... 5

REASONS FOR GRANTING THE WRITS ............................................... 6
I

The TENTH Circuit’s decision conflicts with various
other circuits and in particular with the FIFTH
Circuit’s decision that, for ex parte child seizure
cases, a “bright line” rule requires post-seizure notice
and hearing and also requires denial of qualified
immunity at the pleading stage .............................................. 6
A.

Fifth Circuit .................................................................... 8

B.

Fourth Circuit ............................................................... 10
vii

C.

Third Circuit ................................................................ 10

D.

Seventh Circuit ............................................................ 12

E.

Prior Tenth Circuit holdings........................................ 12

F.

Sixth Circuit ................................................................. 13

II.

The TENTH Circuit’s ruling departs from this
Court’s rejection in Arbaugh of “drive-by
jurisdictional rulings” and splits from the FIFTH
Circuit and various district courts concerning a
district court’s subject matter jurisdiction over a
complaint using initials. ....................................................... 14

III.

The TENTH Circuit split from the Fifth Circuit in
holding that M.A.C. was required to file a Rule 59(e)
motion in the district court so as make a record prior
to appealing a sua sponte dismissal. .................................... 22

IV.

The TENTH Circuit, in upholding sua sponte
dismissal without prior opportunity to respond, is
split from the FIRST, SECOND, THIRD, FIFTH,
SIXTH, SEVENTH, ELEVENTH and D.C. Circuits ........... 23
A.

First Circuit.................................................................. 24

B.

Second Circuit .............................................................. 25

C.

Other Circuits .............................................................. 25

D.

Previous Tenth Circuit cases ....................................... 27

CONCLUSION ........................................................................................ 29

viii

TABLE OF CITED AUTHORITIES
Page(s)
Cases:
A.W. v. Tuscaloosa City Sch. Bd. of Educ.,
744 Fed. Appx. 668 (11th Cir. 2018)........................................................... 18, 19

Anderson v. Creighton,
483 U.S. 635 (1987) ............................................................................................. 8

Arbaugh v. Y&H Corporation,
546 U.S. 500 (2006) ................................................................................. 6, 17, 29

Ashcroft v. al-Kidd,
563 U.S. 731 (2011) ............................................................................................. 8

Bell v. Hood,
327 U.S. 678 (1946) ........................................................................................... 16

Brokaw v. Mercer County,
235 F.3d 1000 (7th Cir. 2000) ........................................................................... 12

Brown v. Daniels,
128 Fed. Appx. 910 (3d Cir. 2005) .................................................................... 11

Bryan v. Johnson,
821 F.2d 455 (7th Cir. 1987) ............................................................................. 26

Capers v. Nat’l R.R. Passenger Corp.,
673 Fed. Appx. 591 (8th Cir. 2016)................................................................... 17

Coe v. U.S. Dist. Ct.,
676 F.2d 411 (10th Cir. 1982) ........................................................................... 24

Curley v. Perry,
246 F.3d 1278 (10th Cir. 2001) ......................................................................... 15

Davoodi v. Austin Indep. Sch. Dist.,
755 F.3d 307 (2014) ............................................................................... 22, 23, 26

Day v. McDonough,
547 U.S. 198 (2006) ........................................................................................... 23

Dist. of Columbia v. Wesby,
138 S. Ct. 577 (2018) ........................................................................................... 8

Doe v. Barrow County, Ga.,
219 F.R.D. 189 (N.D. Ga. 2003) .................................................................. 21, 22

ix

Doe v. Steagall,
653 F.2d 180 (5th Cir. 1981) ............................................................................. 16

Doe v. UNUM Life Ins. Co. of Am.,
164 F. Supp. 3d 1140 (N.D. Calif., 2016).................................................... 19, 20

Dougherty v. Harper’s Magazine Co.,
537 F.2d 758 (3d Cir. 1976) .............................................................................. 26

Duschene v. Sugarman,
566 F.2d 817 (2d Cir. 1977) .............................................................................. 10

E.M.M. v. Douglas County, Colorado,
840 Fed. Appx. 349 (10th Cir. 2021)................................................................... 1

Estate of Rodriquez v. Drummond Co.,
256 F. Supp. 2d 1250 (N.D. Ala. 2003) ....................................................... 19, 21

Fair v. Kohler Die & Specialty Co.,
228 U.S. 22 (1913) ............................................................................................. 16

G.E.G. v. Shinseki,
2012 WL 381589 (W.D. Mich., Feb. 6, 2012) .............................................. 20, 21

Gates v. Tex. Dep’t of Protective & Regulatory Servs.,
537 F.3d 404 (5th Cir. 2008) ....................................................................... 7, 8, 9

Gonzalez-Gonzalez v. United States,
257 F.3d 31 (1st Cir. 2001) ............................................................................... 24

Good v. Dauphin County Social Services for Children and Youth,
891 F.2d 1087 (3d Cir. 1989) ............................................................................ 12

Hall v. Belmon,
935 F.2d 1106 (10th Cir. 1991) ......................................................................... 28

Harlow v. Fitzgerald,
457 U.S. 800 (1982) ............................................................................................. 7

Hollingsworth v. Hill,
110 F.3d 733 (10th Cir. 1997) ........................................................................... 13

Hooks v. Hooks,
771 F.2d 935 (6th Cir. 1985) ............................................................................. 10

J.B. v. Washington County,
127 F.3d 919 (10th Cir. 1997) ............................................................................. 7

Joyce v. Joyce,
975 F.2d 379 (7th Cir. 1992) ............................................................................. 27

x

Leveto v. Lapina,
258 F.3d 156 (3d Cir. 2001) ........................................................................ 10, 11

M.A.C. v. Gildner,
2021 WL 1016422 (Mar. 17, 2021) ..................................................... 1, 5, 15, 23

Malik v. Arapahoe County Dep’t of Soc. Servs.,
191 F. 3d 1306 (10th Cir. 1999) .................................................................. 12, 13

National Commodity & Barter Association v. Gibbs,

886 F.2d 1240 (10th Cir. 1989) ................................................................. passim

Neitzke v. Williams,
490 U.S. 319 (1989) ............................................................................... 23, 25, 28

New York Blood Ctr.,
213 F.R.D. 108 (E.D.N.Y. 2003) ........................................................................ 22

Perez v. Ortiz,
849 F.2d 793 (2d Cir. 1988) .............................................................................. 25

Plumley v. Austin,
135 S. Ct. 828 (2015) ........................................................................................... 7

Pond v. Braniff Airways, Inc.,
453 F.2d 347 (5th Cir. 1972) ............................................................................. 23

Ricketts v. Midwest Nat. Bank,
874 F.2d 1177 (7th Cir. 1989) ........................................................................... 26

Roe v. Aware Woman Ctr. for Choice, Inc.,
253 F.3d 678 (11th Cir. 2001) ..................................................................... 21, 22

Roe v. Minguela,
16-cv-02744-MSK-KMT (D. Colo. Aug. 30, 2018) ............................................ 24

Romero v. Brown,
937 F.3d 514 (2019) ..................................................................................... 5, 8, 9

Rudder v. Williams,
666 F.3d 790 (D.C. Cir. 2012) ........................................................................... 27

Santosky v. Kramer,
455 U.S. 745 (1982) ............................................................................................. 7

Siefert v. Hamilton County,
951 F.3d 753 (6th Cir. 2020) ............................................................................. 14

Smilde v. Herman,
201 F.3d 449 (10th Cir. 1999) ..................................................................... 27, 28

xi

Tazoe v. Airbus S.A.S.,
631 F.3d 1321 (11th Cir. 2011) ......................................................................... 27

Thomas v. Scully,
943 F.2d 259 (2d Cir. 1991) .............................................................................. 25

Thomas v. Texas Dept. of Fam. and Prot. Serv.,
427 Fed. Appx. 309 (5th Cir. 2011)................................................................... 10

Tingler v. Marshall,
716 F.2d 1109 (6th Cir. 1983) ........................................................................... 26

Troxel v. Granville,
530 U.S. 57 (2000) ............................................................................................... 7

United States ex rel. Little v. Triumph Gear Systems, Inc.,
870 F.3d 1242 (10th Cir. 2017) ......................................................................... 17

W.N.J. v. Yocom.,
257 F. 3d 1171 (10th Cir. 2001) ........................................................................ 17

Weissenbach v. Tuscaloosa Cty. Sch. Sys.,
2018 WL 9986741 (N.D. Ala., June 5, 2018) .................................................... 19

Weller v. Dep’t of Soc. Servs. for City of Baltimore,
901 F.2d 387 (4th Cir. 1990) ............................................................................. 10

Statutes & Other Authorities:
U.S. Const., Amend. IV........................................................................................ passim
U.S. Const., Amend. XIV ..................................................................................... passim
28 U.S.C. § 1254(1) ........................................................................................................ 1
28 U.S.C. § 1331 ................................................................................................... passim
28 U.S.C. § 1915(d) ...................................................................................................... 25
28 U.S.C. § 1915(e)(2) .................................................................................................. 15
42 U.S.C. § 1983 ............................................................................................................. 2
C.R.S. § 14-13-311(2) ................................................................................................... 11
Fed. R. Civ. P. 4(a) ....................................................................................................... 26
Fed. R. Civ. P. 10(a) ............................................................................................... 18, 20
Fed. R. Civ. P. 12(b)(6) ......................................................................................... passim
Fed. R. Civ. P. 15 ......................................................................................................... 18

xii

Fed. R. Civ. P. 15(a) ..................................................................................................... 25
Fed. R. Civ. P. 17(a) ..................................................................................................... 22
Fed. R. Civ. P. 17(a)(3) ................................................................................................. 19
Fed. R. Civ. P. 59(e) ........................................................................................... 6, 22, 23
Paul Marcus & Tara L. McMahon, Limiting Disclosure in Rape Victims'
Identities, 64 S. Cal. L. Rev. 1020 (1991) ................................................................ 24
Joel M. Schumm, No Names, Please: The Virtual Victimization of Children,

Crime Victims, The Mentally Ill, And Others in Appellate Court
Opinions, 42 Ga. L. Rev. 471 (Winter 2008) ........................................................... 23

xiii

1
DECISIONS BELOW
The Tenth Circuit’s opinion, entered March 17, 2021, App A, is available at

M.A.C. v. Gildner, 2021 WL 1016422, not selected for publication.
The Tenth Circuit’s opinion, entered January 5, 2021, App B, is available at

E.M.M. v. Douglas County, Colorado, 840 Fed. Appx. 349 (10th Cir. 2021), not selected for publication.
The Kansas district court’s opinion, entered May 6, 2020, is provided at App
C.
The Colorado district court’s opinion, entered September 27, 2019, App D, is
available at 2019 WL 4736457, not reported.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1). The Tenth Circuit’s
orders were entered January 5, 2021 (regarding the Colorado case), and March 17,
2021 (regarding the Kansas case). Pursuant to this Court’s Order dated March 19,
2020, this Petition is filed within 150 days after January 5, 2021, the earlier-issued
opinion.
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Fourth Amendment to the United States Constitution provides:

2
The right of the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated, and
no warrants shall issue, but upon probable cause, supported by oath or affirmation, and particularly describing the place to be searched and the persons or things to be seized.
The salient part of the Fourteenth Amendment to the United States Constitution provides in Section 1:
Nor shall any state deprive any person of life, liberty, or property, without
due process of law.
FEDERAL STATUTES INVOLVED
The federal statutes involved are 28 U.S.C. §1331:
The district courts shall have original jurisdiction of all civil actions arising
under the Constitution, law, or treaties of the United States.
and 42 U.S.C. §1983:
Every person who, under color of any statute, ordinance, regulation, custom
or usage, or any State or Territory or the District of Columbia, subjects or
causes to be subjected, any citizen of the United States or other person within the jurisdiction thereof to the deprivation of any rights, privileges or immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, or other proper proceeding for redress, except
that in any action brought against a judicial officer for an act or omission
taken in such officer’s judicial capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or declaratory relief was unavailable. For the purposes of this section, any Act of Congress shall be considered
to be a statute of the District of Columbia.
INTRODUCTION
This Petition arises from dismissals of suits alleging that an ex parte seizure of
ten children was conducted without post-seizure notice and hearing.

3
1. One appellate panel held that notice and hearing is not a clearly established
right, affirming the Colorado district court’s dismissal on other grounds.
2. Another appellate panel held that a district court lacks subject matter jurisdiction over a complaint using initials for privacy reasons, affirming a sua sponte
dismissal three days after suit was filed.
STATEMENT OF THE CASE
A.

Factual Background
Petitioners1 E.M.M, N.M.M., G.J.M. and M.A.C. are part of a family of ten

siblings. All of the siblings were subjected to a Fourth Amendment seizure in Colorado.2
The Colorado complaint was filed by three of the four Petitioners herein. It
alleges that their seizure was without pre-seizure or post-seizure notice and hearing
in Colorado.3 Government agents demanded entry into a residence, falsely claiming
that an out-of-state ex parte order4 gave them authority. The order was invalid in
two ways. First, on its face, its content did not authorize any actions whatsoever.
Second, this Court’s decisions and Colorado law prohibited enforcement of foreign ex

Petitioners’ complaint, among other claims, asserts Fourth and Fourteenth Amendment claims for
the lack of notice and hearing, ¶¶196-198 (First Claim for Relief), and ¶¶199-201 (Second Claim for
Relief). Paragraph numbers referenced herein are to the complaint.
2 ¶¶1, 123-124, 132-133, 143-149.
3 ¶¶1, 146, 161, 177, 180-184, 187, 220.
4 ¶¶134-136.
1

4

parte orders, as the County’s policy manual also stated. Nevertheless, to gain entry
over objection, one agent became belligerent and threatened arrest or contempt.5
Inside, the Colorado agents saw for themselves that the children were safe
and in no danger of imminent harm.6 Despite this fact, the agents ordered all ten
children into immediate custody of Kansas officials, who were not in Colorado, but
who would supposedly be arriving.7 The order was issued on Colorado letterhead,
and declared: “The children are currently in the custody of Kansas State Social Services.”8
The order required Petitioners’ mother to vacate the residence immediately.9
It ordered both parents to have no contact with the children,10 although the father
was not present at the time of the seizure.11 Obedience to Respondents’ orders was
not voluntary “by virtue of the Colorado Agents’ threats of force, intimidation and
false claims of legal authority.”12
Pursuant to Respondents’ orders, the children’s physical custody was delivered to Kansas officials,13 who kept the ten siblings in foster care for at least five

¶¶138-140.
¶141.
7 ¶161.
8 ¶¶143, 149.
9 ¶142.
10 ¶¶152-153.
11 ¶123.
12 ¶¶146, 181.
13 ¶¶164-168.
5
6

5
days before a Kansas judge ordered them released based on the seizure’s lack of
probable cause.14
B.

Procedural Background
1.

The Colorado dismissal

The Colorado district court dismissed the complaint by E.M.M., N.M.M and
G.J.M. based on a rationale of res judicata.15 On appeal, the panel chose not to affirm the district court’s rationale, but affirmed on the grounds that “unusual facts”
required qualified immunity.16 A split of authority arises with various circuits but
is heightened by the Fifth Circuit’s description of its “bright line” rule17 to deny
qualified immunity where a complaint alleges the lack of notice and hearing for an

ex parte child seizure.
2.

The Kansas dismissal

The Kansas district court sua sponte dismissed M.A.C.’s complaint three days
after it was filed. In the interim, M.A.C. turned 19, triggering an arguable defense
under the one year statute of limitations. On appeal, the panel affirmed dismissal
for lack of subject matter jurisdiction18 and for failure to file a post-judgment motion

¶187a.
App D, Colo. order dtd 9-27-19.
16 App B, order dtd 1-5-21, at 8.
17 Romero v. Brown, 937 F.3d 514, 521 (2019).
18 2021 WL 1016422 *3.
14
15

6
under Rule 59(e).19 The panel opinion in the case at bar is a split from the Fifth Circuit regarding a required Rule 59(e) motion of a condition of appeal, as well as from
various district courts, insofar as the panel opinion’s rationale conflates different
meanings of the word “jurisdiction” and the concept of “failure to state a claim.” In

Arbaugh v. Y&H Corporation,20 this Court coined the term “drive-by jurisdictional
rulings” which “have no precedential value.” The confusion of terminology in the
panel’s opinion and cited precedent, not only conflicts with Arbaugh and other circuits, but also implicates the meaning of 28 U.S.C. §1331 and whether the Federal
Rules of Civil Procedure can alter the statute’s plain language.
REASONS FOR GRANTING THE WRITS
I

The TENTH Circuit’s decision conflicts with various other circuits and in
particular with the FIFTH Circuit’s decision that, for ex parte child seizure
cases, a “bright line” rule requires post-seizure notice and hearing and also
requires denial of qualified immunity at the pleading stage.
By definition, a child seizure arising from an ex parte order means that prior

notice and hearing did not occur and that a post-seizure hearing is required. Petitioners received no post-seizure hearing in Colorado after being seized by Colorado
agents in Colorado using invalid ex parte orders (from Kansas). The complaint alleges both Fourth and Fourteenth Amendment violations for lack of a post-seizure

19

Id., at *4.

20

546 U.S. 500, 511 (2006).

7
hearing in Colorado.21 That seizures based on ex parte orders require post-seizure
hearings should seem obvious.22
Petitioners have a right to their parents’ care and protection, a right not disputed here.23 Children’s right to their parents’ care corresponds to parents’ fundamental liberty right to care, custody, and control of their children.24
The instant case involves an utter lack of notice and hearing in Colorado,25 either post-seizure or pre-seizure, whereas the Fifth Circuit case involved only the
pre-seizure deprivation of notice and hearing.26 The split of authority,27 and the
Tenth Circuit’s three rulings denying this family’s right to notice and hearing, pose
a disturbing realization that government has wide latitude to skip notice and hearing by characterizing a seizure as involving “unusual facts.” Such a tool will be invaluable, inasmuch as hotly disputed child seizures may arise from many witness

¶197 (Fourth Amendment), ¶201 (Fourteenth Amendment).
See Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982) (officials may not violate rights of which a reasonable person would know).
23 See J.B. v. Washington County, 127 F.3d 919, 928-29 (10th Cir. 1997); Gates v. Tex. Dep’t of Protective & Regulatory Servs., 537 F.3d 404, 427 (5th Cir. 2008).
24 Troxel v. Granville, 530 U.S. 57, 65 (2000); Santosky v. Kramer, 455 U.S. 745 (1982).
25 The complaint takes pains to negate the existence of any exigency, consent or valid order/warrant.
But even if such things would have excused a pre-seizure hearing, a post-seizure hearing was required by long-held understandings of Fourth and Fourteenth Amendment deprivations of liberty.
21
22

See infra.

At a post-seizure hearing the child was released.
The word “authority” is used loosely because, in visits to the Tenth Circuit, three panels have not
granted Petitioners’ family a binding opinion on the issue of qualified immunity. See Related Cases,
supra. Insofar as binding opinions are necessary to become established law, non-binding opinions
nearly prevent legal review by establishing no law whatsoever. See Plumley v. Austin, 135 S. Ct.
828, 831 (2015) (Thomas, J. and Scalia, J., dissenting).
26
27

8
testimonies and often warrantless home invasions. The deprivation of notice and
hearing heightens a terrorizing uncertainty as to any parent-child reunification. In
addition, lack of prompt post-deprivation hearing means that government wrongs
entirely escape prompt judicial oversight. The power vested in government officials,
the frequency of ex parte child seizures and an apparent split of authority over the
right to post-seizure notice and hearing are reasons enough for this Court to settle
the issue here: was it clearly established in May 200928 that post-seizure notice and
hearing was a right beyond debate in the context of ex parte child seizures?
A.

Fifth Circuit

The Fifth Circuit’s recent holding looked back to a 2008 holding where a prompt
post-seizure hearing was granted in accord with Texas law.29 Romero required only
a simple pleading framework upon which to deny qualified immunity: “Because the
complaint plausibly alleges [the children were removed without a court order or exigent circumstances, the claim for lack of procedural due process] will proceed past
the pleading stage.”30

“A Government official’s conduct violates clearly established law when, at the time of the challenged conduct, ‘[t]he contours of [a] right [are] sufficiently clear’ that every ‘reasonable official
would [have understood] that what he is doing violates that right.’” Ashcroft v. al-Kidd, 563 U.S. 731,
741 (2011) (alterations in original) (quoting Anderson v. Creighton, 483 U.S. 635, 640 (1987)); accord
Dist. of Columbia v. Wesby, 138 S. Ct. 577 (2018).
29 Romero, 937 F.3d at at 522, citing Gates v. Dep’t of Prot. & Reg’y Servs., 537 F.3d 404 (5th Cir.
2008).
30 937 F.3d at 523.
28

9
The Fifth Circuit, in Romero, and the Tenth Circuit, in the instant case, however, arrived at polar opposite results, even though the cases involve very similar allegations.31 Specifically: neither case alleged physical harm by the parents;32 both
cases involved large families of older siblings and an infant;33 neither case involved
imminent physical danger of abuse to the children;34 in both cases, the seizure
lacked a valid court order;35 in both cases, government agents threatened arrest to
obtain signatures on documentation;36 in both cases, state courts, prior to the federal suits, found that the seizures lacked probable cause;37 and in both cases, the government urged qualified immunity based on excuses previously rejected by prior
courts.38 One factual difference is that the Fifth Circuit denied qualified immunity
based on a far shorter separation of 24 hours. In contrast, Petitioners received no
hearing whatsoever in Colorado and their seizure lasted nearly a week. They were
transported to Kansas and detained in foster care until a Kansas court eventually
released them.39

The Fifth Circuit, for a seizure in March 2016, 937 F. 3d at 518 (ruled upon in 2019), found that
clearly established law existed as of its own 2008 decision in Gates.
32 937 F.3d at 521.
33 Id., at 518.
34 Id., at 522.
31

Id.
Id., at 518.
37 Id., at 522.
38 Id.
35
36

39

¶187a.

10
B.

Fourth Circuit

More than thirty years ago, the Fourth Circuit, in Weller v. Dep’t of Soc.

Servs. for City of Baltimore,40 held that “an utter lack of judicial action ratifying the
deprivation of custody for four months is clearly not the prompt due process that the
Constitution requires.”41 Weller reached back in time for legal authority to 1977, the
year of the Second Circuit’s opinion in Duschene v. Sugarman,42 and to 1985, the
year of the Sixth Circuit opinion in Hooks v. Hooks.43
Procedural due process was a clearly established, post-deprivation right, decades before Petitioners’ seizure. They alleged not just a delay, but the complete lack
of notice and hearing in Colorado,44 required by Colorado law as well as by the
United States Constitution.
C.

Third Circuit

The Third Circuit cautioned against granting qualified immunity based on a
complaint alone. “[Q]ualified immunity ‘will be upheld on a 12(b)(6) motion only
when the immunity is established on the face of the complaint itself.’”45 Four years

901 F.2d 387, 394 (4th Cir. 1990).
Id., at 396.
42 566 F.2d 817 (2nd Cir. 1977).
43 771 F.2d 935 (6th Cir. 1985).
44 ¶¶1, 146, 161, 177, 180-184, 187, 220. Inasmuch as the date of Petitioners’ seizure was May 6,
2009, the state of “clearly established law” is determined as of that date.
45 Leveto v. Lapina, 258 F.3d 156, 161 (3rd Cir. 2001) (emphasis added); see also Thomas v. Texas
Dept. of Fam. and Prot. Serv., 427 Fed. Appx. 309 (5th Cir. 2011) (unpublished) (finding error in
dismissal for qualified immunity based on the face of the complaint alone)
40
41

11
prior to Petitioners’ seizure, the Third Circuit, citing Leveto, reversed an order
granting qualified immunity under Rule 12(b)(6) in Brown v. Daniels46 Brown decided the “clearly established law” for a seizure in May 2003. As in the case at bar, a
social worker ordered parents to “stay away” from their son without prior notice and
hearing. Simultaneously, the parents were told that the child’s grandmother had legal custody. A post-seizure hearing was delayed until July. The parents sued, in
part, for the delay in procedural due process and violation of state hearing requirements. The Third Circuit held: “Accepting the allegations as true and drawing all
inferences in the Browns’ favor, a reasonable [social worker] could not have believed
that a post-deprivation hearing conducted seven weeks after the removal of a child
from his parents’ home complied with due process.”47

Brown’s facts are much like the case at bar except that Petitioners received
no hearing at all in Colorado. Their parents, without prior notice and hearing, were
ordered to have no contact with the ten children and, simultaneously, Colorado officials pronounced that Petitioners and their siblings were already in legal custody of
Kansas officials. The favorable inference under 12(b)(6) is that such a hearing48
would have prevented Petitioners’ detention, which lasted for at least five days in

128 Fed. Appx. 910 (3d Cir. 2005) (per curiam) (not selected for publication), a decision rendered
by Justices Alito, Smith and Becker as circuit justices.
47 Id., at 916.
48 Colorado law required a hearing on the next judicial day. C.R.S. §14-13-311(2).
46

12
Kansas foster care. Such an inference is affirmed by the finding in the Kansas court
of “no probable cause” for the Colorado seizure.
D.

Seventh Circuit

The Seventh Circuit rejected qualified immunity at the pleading stage many
years prior to Petitioners’ seizure where a complaint involved a 1983 child seizure
without a court order. As an adult, the victim sued for deprivation of procedural due
process. In Brokaw v. Mercer County,49 the court recited the complaint’s factual allegations before deciding the issue of qualified immunity under Rule 12(b)(6). “We
cannot conclude that the individual defendants are entitled to qualified immunity
because the facts once uncovered may turn out to be so severe and obviously wrong
that the defendants should have known they were violating [the plaintiff’s] constitutional rights.”50
E.

Prior Tenth Circuit holdings

In fact, the Tenth Circuit’s ruling in the case at bar conflicts with its own decisional law. For nearly 30 years in the Tenth Circuit, a parent’s deprivation of the
care and custody of a child, without notice and hearing, has violated clearly established law. In Malik v. Arapahoe County Dep’t of Soc. Servs.,51 the Tenth Circuit it-

235 F.3d 1000 (7th Circuit 2000).
Id., at 1023, citing Good v. Dauphin County Social Services for Children and Youth, 891 F.2d 1087
(3d Cir. 1989).
51 191 F. 3d 1306, n.4 (10th Cir. 1999).
49
50

13
self stated: “[W]e held in Hollingsworth v. Hill, 110 F.3d 733, 739-40 (10th Cir.
1997), that deprivation of a parent’s interest in care and custody of a child without
notice and hearing, in violation of state custody law, violated law clearly established
in January 1993.”

Malik was decided 6 years before Petitioners’ seizure. Hollingsworth’s events
in 1993 were 16 years prior to Petitioners’ seizure. Just as Respondents, in the case
at bar, relied on ex parte orders containing no judicial authorization to seize Petitioners,52 the officer in Hollingsworth relied on an order containing no judicial authorization to seize the child.53 In Hollingsworth, the Tenth Circuit held: “Ms. Hollingsworth's right to notice and an opportunity to be heard prior to the deprivation
of her liberty interest in the care, custody, and management of her children was
clearly established in January 1993, despite Deputy Hill's argument to the contrary.”54 Accordingly, as of 1993, Hollingworth was clearly established law requiring
notice and hearing where a defective court order was the basis for a seizure without
notice and hearing.
F.

Sixth Circuit

Notably, Rule 12(b)(6) requires that a complaint’s allegations be taken as
true. On such basis, the Sixth Circuit rejected qualified immunity where defendants
App H, n. 2, order dtd 3-17-17.
110 F. 3d at 739.
54 Id. at 740 (emphasis added) (cites omitted).
52
53

14
argued that parents had “consented” to their child’s removal. The court ruled that,
“reading the complaint’s facts in the light favorable to the [plaintiffs], we can draw a
reasonable inference that [they] did not consent, given the number of times they allege they demanded that [their child] be discharged.”55 This ruling is not dependent
on the date of the seizure, but rather, on proper deference to the facts alleged in a
complaint under Rule 12(b)(6).
Likewise, in the case at bar, Petitioners’ complaint expressly negates any inference that their parents gave “consent” to the seizure, considering that Petitioners’ father was not present at all, and that Respondents threatened arrest or contempt when they encountered objection to their pronouncement that they had come
to seize the children without a warrant.
II.

The TENTH Circuit’s ruling departs from this Court’s rejection in Arbaugh56
of “drive-by jurisdictional rulings” and splits from the FIFTH Circuit and various district courts concerning a district court’s subject matter jurisdiction
over a complaint using initials.
Federal courts have subject matter jurisdiction over “all civil actions arising

under the Constitution, laws, or treaties of the United States.”57 However, in
M.A.C.’s case, the panel opinion incorrectly held that a judge’s permission, not the

55
56
57

Siefert v. Hamilton County, 951 F.3d 753, 763-64 (6th Cir. 2020).
Supra, fn 20.
28 U.S.C. §1331.

15
federal basis for the claims, is the key to the district court’s subject matter jurisdiction:
Because NCBA is still the law of the circuit, the district court correctly
identified a defect in its subject-matter jurisdiction, namely, plaintiff’s
failure to provide her full name or seek permission to do otherwise.58
Notably, the local rules of the Kansas district court did not require a complaint to be accompanied by a contemporaneously-filed motion to proceed anonymously. Nor was Petitioner in violation of a court order to show cause or to meet
other deadlines. In fact, during the three days between filing of the complaint and
the order of dismissal, the court was operating at reduced capacity due to COVID19. Moreover, counsel was seeking assistance from the clerk’s office for technology
difficulties and had advised by email of an intent to file a motion to proceed anonymously.
In M.A.C.’s case, besides relying on National Commodity, the panel opinion
also upheld dismissal based on a prisoner case dismissed under 28 U.S.C.
§1915(e)(2).59 Notably, however, M.A.C.’s case is not brought under the “screening”
provisions for in forma pauperis complaints. Moreover, M.A.C.’s dismissal was upheld for lack of subject matter jurisdiction under 28 U.S.C. §1331, not for failure to
state a claim under Rule 12(b)(6).
M.A.C. v. Gildner, 2021 WL 1016422 *3 (emphasis added), citing National Commodity &
Barter Association v. Gibbs, 886 F.2d 1240 (10th Cir. 1989).
59 M.A.C. at * 4, citing Curley v. Perry, 246 F.3d 1278, 1284 (10th Cir. 2001).
58

16
The Fifth Circuit case of Doe v. Steagall,60 was incorrectly cited by the Tenth
Circuit in National Commodity. Steagall had actually reversed a ruling by a district
court that it lacked jurisdiction based on the plaintiff’s use of the name, “Doe,” stating: “[T]he district court’s determination that it lacked jurisdiction to issue a protective order cannot stand.”61
As to a federal court’s subject matter jurisdiction, a district court is required
to entertain a complaint seeking recovery under the Constitution or the laws of the
United States unless the alleged federal claim “clearly appears to be immaterial and
solely made for the purpose of obtaining jurisdiction or where such a claim is wholly
insubstantial and frivolous.”62 M.A.C.’s complaint is based on the United States
Constitution, and therefore, the district court did not lack subject matter jurisdiction under §1331, and the court was required to entertain the suit. “Jurisdiction is
the authority to decide a case either way.”63 As to the federal claims in the case at
bar, they are not “wholly insubstantial and frivolous,” meaning subject matter jurisdiction was not lost due to M.A.C.’s use of her initials in the caption. This Court
said in Arbaugh:

653 F.2d 180 (5th Cir. 1981).
Id., at 186 (“We conclude that the almost universal practice of disclosure must give way in this
case due to the privacy interests at stake”).
62 Bell v. Hood, 327 U.S. 678, 681-82 (1946).
63 Fair v. Kohler Die & Specialty Co., 228 U.S. 22, 25 (1913).
60
61

17
Judicial opinions, the Second Circuit incisively observed, “often obscure
the issue by stating that the court is dismissing 'for lack of jurisdiction'
when some threshold fact has not been established, without explicitly
considering whether the dismissal should be for lack of subject matter
jurisdiction or for failure to state a claim." Da Silva, 229 F. 3d at 361. We
have described such unrefined dispositions as ‘drive-by jurisdictional rulings’ that should be accorded ‘no precedential effect’ on the question
whether the federal court had authority to adjudicate the claim in suit.64
The lower courts in the case at bar relied on a “drive-by jurisdictional ruling”
in National Commodity that should have been accorded “no precedential effect.”
Specifically, the district court incorrectly relied on another case, W.N.J. v. Yocom.65
However, the source of authority in Yocom was National Commodity in holding that
an appellate court lacked jurisdiction without the district court’s prior permission to
proceed anonymously. As in National Commodity, Yocom was a “drive-by jurisdictional ruling” that did not differentiate between in personam or subject matter jurisdiction. Importantly, Yocom’s analysis, stemming from National Commodity, is
viewed negatively by courts66 outside of the Tenth Circuit.67 For example:

64

Arbaugh, 126 S.Ct. 1242-43.

65

257 F. 3d 1171 (10th Cir. 2001).

But see Capers v. Nat’l R.R. Passenger Corp., 673 Fed. Appx. 591, 596 (8th Cir. 2016) (unpublished)
(applying state law but citing National Commodity in holding that no action was “commenced.”)
67 In United States ex rel. Little v. Triumph Gear Systems, Inc., 870 F.3d 1242 (10th Cir. 2017), the
Tenth Circuit relied on Yocom and National Commodity to hold that a complaint referring generally
66

to two John Doe plaintiffs did not commence an action “with respect to them.” 870 F.3d 1242, 1250.
Triumph was likewise improperly decided and, moreover, it did not involve minors or sexual abuse,
nor specific factual allegations of harm to plaintiffs, nor dismissal on the third day after filing where
counsel had stated an intent to file a motion for leave to proceed using initials.

18
In A.W. v. Tuscaloosa City Sch. Bd. of Educ.,68 defendants contended that no
action was “commenced” unless and until the district court had granted approval to
proceed anonymously, that any pleading filed prior to such approval was a “nullity
and thus, void ab initio,” and “incapable of amendment.”69 The court in A.W. rejected the argument, specifically referring to jurisdiction and stating: “We cannot agree
with this approach. After all, courts may authorize amendment of a complaint under Rule 15 even in the absence of jurisdiction.”70 It further stated:
[Defendants’] proposed rule is difficult if not impossible to reconcile with
our precedent in this area, which allows parties to proceed anonymously
and describes Rule 10(a)’s disclosure requirement as a ‘procedural custom’
that ‘is not absolute’ and is grounded in the ‘public’s legitimate interest in
knowing all of the facts involved,’ not something more fundamental. [citations omitted]. For these reasons, though we can think of others, we reject
the appellants’ assertion that A.W. could not amend her complaint or that
the court was prohibited from basing its remand decision on the amended
complaint.71
The court in A.W. further stated:
Even if we adopted the Tenth Circuit’s view that federal courts lack jurisdiction over unnamed parties absent court approval to proceed anonymously – though, to be clear, we do not decide that jurisdictional question – it
does not logically follow that A.W.’s complaint was a nullity that could not
be amended. And the Tenth Circuit has never held as much.”72

744 Fed. Appx. 668 (11th Cir. 2018) (not selected for publication) (Case no. 18-10534).
Id., at 670.
70 Id. at 672 (citations omitted) (emphasis added).
68
69

71
72

Id.
Id., at 673, n. 4 (emphasis added).

19
In Weissenbach v. Tuscaloosa Cty. Sch. Sys.,73 defendants moved to dismiss
because only the last name of the plaintiff was listed in the complaint’s caption. At
the same time, plaintiff moved for leave to correct the caption, as she had no intent
to proceed anonymously.74 Like the situation in the case at bar in which the government agents already know M.A.C.’s identity, in A.W., the defendants’ motion
and attachments showed that they already knew her full name.75 But they relied on
a case that relied on Yocom, namely Estate of Rodriquez v. Drummond Co.,76 The
court stated: “Rodriquez based its jurisdiction characterization of the use of fictitious-party pleading without leave to proceed on [Yocom].”77
The court in Weissenbach distinguished Yocom’s procedural facts and noted:
Absent indication from Congress, there appears to be no reason why Weissenbach cannot amend her Complaint to correct this issue. The nonbinding Tenth Circuit authority relied upon by Defendants does not prohibit such a reasonable fix…When the real party in interest is not properly
named, ‘Rule 17(a)(3) requires the court to provide an opportunity to substitute in the correct party before the court dismisses the case, provided
that the substitution is made within a reasonable time after objection.” 78
In Doe v. UNUM Life Ins. Co. of Am.,79 defendants sought dismissal for
plaintiff’s failure to identify himself. “Defendants argue that because Doe initiated

73
74
75

2018 WL 9986741 (N.D. Ala., June 5, 2018) (slip opinion).
Id., at *2.

Id.

256 F. Supp. 2d 1250 (N.D. Ala. 2003).
2018 WL 9986741 at *4.
78 Id. (emphasis added).
79 164 F. Supp. 3d 1140 (N.D. Calif., 2016).
76
77

20
his lawsuit anonymously without prior leave of court, the complaint should be dismissed under Rule 10(a).”80 “Defendants rely primarily on the Tenth Circuit’s holding in [Yocom] and [National Commodity].”81
The court in UNUM Life rejected these Tenth Circuit holdings, stating:
I will not follow the Tenth Circuit’s decision in Yocom. '[D]istrict courts
within the Ninth Circuit have concluded that dismissal for lack of jurisdiction is not warranted when the plaintiff files a motion to proceed under a
pseudonym, even if that motion is filed after the defendant filed a motion
to dismiss.’ [citations omitted] Courts have reasoned that … ‘as the initial
complaint is a matter of public record, and once a plaintiff has opened a file
number in federal court using his or her real name, any attempt to proceed
under a pseudonym would be pointless.’82
In G.E.G. v. Shinseki,83 a complaint using initials for the plaintiff contained a
request to proceed using a pseudonym, but a separate motion had not been filed.84
Defendant moved to dismiss for lack of a separate motion, citing an unpublished
Sixth Circuit opinion that relied on National Commodity.85 The court in G.E.G.
stated: “Plaintiff validly points out that if a court can fully consider a case in which
the plaintiff proceeds under a pseudonym, it raises a question whether a person’s
name is truly required to confer jurisdiction [initially].”

Id., at 1143.
Id., at 1143-44.
82 Id. (citations omitted) (emphasis added).
80
81

2012 WL 381589 (W.D. Mich., Feb. 6, 2012).
Id., at *1.
85 Id., at *3.
86 Id. (emphasis added).
83
84

86

The court also acknowl-

21
edged that, even though in some cases a complaint that fails to divulge the plaintiff’s identity is ineffective to commence an action,87 the case at hand was different:
Here, Defendant is fully aware of Plaintiff’s identity and the underlying
facts of this case, which are set forth in the Complaint, including the specific factual allegations supporting Plaintiff’s discrimination claim, as well
as the case numbers and details of the EEO complaint. Although Plaintiff
did not file a motion to proceed pseudonymously, he did recognize the need
for, and requested, the Court’s permission to so proceed in the first paragraph of his Complaint, which stated: ‘Plaintiff G.E.G. resides in Lexington, Kentucky and seeks to proceed under a pseudonym due to the private
nature of his disabilities.88
In Doe v. Barrow County, Ga.89, the court rejected Yocom’s statement that
“no action had been commenced,” as adopted in Estate of Rodriquez, supra. The

Barrow court stated:
This court respectfully disagrees with the Rodriquez’s court’s conclusion
and specifically with the reliance placed on Yocom.”90
The Barrow court further stated: “There is support from within the Eleventh
Circuit for the proposition that a motion to proceed anonymously need not be filed
contemporaneously with the complaint in order to vest the district court with jurisdiction.”91

87
88

Id., at *3.
Id. (emphasis added).

219 F.R.D. 189 (N.D. Ga. 2003).
Id., at 192.
91 Id. (emphasis added), citing Roe v. Aware Woman Ctr. for Choice, Inc., 253 F.3d 678 (11th Cir.
2001).
89
90

22
The court in Barrow also pointed out that, under Fed. R.Civ. P. 17(a), the
failure to bring an action “in the name of the real party in interest does not immediately and automatically divest a district court of jurisdiction.”92 Finally, the court in

Barrow granted plaintiff’s motion to proceed in part because “the inconvenience to
defendant should be relatively low.”93 Likewise, in the case at bar, inconvenience to
the named defendants will be low because they are already accustomed to the confidentiality requirements of CINC proceedings under state law and they have not objected in the older siblings’ cases to proceeding using initials for the plaintiffs.
In the case at bar, the named defendants (not yet served) are well aware of
M.A.C.’s identity and of the underlying facts alleged in the complaint, including the
case number of the underlying CINC action, because defendants had themselves initiated its filing and the disputed seizure in Colorado.
III.

The TENTH Circuit split from the Fifth Circuit in holding that M.A.C. was
required to file a Rule 59(e) motion in the district court so as make a record
prior to appealing a sua sponte dismissal.
The Fifth Circuit, in Davoodi v. Austin Indep. Sch. Dist.,94 expressly abrogat-

ed95 a prior ruling impliedly requiring a Rule 59(e) motion prior to appealing from a

sua sponte dismissal. The court stated: “Indeed, we have long --- and with some fre-

92
93
94
95

Id., citing New York Blood Ctr., 213 F.R.D. 108, 109 (E.D.N.Y. 2003).
Id. at194.
755 F.3d 307 (2014).
Id., at fn. 4.

23
quency --- permitted parties to appeal the improper sua sponte dismissal of their
claims, even when those parties have not filed a Rule 59(e) motion.”96
The panel opinion held that M.A.C. was required to file a Rule 59(e) motion so
as to tell the district court “why its order may have unintentionally created prejudice,” and that, by not doing so, the argument of prejudice was waived.97 This ruling
lacked cited precedent to put M.A.C. on notice that she had no “appeal as of right”
from the order of dismissal.
IV.

The TENTH Circuit, in upholding sua sponte dismissal without prior opportunity to respond, is split from the FIRST, SECOND, THIRD, FIFTH,
SIXTH, SEVENTH, ELEVENTH and D.C. Circuits
A plaintiff with an arguable claim is ordinarily entitled to notice of a motion

to dismiss and an opportunity to amend the complaint. Neitzke v. Williams.98 The
instant case involves a wrongful seizure under the Fourth and Fourteenth Amendments stemming from alleged sexual abuse against minors by a relative, occurring
three years before the wrongful seizure.99 In a Fifth Circuit case where, as here, a

sua sponte dismissal resulted in a bar to litigating the case on its merits because the
time for refiling the action had expired, a district court abused its discretion.100

96

Id., at 311 (citations omitted).

2021 WL 1016422 at *3.
490 U.S. 319 (1989); see also Day v. McDonough, 547 U.S. 198 (2006).
99 See generally, Joel M. Schumm, No Names, Please: The Virtual Victimization of Children, Crime
Victims, The Mentally Ill, And Others in Appellate Court Opinions, 42 Ga. L. Rev. 471 (Winter
2008).
100 Pond v. Braniff Airways, Inc., 453 F.2d 347 (5th Cir. 1972).
97
98

24
Notably, M.A.C.’s case was not dismissed on the basis of sanctions and she
should have been given notice of any deadline to seek permission to proceed anonymously. In a Colorado case involving sexual assault, then-Chief Judge Krieger
wrote: “In deciding whether to allow a party to proceed under a pseudonym, a court
weighs that party's interest in privacy against the public's interest in knowing the
party's identity.”101
Victims of rape and other forms of sexual assault are often stigmatized in a
manner that affects their educational, employment, and social prospects.
See Paul Marcus & Tara L. McMahon, Limiting Disclosure in Rape Victims' Identities, 64 S. Cal. L. Rev. 1020, 1030-36 (1991). The Court has
previously denied that portion of the Roes' motion that sought to seal the
entirety of this action from public view (# 99), ensuring that the public is
fully apprised of the nature of the allegations herein, but the Court finds
that the Roes' interests, as victims of sexual assault, have shown good
cause to proceed under pseudonyms here. Those privacy interests outweigh
the public's interests in identifying the Roes by name. Accordingly, the
Roes may continue to pursue this action under their pseudonyms.102
A.

First Circuit
In Gonzalez-Gonzalez v. United States,103 the First Circuit reversed a district

court, noting that sua sponte dismissal without notice or opportunity to be heard “is
disfavored in federal practice and will rarely be upheld.”104 It further noted:

Roe v. Minguela, 16-cv-02744-MSK-KMT (D. Colo. Aug. 30, 2018), citing Coe v. U.S. Dist. Ct., 676
F.2d 411, 418 (10th Cir. 1982).
101

102

Id.

103

257 F.3d 31 (1st Cir. 2001).
Id., at 36-37.

104

25
If a defendant files a motion to dismiss for failure to state a claim, see Fed.
R. Civ. P. 12(b)(6), the plaintiff, as a practical matter, has notice of the motion and an opportunity to amend the complaint as of right, see Fed. R.
Civ. P. 15(a). But where, as here, a court jettisons an action sua sponte, the
dismissal deprives the plaintiff of these core protections. Thus, the standard for upholding such a sua sponte dismissal is more rigorous than the
‘failure to state a claim’ standard of Rule 12(b)(6). Cf. Neitzke v. Williams,
490 U.S. 319, 327 (1989) (explaining that sua sponte dismissal under 28
U.S.C. 1915 is warranted only if a complaint is ‘based on an indisputably
meritless legal theory’ or is ‘clearly baseless.’)”
B.

Second Circuit

In Perez v. Ortiz,105 the Second Circuit reversed a sua sponte dismissal under
the “general rule that ‘a district court has no authority to dismiss a complaint for
failure to state a claim upon which relief can be granted without giving the plaintiff
an opportunity to be heard.’”106 Also, in Thomas v. Scully,107 the court reversed a

sua sponte dismissal, finding that the complaint was not found to be frivolous and
that dismissal was inappropriate. “A complaint may fail to state a claim that is not
frivolous [under 28 U.S.C. §1915(d)].”108
C.

Other Circuits

Third: “Since the face of the complaint does not refute plainly [the plaintiff’s] averment of jurisdictional amount, it was error for the District Court to

849 F.2d 793 (2nd Cir. 1988).
Id., at 797.
107 943 F.2d 259 (2d Cir. 1991).
105
106

108

Id., citing Neitzke, supra.

26
dismiss the complaint without giving the appellant an opportunity, either orally or in writing, to respond and establish jurisdiction.”109
Fifth: “As such, [plaintiff] had no notice or opportunity to be heard before
the district court issued its order of dismissal. ‘This treatment of the case did
not provide adequate fairness to the appellants, and thus was reversible error.’”110
Sixth: Dismissal requires (1) service on defendants, (2) notice of the
court’s intent to dismiss, (3) plaintiff’s and defendant’s opportunity to respond,
and (4) the court’s reasons for dismissal.111
Seventh: “In conclusion, we believe that a wasteful shuttling of cases involving complaints which are substantial enough to invoke federal jurisdiction,
but which may ultimately fail to state a claim, is best avoided by following
[Bryan v. Johnson, 821 F.2d 455, 457-58 (7th Cir. 1987)]. Issuance and service
of summons should be allowed according to the mandate of Rule 4(a), and if the
court concludes that the complaint should be dismissed sua sponte for failure
to state a claim, the parties must be given both notice of the court’s intention
and an opportunity to respond.”112

Dougherty v. Harper’s Magazine Co., 537 F.2d 758, 761-62 (3rd Cir. 1976).
Davoodi, supra at 310 (citation omitted).
111 Tingler v. Marshall, 716 F.2d 1109, 1112 (6th Cir. 1983).
112 Ricketts v. Midwest Nat. Bank, 874 F.2d 1177 (7th Cir. 1989).
109
110

27
Eleventh:

To employ fair procedure, a district court must generally

provide the plaintiff with notice of its intent to dismiss or an opportunity to respond before dismissing an action sua sponte.113
D.C.: Sue sponte dismissal for failure to state a claim without leave to
amend is reversible error unless the plaintiff cannot possibly win relief because
the facts alleged affirmatively preclude relief, or because, even though plaintiff
makes clear that he has facts to add to his complaint, he would not have a
claim upon which relief could be granted even with those facts.114
D.

Previous Tenth Circuit cases

“[S]ua sponte dismissals without prior notice or opportunity to be heard are
hazardous…[U]nless the defect is clearly incurable, a district court should grant the
plaintiff leave to amend, allow the parties to argue the jurisdictional issue, or provide the plaintiff with the opportunity to discover the facts necessary to establish
jurisdiction.”115 In the case at bar, the complaint did not contain an incurable defect.
In Smilde, the Tenth Circuit stated: “In weighing the advisability of a sua
sponte dismissal based on the complaint alone, however, the court must keep in
mind that a plaintiff with an arguable claim is ordinarily accorded notice of a pendTazoe v. Airbus S.A.S., 631 F.3d 1321 (11th Cir. 2011).
Rudder v. Williams, 666 F.3d 790 (D.C. Cir. 2012).
115 Smilde v. Herman, 201 F.3d 449 (10th Cir. 1999)(unpublished, vacating order of dismissal) (Case
no. 99-1217), citing Joyce v. Joyce, 975 F.2d 379, 386 (7th Cir. 1992) (affirming a sua sponte dismissal
113
114

due to an incurable defect in the complaint).

28
ing dismissal to alert him to the legal theory underlying [a] challenge, and enable
him meaningfully to respond by opposing the motion to dismiss on legal
grounds…so as to conform to the requirements of a valid legal cause of action. This
adversarial process also crystallizes the pertinent issues and facilitates appellate
review of a trial court dismissal by creating a more complete record of the case.’”116
The Tenth Circuit has also held that sua sponte dismissal under Rule
12(b)(6) is only proper when it is “patently obvious that the plaintiff could not prevail on the facts alleged, and allowing him the opportunity to amend his complaint
would be futile.”117 In the instant case, M.A.C. should have been afforded the opportunity to “meaningfully respond” to the district court’s concerns prior to dismissal.

116
117

Id., citing Neitzke, 490 U.S. at 329-30.
Hall v. Belmon, 935 F.2d 1106, 1110 (10th Cir. 1991) (quotation omitted).

29
CONCLUSION
In the Colorado case, the right to notice and hearing dates back decades for ex

parte-ordered child seizures. Procedural due process was “clearly established law”
and a “bright line rule” long before Petitioners’ seizure in 2009. In the Kansas case,
the Tenth Circuit erred by following National Commodity, a “drive-by jurisdictional”
ruling that was entitled to “no precedential value” under this Court’s Arbaugh ruling.
WHEREFORE, Petitioners pray that the Court will grant this Petition for

Writs of Certiorari to the United States Court of Appeals for the Tenth Circuit and
grant such other and further relief that the Court deems just and proper.
Respectfully submitted,
THOMAS BREJCHA
THOMAS OLP
Thomas More Society
309 W. Washington
Suite 1250
Chicago, Illinois 60606
312.782.1680

REBECCA R. MESSALL

Counsel of Record

Messall Law Firm, LLC
7887 E. Belleview Ave., Suite 1100
Englewood, CO 80111
303.228.1685
rm@lawmessall.com
RICHARD J. WALL, JR.
Attorney and Counselor at Law, P.C., L.L.O.
2935 Pine Lake Road, Suite D
Lincoln, NE 68516
402.421.8686
rj@walljr.com

Counsel for Petitioner
JUNE 4, 2021

APPENDIX A

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
M.A.C.,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

March 17, 2021
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellant,
v.
MONICA GILDNER, in their individual
capacity; ANGELA WEBB, in their
individual capacity; TINA ABNEY, in
their individual capacity,

No. 20-3105
(D.C. No. 2:20-CV-02226-HLT-KGG)
(D. Kan.)

Defendants - Appellees.
_________________________________
ORDER AND JUDGMENT*
_________________________________
Before MATHESON, BALDOCK, and CARSON, Circuit Judges.
_________________________________
Three days after plaintiff M.A.C. filed a lawsuit in the United States District
Court for the District of Kansas, the district court dismissed the case without
prejudice for lack of jurisdiction because plaintiff had not moved to proceed by her
initials only. Under our binding precedent, we hold that the district court correctly
identified a jurisdictional defect. We also hold that plaintiff did not preserve her

*

After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

Page: 2

argument that the district court’s dismissal unintentionally created prejudice. Thus,
exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
I.

BACKGROUND & PROCEDURAL HISTORY
Plaintiff claims that in 2009 she and her nine siblings traveled from their

Kansas home to Colorado to visit family friends. While plaintiff and her siblings
were at their friends’ home, Colorado officials acted on allegedly unlawful Kansas
child protection orders to separate them from their mother and place them in Kansas
state custody, in violation of the Fourth and Fourteenth Amendments. As the
younger children have reached the age of majority, they have filed or joined new
suits for redress. So far, this court has upheld the district court’s dismissals in each
case. See E.M.M. v. Douglas Cnty., ___ F. App’x ___, 2021 WL 28569 (10th Cir.
Jan. 5, 2021); N.E.L. v. Gildner, 780 F. App’x 567 (10th Cir. 2019), cert. denied,
140 S. Ct. 936 (2020); N.E.L. v. Douglas Cnty., 740 F. App’x 920, 922 (10th Cir.
2018), cert. denied, 139 S. Ct. 1320 (2019).
Plaintiff filed her lawsuit on May 3, 2020. Although she is no longer a minor,
she identified herself in the complaint by her initials only. She says she did so
because:


she shares the same last name with still-minor siblings who are
identified in the complaint by their initials, see Fed. R. Civ. P. 5.2(a)(3)
(presumptively requiring minors to be identified only by their initials);



Kansas state law regarding child protection matters requires
confidentiality; and
2

Appellate Case: 20-3105



Document: 010110495275

Date Filed: 03/17/2021

Page: 3

the complaint includes allegations of sexual abuse committed upon
some of plaintiff’s siblings.

However, plaintiff did not provide these explanations to the district court because she
did not file a contemporaneous motion to proceed by her initials only. Plaintiff tells
us in her opening brief that she intended to file such a motion but her counsel
experienced technical challenges with the district court’s electronic filing system.
Counsel’s description of her filing troubles is vague. She successfully filed
the complaint on May 3, 2020, and she does not explain why she did not file a motion
to proceed by initials the same day. Counsel instead reports she sent an e-mail to the
district court clerk’s office one day later, May 4, announcing her intent to file a
motion to proceed using initials. In that e-mail, counsel further explained that,
“[when] filing the case, the system made me put in a first and last name. I was
hoping your office could fix that problem, too, if it’s not too much trouble to remove
one of the sets of initials.” Aplt. Opening Br. at 3 (internal quotation marks omitted).
This e-mail seems to say that, to satisfy the filing system requirements, counsel wrote
“M.A.C.” in both the first- and last-name fields. But plaintiff does not explain why
this interfered with filing a motion to proceed by initials.
Plaintiff next says that on May 5, her counsel called and e-mailed the district
court clerk’s office “to report a sudden difficulty receiving emails at counsel’s
primary email address and also, to provide an alternative email address to receive
[Notices of Electronic Filing].” Id. at 4 (footnote omitted). Again, she does not
explain why this interfered with her ability to file a motion.
3

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

Page: 4

Plaintiff represents that on May 6, she received a communication from the
clerk’s office, directing her “to call the Office of Attorney Registration (‘OAR’).”
Id. Then, “OAR’s staff person apologized for not returning counsel’s call because,
due to the pandemic, the court-issued cell phone had never rung.” Id. Yet again, she
does not explain why this interfered with her ability to file a motion.
In any event, the same day, May 6, the district court entered a sua sponte order
dismissing the action for lack of jurisdiction, given the failure to obtain permission to
proceed by initials:
The Federal Rules of Civil Procedure require that
pleadings include the names of all parties, and that actions
be prosecuted in the name of the real party in interest. The
Federal Rules thus make no provision for suits by persons
using fictitious names or for anonymous plaintiffs.
Instead, a party who wishes to file anonymously or
proceed under a pseudonym must first petition the district
court for permission. If a party does not have permission,
a federal court lacks jurisdiction over the unnamed parties.
And because this issue is jurisdictional, a court may raise it
sua sponte.
Here, M.A.C. has not requested to proceed under a
pseudonym. Accordingly, this Court lacks jurisdiction and
must dismiss this case without prejudice. Upon re-filing,
Plaintiff is cautioned that she must first request permission
to proceed anonymously, if she wishes to do so.
Aplt. App. at 41–42 (internal quotation marks, citations, and footnote omitted).
Plaintiff, however, tells us she could not simply have re-filed the action. The
events at issue took place in 2009 and normally she would have been required to
bring any § 1983 claim within two years of those events. See Hamilton v. City of
Overland Park, 730 F.2d 613, 614 (10th Cir. 1984) (en banc) (holding that Kan. Stat.
4

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

Page: 5

Ann. § 60-513(a)(4)’s two-year statute of limitations applies to § 1983 claims in
Kansas). Plaintiff received the benefit of a statute extending her time to file for one
year after she turned eighteen, see Kan. Stat. Ann. § 60-515(a), but she represents in
her opening brief that “her nineteenth birthday intervened between the date the
complaint was filed on May 3, 2020, and the date the dismissal was entered on
May 6, 2020,” Aplt. Opening Br. at 29—meaning the extended statute of limitations
expired while the case was pending.
II.

ANALYSIS
Plaintiff’s arguments on appeal raise essentially two issues: (i) whether the

district court lacked jurisdiction; and, if so, (ii) whether the district court
appropriately dismissed sua sponte, without warning.
A.

District Court’s Jurisdiction

We review de novo a district court’s finding that it lacks subject matter
jurisdiction. See, e.g., Harms v. IRS, 321 F.3d 1001, 1007 (10th Cir. 2003). The
district court dismissed for lack of jurisdiction based on National Commodity &
Barter Association v. Gibbs, 886 F.2d 1240 (10th Cir. 1989) (NCBA) (per curiam).
NCBA was essentially a tax protester lawsuit in which some plaintiffs wished to
remain anonymous. See id. at 1244–45. This court noted that Federal Rule of Civil
Procedure 10(a), as then worded, said, “In the complaint, the title of the action shall
include the names of all the parties . . . .” Id. at 1245 (ellipsis in original; internal

5

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

Page: 6

quotation marks omitted).1 “The Federal Rules thus make no provision for suits by
persons using fictitious names or for anonymous plaintiffs,” although courts make
exceptions in “certain limited circumstances.” Id. But the unnamed plaintiffs had
never asked for an exception.
In this light, the court announced that, “[a]bsent permission by the district
court to proceed anonymously, and under such other conditions as the court may
impose (such as requiring disclosure of their true identity under seal), the federal
courts lack jurisdiction over the unnamed parties, as a case has not been commenced
with respect to them.” Id. The court therefore dismissed the complaint as to the
unnamed plaintiffs. Id. The court further noted that it could do so, despite the
defendants having never raised the argument, because the matter was “jurisdictional”
and could be raised sua sponte. Id. n.3.
Plaintiff argues that NCBA has been partly superseded by the 2007
amendments to the Federal Rules of Civil Procedure. Those amendments added Rule
5.2, which, among other things, requires minors to be named only by their initials
unless the court orders otherwise. See Fed. R. Civ. P. 5.2(a)(3). Thus, according to
Plaintiff, NCBA is outdated when it says that “[t]he Federal Rules . . . make no
provision for suits by persons using fictitious names or for anonymous plaintiffs.”
886 F.2d at 1245. But this provides no help to plaintiff, who became an adult before
she filed her complaint.

1

Rule 10(a) still says as much, but in more direct language: “The title of the
complaint must name all the parties . . . .”
6

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

Page: 7

Plaintiff also cites extra-circuit decisions supposedly disagreeing with NCBA.
Plaintiff apparently hopes to convince us that NCBA was wrongly decided. But
“[t]his panel cannot overrule prior panel decisions.” Muskrat v. Deer Creek Pub.
Schs., 715 F.3d 775, 792 (10th Cir. 2013). This court continues to cite NCBA for its
holding that proceeding anonymously without permission is a jurisdictional defect
that may (and, indeed, must) be raised sua sponte. See United States ex rel. Little v.
Triumph Gear Sys., Inc., 870 F.3d 1242, 1249–50 (10th Cir. 2017); W.N.J. v. Yocom,
257 F.3d 1171, 1172 (10th Cir. 2001).
Because NCBA is still the law of the circuit, the district court correctly
identified a defect in its subject-matter jurisdiction, namely, plaintiff’s failure to
provide her full name or seek permission to do otherwise. Dismissal for lack of
jurisdiction was therefore substantively appropriate. However, plaintiff also raises a
procedural objection.
B.

Sua Sponte Dismissal Without Prior Notice

Plaintiff alternatively argues that even if jurisdiction was lacking, the district
court should not have dismissed without notice or an opportunity to be heard. And
the without-prejudice nature of the dismissal does not render the purported error
harmless, plaintiff says, because the statute of limitations expired during the three
days the suit was pending. Cf. AdvantEdge Bus. Grp. v. Thomas E. Mestmaker &
Assocs., 552 F.3d 1233, 1236 (10th Cir. 2009) (“This court has recognized that a
dismissal without prejudice can have the practical effect of a dismissal with prejudice
if the statute of limitations has expired.”).
7

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

Page: 8

This court has apparently never stated a standard of review for a district
court’s choice to dismiss immediately (rather than issue an order to show cause)
when it identifies a jurisdictional defect. But we need not announce a standard of
review because the factual predicate of plaintiff’s argument was not before the
district court and is not properly before us.
Plaintiff points to nothing in the record alerting the district court to the
statute-of-limitations problem that dismissal purportedly created, and her counsel’s
representations in the opening brief on appeal are not a substitute for making a proper
record in the district court. See, e.g., Fed. R. App. P. 28(a)(8)(A) (“The appellant’s
brief must contain . . . citations to the authorities and parts of the record on which the
appellant relies . . . .”); Am. Stores Co. v. Comm’r, 170 F.3d 1267, 1271 (10th Cir.
1999) (“[W]hatever counsel . . . may have represented or argued in a brief, it was not
evidence. It was only argument . . . .”). Plaintiff, apparently intent on overturning
NCBA, decided to appeal immediately, without first telling the district court why its
order may have unintentionally created prejudice (a matter with no necessary
connection to whether NCBA remains good law). By failing to show she made her
argument to the district court, plaintiff waived it for purposes of appeal. See Petrini
v. Howard, 918 F.2d 1482, 1483 n.4 (10th Cir. 1990) (“A federal appellate court, as a
general rule, will not reverse a judgment on the basis of issues not presented
below.”).
Nor can plaintiff claim lack of opportunity to make the argument. Of course
“the district court should allow a plaintiff an opportunity to cure technical errors.”
8

Appellate Case: 20-3105

Document: 010110495275

Date Filed: 03/17/2021

Page: 9

Curley v. Perry, 246 F.3d 1278, 1284 (10th Cir. 2001). But in the context of a due
process challenge to district courts’ authority to screen in forma pauperis complaints
for failure to state a claim, this circuit has held that
lack of prior notice of a sua sponte dismissal with
prejudice for failure to state a claim is harmless when, as
here, the plaintiff has a reasonable post-judgment
opportunity to present his arguments to the district court
and the appellate court, including the opportunity to
suggest amendments that would cure the complaint’s
deficiencies.
Id. This reasoning applies equally well to jurisdictional dismissals that
unintentionally operate with prejudice. Plaintiff could have filed a postjudgment
motion, such as under Federal Rule of Civil Procedure 59(e), thus giving the district
court a chance to assess and rule on the claim that its dismissal was effectively with
prejudice. At a minimum, such a motion would have created the necessary factual
record before appealing. Plaintiff filed no such motion. We therefore do not reach
her argument that the district court’s dismissal unintentionally created prejudice.
III.

CONCLUSION
We affirm the district court.
Entered for the Court
Joel M. Carson III
Circuit Judge

9

APPENDIX B

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
E.M.M.; N.M.M.; G.J.M.,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

January 5, 2021
Christopher M. Wolpert
Clerk of Court

Plaintiffs - Appellants,
v.
DOUGLAS COUNTY, COLORADO;
LESA ADAME, individually; CARL
GARZA, individually,

No. 19-1391
(D.C. No. 1:18-CV-02616-RBJ)
(D. Colo.)

Defendants - Appellees.
_________________________________
ORDER AND JUDGMENT *
_________________________________
Before PHILLIPS, BALDOCK, and CARSON, Circuit Judges.
_________________________________
Plaintiffs appeal the district court’s dismissal with prejudice of this action
based on claim preclusion. We affirm the dismissal, but on alternate grounds.
BACKGROUND
This is the third appeal related to this dispute. In our two previous decisions
we comprehensively discussed the facts and legal theories underlying claims brought
by N.E.L., M.M.A., and E.M.M. These three prior plaintiffs, children of Mr. and
*

After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

Page: 2

Mrs. Doe, alleged they were taken into custody and temporarily separated from their
parents as the result of wrongful actions by Kansas and Colorado authorities. See
N.E.L. v. Gildner (N.E.L. II), 780 F. App’x 567 (10th Cir. 2019), cert. denied,
140 S. Ct. 936 (2020); N.E.L. v. Douglas Cnty. (N.E.L. I), 740 F. App’x 920
(10th Cir. 2018), cert. denied, 139 S. Ct. 1320 (2019). N.E.L. I pertained to Colorado
officials and was litigated in the District of Colorado. N.E.L. II pertained to Kansas
officials and was first transferred to and then litigated in the District of Kansas. In
each case we affirmed the district court’s dismissal of all claims.
Following our latest decision, E.M.M., who was a plaintiff in N.E.L. II (the
District of Kansas case) and two of his siblings, N.M.M. and G.J.M., who were not
named as plaintiffs in the prior litigation but have now reached the age of majority,
filed this new suit in the District of Colorado against the Colorado defendants. Five
of their claims are substantially identical to the claims asserted in N.E.L. I. Plaintiffs
have also added two claims, alleging that defendants violated (1) their Fourteenth
Amendment rights, by failing to provide them with notice and a hearing in Colorado;
and (2) their right to travel.
The defendants moved to dismiss this action on several grounds: claim
preclusion, issue preclusion, the statute of limitations, qualified immunity, and failure
to plead a claim of municipal liability. The district court determined that claim
preclusion barred plaintiffs’ claims, dismissed their claims with prejudice, and did
not reach the other asserted grounds for dismissal.

2

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

Page: 3

As plaintiffs acknowledge, see Aplt. Opening Br. at 7, 23, we may affirm this
judgment on any ground that finds support in the record. See GF Gaming Corp. v.
City of Black Hawk, 405 F.3d 876, 882 (10th Cir. 2005). Here, affirmance is
appropriate because all plaintiffs’ claims fail as a matter of law. To the extent
plaintiffs raise claims identical to those previously raised by their older siblings,
those claims were thoroughly litigated in our prior appellate decisions and fail for the
reasons we have identified. 1 To the extent plaintiffs attempt to raise new claims, or
rely on newly stated facts, those claims fail for reasons we will now specify.
DISCUSSION
In assessing whether a complaint states a claim, we accept the well-pleaded
allegations of the complaint as true and view them in the light most favorable to the
plaintiff. Jones v. Hunt, 410 F.3d 1221, 1223 (10th Cir. 2005). “To survive a motion
to dismiss, a complaint must contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (internal quotation marks omitted).
1. Previously Asserted Claims
The older siblings’ complaint in N.E.L. I raised six claims under the Fourth
and Fourteenth Amendments. As the district court noted, the complaint in this action
“is largely identical to the older siblings’ complaint.” Aplt. App. at 223. Five of the
seven claims raised in this action “are identical to claims asserted in the older
1

We have not simply affirmed based on our decisions in those prior cases,
however. Instead, we have carefully considered the arguments plaintiffs have raised
in their appellate briefing in this case.
3

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

Page: 4

siblings’ complaint, except to the extent that plaintiffs have removed [Kansas
defendants] Gildner, Webb, and Abney,” id., and substituted themselves as plaintiffs.
These five claims are
• “that Adame and Garza violated the Fourth Amendment by approving and/or
conducting an unlawful seizure by which Plaintiffs were deprived of their
liberty without due process when they were prohibited from any movement or
travel with their mother, father and grandparents,”
• “that Adame and Garza violated plaintiffs’ Fourteenth Amendment right to
maintain a familial relationship,”
• “that Adame and Garza conspired to deprive plaintiffs of their constitutional
rights,”
• “that plaintiffs were entitled to exemplary damages because the actions of
Adame and Garza were attended by intent, recklessness, callous disregard or
indifference to plaintiffs’ rights,” and
• “that Douglas County violated the Fourth Amendment by adopting as its
policy or practice warrantless seizure, or alternatively by acting with deliberate
indifference in failing to train personnel.”
Id. at 223-24 (alterations and internal quotation marks omitted).
In N.E.L. I, we affirmed the dismissal of each of these claims, as asserted by
the older siblings. We determined that the Fourth Amendment and Fourteenth
Amendment claims against Adame and Garza failed because the defendants were
entitled to qualified immunity. See N.E.L. I, 740 F. App’x at 929-30 (Fourth
4

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

Page: 5

Amendment claims); id. at 931 (Fourteenth Amendment claims). And the older
siblings’ Fourth Amendment claim against Douglas County failed because they did
not plead sufficient facts to sustain a claim under Monell v. Department of Social
Services, 436 U.S. 658 (1978), whether their claim was based on formal policy, see
N.E.L. I, 740 F. App’x at 932-33; custom, see id. at 933; or deliberate indifference,
see id. at 933-34.
Plaintiffs’ identical claims in this suit fail for substantially the same reasons.
And even though their complaint asserts additional facts to support their
municipal-liability claim, those facts do not warrant a different result.
A. Additional Facts Concerning Formal Policy
In N.E.L. I, we noted the older siblings’ contention that Douglas County
unconstitutionally followed a formal policy of complying with a 2007 state-court
standing order that allegedly led its employees to violate the Fourth Amendment.
But we found this argument waived, because the older siblings “didn’t mention the
standing order in their First Amended Complaint” or their opening brief. N.E.L. I,
740 F. App’x at 932. Perhaps in response to this holding, plaintiffs have added a
paragraph to their complaint alleging that “Douglas County adopted a policy
contained in a standing order, CJO 07-11, authorizing the warrantless entry and
seizure of Plaintiffs, which policy was the moving force behind the deprivation of
Plaintiffs’ [constitutional rights].” Aplt. App. at 34, ¶ 188a. But this additional
allegation does not require a different outcome.

5

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

Page: 6

Notwithstanding our waiver determination in N.E.L. I, we also addressed the
older siblings’ formal-policy argument on the merits. We concluded their reliance on
the policy at issue here, CJO 07-11, failed to establish a Monell claim because the
standing order did not authorize county officials to enter homes without a warrant.
See N.E.L. I, 740 F. App’x at 932-33. Plaintiffs’ invocation of this policy in their
complaint does not dictate a different result.
B. Additional Facts Concerning Deliberate Indifference
In N.E.L. I we also addressed the older siblings’ contention that Douglas
County’s failure to adopt an adequate policy and training concerning the
enforceability of out-of-state ex parte orders constituted deliberate indifference. We
concluded the older siblings failed to allege facts plausibly showing that failure to
adopt such a policy was “substantially certain to result in illegal seizures or entries
into homes without warrants,” or that Douglas County was on notice that its failure to
act would lead to illegal seizures or warrantless entries into homes and was
deliberately indifferent to the risk of harm. Id. at 934 (internal quotation marks
omitted).
Plaintiffs have added two paragraphs to their complaint concerning this claim.
The first confirms that Douglas County lacked an official policy for handling
requests to enforce out-of-state ex parte orders. See Aplt. App. at 35, ¶ 190a. The
second relies on a provision in Douglas County’s policy manual providing that
“[o]ut-of-state Court Orders are not valid on their face in Colorado, except for
Foreign Protection Orders.” Id., ¶ 191a (internal quotation marks omitted). Plaintiffs
6

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

Page: 7

contend this policy manual provision made it obvious that Douglas County needed to
adopt and implement an official policy prohibiting the seizure of children based on
out-of-state ex parte orders. But neither new allegation fills the hole in the complaint
that we previously identified: failure to plausibly allege facts that rise to the level of
deliberate indifference.
2. New Claims
Plaintiffs also added two new claims to their complaint, alleging that the
defendants (1) violated their procedural due process rights under the Fourteenth
Amendment and Colorado’s UCCJEA by failing to afford them notice and a hearing
in Colorado, and (2) violated their right to travel. Our analysis in N.E.L. I dictates
dismissal of the procedural due process claim as stated in plaintiffs’ complaint, both
as it relates to the individual defendants, who are entitled to qualified immunity, see
N.E.L. I, 740 F. App’x at 931 n.21; and as it relates to Douglas County, see id. at
932-34. In addition, plaintiffs have failed to identify clearly established law or a
basis for municipal liability that would permit them to pursue a claim against these
defendants for an alleged deprivation of their right to travel.
Seeking to resurrect their procedural due process claim, plaintiffs nevertheless
urge us to “overturn [our] previous rulings in N.E.L. I and II [and] find that Plaintiffs
had a clearly established right to a post-seizure hearing in Colorado based on the
detailed requirements of Colorado’s UCCJEA and federal decisional law.” Aplt.
Opening Br. at 7. In response, the defendants urge us to follow our law-of-the-circuit
principle, under which we may overturn a prior panel decision only in very specific
7

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

Page: 8

circumstances, such as when there has been an en banc consideration or an
intervening Supreme Court decision. See, e.g., United States v. Doe, 865 F.3d 1295,
1298-99 (10th Cir. 2017). Plaintiffs respond that this principle is inapplicable here,
because both N.E.L. I and II were unpublished decisions. See Kennedy v. Lubar,
273 F.3d 1293, 1300 n.9 (10th Cir. 2001) (“[T]he law of the circuit doctrine . . .
refers generally to our policy that prior circuit precedent, derived from a published
opinion on the merits, will not be overturned absent an en banc ruling of this court.”).
But even if we consider this issue on the merits, the dismissal must still be
affirmed. Having carefully reviewed plaintiffs’ arguments as well as our decisions in
N.E.L. I and II, we conclude that given the unusual facts of this case plaintiffs have
failed to point us to “existing precedent [that] placed the statutory or constitutional
question beyond debate,” Kisela v. Hughes, ___U.S.___, 138 S. Ct. 1148, 1152
(2018) (per curiam) (internal quotation marks omitted), and that made it “sufficiently
clear that every reasonable official would have understood that what he is doing
violates that right,” Mullenix v. Luna, 577 U.S. 7, 11 (2015) (per curiam) (internal
quotation marks omitted). Their reliance on the UCCJEA’s procedural requirements
to support their Fourteenth Amendment argument does not satisfy their burden, cf.
N.E.L. I, 740 F. App’x at 930 (“Having failed to provide us authority clearly
establishing that violating the Colorado UCCJEA is a Fourth Amendment violation,
[the older siblings] haven’t met their burden.”), and the other authorities they cite are
insufficiently particularized to the facts of this case to constitute clearly established
law. Thus, dismissal of this claim is proper based on qualified immunity.
8

Appellate Case: 19-1391

Document: 010110459931

Date Filed: 01/05/2021

CONCLUSION
We affirm the district court’s judgment.
Entered for the Court

Gregory A. Phillips
Circuit Judge

9

Page: 9

APPENDIX C

Case 2:20-cv-02226-HLT-KGG Document 3 Filed 05/06/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
M.A.C.,
Plaintiff,
v.

Case No. 2:20-CV-02226-HLT-KGG

MONICA GILDNER, et al.,
Defendants.

ORDER
M.A.C. has sued three employees of the Kansas Department of Children and Families.
Doc. 1. Although M.A.C. is now an adult, the events at issue apparently took place when she was
a child. Although all Defendants are named in the complaint, M.A.C. and all of her family
members or family friends are referenced only by initials or pseudonyms. M.A.C. has not sought
leave to proceed in this fashion.
The Federal Rules of Civil Procedure require that pleadings include the names of all parties,
and that actions be prosecuted in the name of the real party in interest. See Fed. R. Civ. P. 10(a);
Fed. R. Civ. P. 17(a). “The Federal Rules thus make no provision for suits by persons using
fictitious names or for anonymous plaintiffs.” Nat’l Commodity & Barter Ass’n, Nat’l Commodity
Exch. v. Gibbs, 886 F.2d 1240, 1245 (10th Cir. 1989). Instead, a party who wishes to file
anonymously or proceed under a pseudonym must first petition the district court for permission.
W.N.J. v. Yocom, 257 F.3d 1171, 1172 (10th Cir. 2001). If a party does not have permission, a
federal court lacks jurisdiction over the unnamed parties. Id.; see also L.E.H. v. Kan. Dep’t of
Children & Families, 2018 WL 1256513, at *1 (D. Kan. 2018). And because this issue is
jurisdictional, a court may raise it sua sponte. Nat’l Commodity, 886 F.2d at 1245 n.3.

Case 2:20-cv-02226-HLT-KGG Document 3 Filed 05/06/20 Page 2 of 2

Here, M.A.C. has not requested to proceed under a pseudonym. 1 Accordingly, this Court
lacks jurisdiction and must dismiss this case without prejudice. Upon re-filing, Plaintiff is
cautioned that she must first request permission to proceed anonymously, if she wishes to do so.
Any such requests will be evaluated using the standards set forth by this district and the Tenth
Circuit. See Doe 1 v. Unified Sch. Dist. 331, 2013 WL 1624823, at *1 (D. Kan. 2013) (noting that
proceeding under a pseudonym is permitted in “exceptional circumstances . . . where disclosure of
plaintiff’s name would implicate significant privacy interests or threats of physical harm”).
THE COURT THEREFORE ORDERS that M.A.C.’s complaint (Doc. 1) is DISMISSED
WITHOUT PREJUDICE for lack of jurisdiction.
IT IS SO ORDERED.
Dated: May 6, 2020

1

/s/ Holly L. Teeter
HOLLY L. TEETER
UNITED STATES DISTRICT JUDGE

This is somewhat surprising given that M.A.C.’s attorney is counsel of record in at least two related cases where
this same issue was addressed. In one case, the plaintiffs were ordered to show cause on this issue and then later
requested leave to proceed anonymously. See E.M.M., N.M.M., and G.J.M. v. Douglas Cty., Colo., Case No. 182616 (D. Colo. 2018) (Doc. 4, ordering the plaintiffs to show cause, and Doc. 5, subsequent motion). In another
case, which was initially filed in Colorado and then transferred to Kansas, the plaintiff moved to proceed
anonymously. See N.E.L. & M.M.A. v. Douglas Cty., Colo., No. 15-2847 (D. Colo. 2016) (Doc. 9, motion to
proceed anonymously).

2

APPENDIX D

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 1 of 19

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge R. Brooke Jackson
Civil Action No. 18-cv-02616-RBJ
E.M.M., et al.,
Plaintiffs,
v.
DOUGLAS COUNTY, COLORADO,
LESA ADAME, individually, and
CARL GARZA, individually,
Defendants.

ORDER GRANTING MOTION TO DISMISS

Defendants Douglas County, Colorado, Lesa Adame, and Carl Garza move to dismiss
pursuant to Federal Rule of Civil Procedure 12(b)(1) and 12(b)(6) for failure to state a claim on
which relief could be granted. The motion is granted.
I. FACTS
Plaintiffs’ claims are the latest in a series of litigations to arise out of a welfare check on a
home in Colorado. Mr. and Mrs. Doe have ten children, including the three plaintiffs in this
case. At the time of the events alleged in this case, the family lived in Kansas but were staying
with friends in Colorado.
In spring of 2008, allegations first surfaced that a relative was abusing some of the
children. Mr. and Mrs. Doe reported the first allegations to the Kansas Department of Social and

1

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 2 of 19

Rehabilitation Services (“SRS/DCF”) in June 2008. 1 Thereafter Mr. and Mrs. Doe began a fastsouring relationship with SRS/DCF and in particular with the social worker assigned to them,
Monica Gildner, and Gildner’s supervisors, Angela Webb and Tina Abney.
On April 20, 2009 the Kansas District Attorney’s Office filed ten Child-in-Need-of-Care
petitions in Kansas state court, one for each child. These petitions requested termination of Mr.
and Mrs. Doe’s parental rights, appointment of a permanent custodian for the children,
temporary removal of the children from Mr. and Mrs. Doe’s custody, and an order of child
support. A non-emergency hearing was set for May 11, 2009.
Sometime between April 20, 2009 and April 30, 2009, Mrs. Doe took the ten children to
Colorado. They stayed at the home of family friends Dr. and Mrs. G in Douglas County.
Presumably upon learning of this, the Kansas state court served ten ex parte orders of protective
custody on Mr. Doe, who had remained in Kansas. Plaintiffs acknowledge that the ex parte
orders contain “alarm[ing]” allegations that Mr. and Mrs. Doe had abused their children. ECF
No. 12 ¶ 116. However, plaintiffs maintain that these allegations are false and based on
“fraudulent[] misrepresent[ations]” that were retaliatory in nature. Id. ¶¶ 115, 118b.
On May 6, 2009 two Colorado state authorities—defendant Lesa Adame, a Douglas
County social worker, and defendant Carl Garza, a Douglas County Sheriff’s deputy—visited the
Doe family at Dr. and Mrs. G’s Colorado home. It is this visit that forms the foundation of the
complaint. Plaintiffs allege that at the home, Adame and Garza misrepresented the ex parte
orders by incorrectly claiming that they provided for Kansas to take custody of the children, and

1

This state agency is now called the Kansas Department of Children and Families and is referenced in the
First Amended Complaint as “SRS/DCF.” ECF No. 12 at 2–3.

2

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 3 of 19

that they used threats and intimidation to enter the house. Once inside, Adame communicated
that Kansas was taking custody of the children and restricting Mr. and Mrs. Doe’s
communication with the children. Adame and Garza informed Dr. and Mrs. G that Kansas state
authorities would be arriving at an unspecified time to take physical custody of the children.
Instead of waiting for the authorities to arrive in Colorado, Dr. and Mrs. G transported the
children back to Kansas and delivered them to SRS/DCF custody themselves. Dr. G requested
temporary custody of the children, or alternatively for the children’s paternal grandparents to
take custody. SRS/DCF denied this request, separated the children, and placed them with foster
families.
Procedural History
In 2015, upon reaching the age of majority, two of plaintiffs’ older siblings—N.E.L. and
M.M.A.—filed suit related to the 2009 conduct (“older siblings’ complaint”). See N.E.L. v.
Douglas Cty., Colo., No. 15-CV-02847-REB-CBS, 2017 WL 1242992, at *1, 2 n.2 (D. Colo.
Jan. 27, 2017), aff'd, 740 F. App'x 920 (10th Cir. 2018), reh'g denied (July 17, 2018), cert.
denied sub nom. N.E.L. v. Douglas Cty., Colo., 139 S. Ct. 1320 (2019). Plaintiffs named as
defendants Douglas County, Adame, Garza, Gildner, Webb, and Abney. Id.
The older siblings’ complaint asserted six § 1983 claims under the Fourth Amendment
and Fourteenth Amendment: (1) that all defendants violated the Fourth Amendment by
“approv[ing] and/or conduct[ing] an unlawful seizure . . . by which Plaintiffs were deprived of
their liberty without due process when they were prohibited . . . from any movement or travel
with their mother, father and grandparents;” (2) that Gildner, Webb, and Abney violated the
Fourth Amendment by holding plaintiffs “against their will for five days prior to a hearing on the
3

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 4 of 19

CINC petitions;” (3) that Adame, Garza, Gildner, Webb, and Abney violated plaintiffs’
Fourteenth Amendment right to maintain a familial relationship; (4) that Adame, Garza, Gildner,
Webb, and Abney conspired to deprive plaintiffs of their constitutional rights; (5) that plaintiffs
were entitled to exemplary damages because “[t]he actions of Gildner, Abney, Webb, Adame
and Garza were attended by retaliation, malice, ill will, intent and/or recklessness, [and] callous
disregard of [p]laintiffs’ rights, or indifference to [p]laintiffs’ rights;” and (6) that Douglas
County violated the Fourth Amendment “by adopting an unlawful policy that authorized county
sheriff’s personnel ‘to seize [p]laintiffs based on an out-of-state ex parte order in violation of the
United States Constitution and Colorado law,’ or through deliberate indifference by failing to
‘adopt a policy requiring . . . or in failing to train personnel . . . to comply with the United States
Constitution and Colorado law.’” Id. (quoting First Amended Complaint at 44, N.E.L., 2017 WL
1242992 (No. 15-CV-02847-REB-CBS)).
A magistrate judge recommended dismissal with prejudice of all of the claims against
Douglas County, Adame, and Garza. See N.E.L., 2017 WL 1242992, at *18. Following the
older siblings’ objections to that recommendation, a Colorado district court adopted the
recommendation in full. 2 See id. The court dismissed the Fourth Amendment and Fourteenth
Amendment claims against Adame and Garza based on qualified immunity. See id. at *10
(finding that plaintiffs had failed to allege a Fourth Amendment violation and had failed to show
2

The court also transferred all of the claims against Gildner, Webb, and Abney to the District of Kansas
upon finding that it lacked personal jurisdiction. See N.E.L., 2017 WL 1242992, at *17. The claims
against Gildner, Webb, and Abney are not relevant to the disposition of this case, in which plaintiffs have
named only Douglas County, Adame, and Garza as defendants. Incidentally, the Kansas district court
dismissed all of the claims based on qualified immunity, see N.E.L. v. Gildner, No. 17-2155-CM, 2018
WL 1185262, at *11 (D. Kan. Mar. 7, 2018), and the Tenth Circuit affirmed, see N.E.L. v. Gildner, No.
18-3059, 2019 WL 2592557, at *1 (10th Cir. June 25, 2019).

4

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 5 of 19

that defendants violated clearly established law); id. at *12 (finding that plaintiffs had failed to
allege a Fourteenth Amendment violation). Because the court dismissed the substantive claims
against Adame and Garza, it also dismissed the civil-conspiracy claim. Id. at *13 n.14. Finally,
the court found that lack of any constitutional violation by Adame and Garza defeated the claim
against Douglas County. See id. at *14 (“It is axiomatic that a local government body cannot be
liable for damages if the plaintiff suffered no constitutional injury at the hands of a government
employee.”).
The Tenth Circuit affirmed in full and denied plaintiffs’ subsequent petition for panel
rehearing. See N.E.L. v. Douglas Cty., Colo., 740 F. App'x 920, 934 (10th Cir. 2018), reh'g
denied (July 17, 2018), cert. denied sub nom. N.E.L. v. Douglas Cty., Colo., 139 S. Ct. 1320
(2019). N.E.L. and M.M.A. filed a petition for a writ of certiorari to the United States Supreme
Court, which was also denied. See N.E.L., 139 S. Ct. at 1320.
In the instant case, three different Doe siblings—E.M.M, N.M.M, and G.J.M—have filed
a complaint against Douglas County, Adame, and Garza (“younger siblings’ complaint”). ECF
No. 12 at 1; id. ¶¶ 196–223. This younger siblings’ complaint is largely identical to the older
siblings’ complaint. The plaintiffs assert seven § 1983 claims under the Fourth Amendment, the
Fourteenth Amendment, and the right to travel. Id. ¶¶ 196–223. Four of these claims are
identical to claims asserted in the older siblings’ complaint, except to the extent that plaintiffs
have removed Gildner, Webb, and Abney as defendants. These four identical claims include: (1)
that Adame and Garza violated the Fourth Amendment by “approv[ing] and/or conduct[ing] an
unlawful seizure . . . by which Plaintiffs were deprived of their liberty without due process when
they were prohibited . . . from any movement or travel with their mother, father and
5

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 6 of 19

grandparents,” id. ¶¶ 196–98; (2) that Adame and Garza violated plaintiffs’ Fourteenth
Amendment right to maintain a familial relationship, id. ¶¶ 202–08; (3) that Adame and Garza
conspired to deprive plaintiffs of their constitutional rights, id. ¶¶ 209–12; (4) that plaintiffs were
entitled to exemplary damages because “[t]he actions of Adame and Garza were attended by
intent, recklessness, callous disregard or indifference to [p]laintiffs’ rights,” id. ¶¶ 217–18; and
(5) that Douglas County violated the Fourth Amendment by “adopt[ing] as its policy or practice .
. . warrantless seizure,” or alternatively by “act[ing] with deliberate indifference” in failing to
train personnel, id. ¶¶ 219–23. Plaintiffs have also added two new claims, including: (1) that all
defendants violated the Fourteenth Amendment rights by “fail[ing] to afford [p]laintiffs notice
and hearing in Colorado;” id. ¶¶ 199–201, and (2) that all defendants violated plaintiffs’ right to
travel, id. ¶ 213–16.
Defendants Douglas County, Adame, and Garza collectively move to dismiss. ECF No.
13 at 1. They argue that plaintiffs’ claims against all defendants are barred by claim preclusion,
issue preclusion, and the applicable statute of limitations; that plaintiffs’ claims against Adame
and Garza are barred by the doctrine of qualified immunity; and that plaintiffs’ claims against
Douglas County have failed to plead a claim for municipal liability. Id. at 3, 6, 8, 13.
“Plaintiffs naturally take strong exception to all of these arguments.” N.E.L., 2017 WL
1242992, at *2. Relevant here, plaintiffs contest the application of claim preclusion because they
are not in privity with their siblings from the prior suit, ECF No. 29 at 3, and because the
complaints do not share an identical cause of action, id. at 4.
Because I find that claim preclusion bars plaintiffs’ claims, I do not address the
remainder of defendants’ arguments in their motion to dismiss.
6

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 7 of 19

II. STANDARD OF REVIEW
To survive a 12(b)(6) motion to dismiss, the complaint must contain “enough facts to
state a claim to relief that is plausible on its face.” Ridge at Red Hawk, LLC v. Schneider, 493
F.3d 1174, 1177 (10th Cir. 2007) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)). A plausible claim “allows the court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). While the
Court must accept the well-pleaded allegations of the complaint as true and construe them in the
light most favorable to the plaintiff, Robbins v. Wilkie, 300 F.3d 1208, 1210 (10th Cir. 2002),
conclusory allegations are not entitled to be presumed true, Iqbal, 556 U.S. at 681. However, so
long as the plaintiff offers sufficient factual allegations such that the right to relief is raised above
the speculative level, he has met the threshold pleading standard. See, e.g., Twombly, 550 U.S. at
556; Bryson v. Gonzales, 534 F.3d 1282, 1286 (10th Cir. 2008).
The court may also consider certain documents beyond the pleadings. The court may
take judicial notice of “its own files and records” and “facts which are a matter of public record”
without converting a Rule 12(b)(6) motion to dismiss into a Rule 56 motion for summary
judgment. See Tal v. Hogan, 453 F.3d 1244, 1264–65 n.24 (10th Cir. 2006) (quoting Van
Woudenberg ex rel. Foor v. Gibson, 211 F.3d 560, 568 (10th Cir. 2000)); see also St. Louis
Baptist Temple, Inc. v. F.D.I.C., 605 F.2d 1169, 1172 (10th Cir. 1979) (“[F]ederal courts, in
appropriate circumstances, may take notice of proceedings in other courts, both within and
without the federal judicial system, if those proceedings have a direct relation to matters at
issue.”). However, these documents “may only be considered to show their contents, not to

7

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 8 of 19

prove the truth of matters asserted therein.” Tal, 453 F.3d at 1264–65 n.24 (quoting Oxford
Asset Mgmt., Ltd. v. Jaharis, 297 F.3d 1182, 1188 (11th Cir. 2002)).
III. ANALYSIS
Claim preclusion “prevent[s] a party from litigating a legal claim that was or could have
been the subject of a previously issued final judgment.” MACTEC, Inc. v. Gorelick, 427 F.3d
821, 831 (10th Cir. 2005). It is based on the principle that “a party who once has had a chance to
litigate a claim before an appropriate tribunal usually ought not have another chance to do
so.” Stone v. Dep’t of Aviation, 453 F.3d 1271, 1275 (10th Cir. 2006) (citation omitted). “To
apply claim preclusion, three elements must exist: ‘(1) a [final] judgment on the merits in an
earlier action; (2) identity of parties or privies in the two suits; and (3) identity of the cause of
action in both suits.’” Lenox MacLaren Surgical Corp. v. Medtronic, Inc., 847 F.3d 1221, 1239
(10th Cir. 2017) (quoting King v. Union Oil Co. of Cal., 117 F.3d 443, 445 (10th Cir. 1997)).
Additionally, “even if these three elements are satisfied, there is an exception to the application
of claim preclusion where the party resisting it did not have a ‘full and fair opportunity to
litigate’ the claim in the prior action.” Id. (quoting MACTEC, 427 F.3d at 831).
Here, plaintiffs do not dispute defendants’ assertion that the first element of claim
preclusion—a final judgment on the merits in an earlier action—is met. Neither do I. The
district court’s dismissal with prejudice of the claims asserted by N.E.L. and M.M.A. against
Douglas County, Adame, and Garza constitute a final judgment on the merits. See N.E.L., 2017
WL 1242992, aff'd, 740 F. App'x 920 (10th Cir. 2018), reh'g denied (July 17, 2018), cert. denied
sub nom. N.E.L. v. Douglas Cty., Colo., 139 S. Ct. 1320 (2019). The Tenth Circuit affirmed this
final judgment and the Supreme Court denied cert. See id. However, plaintiffs do dispute that
8

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 9 of 19

the second and third elements of claim preclusion are met. Plaintiffs argue that the parties in the
two suits were not in privity and that there was no identity of the cause of action between the
suits. I address both of these topics in turn, beginning with identity of the cause of action.
A. Identity of the Cause of Action
The Tenth Circuit uses the transactional approach to analyze identity of the cause of
action. See Nwosun v. Gen. Mills Rests., Inc., 124 F.3d 1255, 1257 (10th Cir. 1997). Under the
transactional approach, “a cause of action includes all claims or legal theories of recovery that
arise from the same transaction, event or occurrence.” Id. A new legal theory related to the
same transaction, event, or occurrence as in the prior suit is thus precluded (assuming the other
elements of claim preclusion are met). See, e.g., Wilkes v. Wyo. Dep’t of Emp’t Div. of Labor
Standards, 314 F.3d 501, 504–06 (10th Cir. 2002) (finding that plaintiff’s new Title VII claim
against employer was barred under claim preclusion because plaintiff had asserted a Fair Labor
Standards Act claim in a prior suit against the same employer for the same employment
relationship). What constitutes the same transaction, event, or occurrence “is to be determined
pragmatically, giving such weight to considerations as whether the facts are related in time,
space, origin, or motivation.” Yapp v. Excel Corp., 186 F.3d 1222, 1227 (10th Cir. 1999)
(quoting Restatement (Second) of Judgments § 24 (1982)).
Plaintiffs argue that identity of the cause action does not exist because the younger
siblings’ complaint includes both new claims and new factual allegations. ECF No. 29 at 2.
Contrary to plaintiffs’ assertions, neither their new claims nor their new factual allegations
constitute a new cause of action. As defendants point out—and as plaintiffs do not contest—the
thirty-four-page complaints from both suits are textually identical aside from a few discrete
9

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 10 of 19

phrases and paragraphs. Four of the claims in the younger siblings’ complaint are entirely
identical to the older siblings’ complaint. There are two allegedly new claims: (1) violation of
procedural due process based on defendants’ “fail[ure] to afford [p]laintiffs notice and hearing in
Colorado,” and (2) violation of plaintiffs’ “right to travel to Colorado.” ECF No. 12 ¶¶ 199–201,
213–16. Yet these two claims arise from the same transaction as did those in the older siblings’
complaint: the removal of the ten children from Mr. and Mrs. Doe’s custody by Colorado state
authorities acting pursuant to a Kansas state court order. Plaintiffs’ instant complaint explicitly
states that “the warrantless entry and seizure of [p]laintiffs . . . was the moving force behind the
deprivation of [p]laintiffs’ liberty, procedural due process, familial association and right to
travel.” Id. ¶ 188a (emphasis added). I find that because all six legal claims in the younger
siblings’ complaint arise from the same transaction as those in the older siblings’ complaint, they
share identity of the cause of action.
Nor are plaintiffs’ new factual allegations sufficient to defeat preclusion. “[N]ew facts in
support of claims asserted in a prior action will usually not avoid application of claim
preclusion” unless the new facts “in themselves establish independent grounds for a claim
against the defendants in the previous action.” Hatch, 471 F.3d at 1150 n.8 (quoting 18 James
William Moore, Moore’s Federal Practice § 131.22[1], at 131–55 (3d ed. 2006)). Here, the new
factual allegations include more evidence about (1) the lack of “probable cause for [p]laintiffs’
removal,” 3 ECF No. 12 ¶ 187a, and (2) Douglas County’s policies related to the alleged
“warrantless entry and seizure of [p]laintiffs,” id. ¶¶ 188a, 190a, 191a. Defendants’ allegedly

3

Specifically, plaintiffs allege that the Kansas state court that granted the CINC petitions “found and
made an entry into the court’s minutes, after testimony by Gildner, that no probable cause existed for
[p]laintiffs’ removal from their [p]arents and [g]randparents.” ECF No. 12 ¶ 187a.

10

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 11 of 19

unconstitutional seizure and alleged adoption of an unconstitutional policy are not independent
grounds for a claim; they are reiterations of the same grounds provided in the older siblings’
complaint.
Neither plaintiffs’ new claims nor their new factual allegations are sufficient to
distinguish the cause of action. Plaintiffs’ complaint thus hinges on whether the two sets of
siblings were in privity.
B. Privity
Claim preclusion applies only when the parties in both suits are either identical or in
privity. See Lenox MacLaren, 847 F.3d at 1240. The concept of privity is admittedly vague; the
Tenth Circuit has recognized “that no definition of privity can be automatically applied in all
cases involving the doctrine of [claim preclusion].” Pelt v. Utah, 539 F.3d 1271, 1281 (10th Cir.
2008). At the very least privity requires “a substantial identity between the issues in controversy
and showing the parties in the two actions are really and substantially in interest the same.” Id.
(quoting Lowell Staats Min. Co. v. Philadelphia Elec. Co., 878 F.2d 1271, 1275 (10th Cir.1989)
(internal quotations omitted)).
The Tenth Circuit has not yet had occasion to consider the extent to which familial
relationships establish privity. Other circuit courts recognize that although familial relationships
are not on their own sufficient, they can “constitute an important factor when assessing the
preclusive effects of a prior litigation.” Trevino v. Gates, 99 F.3d 911, 924 (9th Cir. 1996); see
also Baloco v. Drummond Co., 767 F.3d 1229, 1250 (11th Cir. 2014) (“While familial
relationship standing alone is not enough, it is certainly a consideration . . . .”).

11

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 12 of 19

The Supreme Court has provided some limiting guidance on the concept of privity in
federal law. In Taylor v. Sturgell, the Court rejected the expansive doctrine of “virtual
representation,” which counseled preclusion “whenever the relationship between a party and a
non-party is close enough to bring the second litigant within the judgment.” 4 553 U.S. 880, 894,
898 (2008). In lieu of virtual representation, the Court provided six categories that can establish
privity. See id. at 894, 893 n.6 (noting that the list of categories “is meant only to provide a
framework for our consideration of virtual representation, not to establish a definitive
taxonomy”). These categories include: (1) when a party agrees to be bound; (2) when there
exists a “pre-existing substantive legal relationship;” (3) when a nonparty was “adequately
represented by someone with the same interests who [was] a party” in an earlier suit;” (4) when
the nonparty assumed control over the litigation; (5) when a nonparty later sues as the designated
representative of a party to the earlier suit; and (6) when a special statutory scheme so directs Id.
at 894–95.
Here, defendants assert that the “familial relationship, shared factual involvement, shared
counsel and shared cause of action” establish privity. ECF No. 13 at 4. Plaintiffs respond (1)
that there was no pre-existing substantive legal relationship between the three Doe siblings in the
instant suit (“younger siblings”) and the two older siblings from the prior suit (“older siblings”)
and (2) that the younger siblings were not adequately represented by the older siblings because
there was neither any “understanding that [the older siblings] were authorized to act for [the

4

However, the Court also noted that its rejection of the term “virtual representation” was “unlikely to
occasion any great shift in actual practice.” Id. at 904 (“Many opinions use the term ‘virtual
representation’ in reaching results at least arguably defensible on established grounds. In these cases,
dropping the ‘virtual representation’ label would lead to clearer analysis with little, if any, change in
outcomes.”).

12

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 13 of 19

younger siblings]” nor any “special procedures by the prior court(s) protect[ing]” the younger
siblings. ECF No. 29 at 3–4.
I find that privity does exist between the younger siblings and the older siblings.
Plaintiffs are correct that, post-Taylor, privity requires something more than mere close
relationship. However, I find that that something is met here. Although there is no pre-existing
substantive legal relationship, the younger siblings were adequately represented by the older
siblings in the prior suit.
1. Pre-Existing Substantive Legal Relationship
The younger siblings do not have a pre-existing substantive legal relationship with the
older siblings. The Tenth Circuit has described such a relationship as “one in which the parties
to the first suit are somehow accountable to nonparties who file a subsequent suit raising
identical issues.” Pelt, 539 F.3d at 1290. They often originate in property law, including
“preceding and succeeding owners of property, bailee and bailor, assignee and assignor, guardian
and ward and trustee and beneficiary.” Id. (citing Richards, 517 U.S. 793, 798 (1996)).
Here, there is no “fiduciary, contractual or property relationship between current and
prior litigants.” Id. at 1290–91. The older siblings were not guardians or fiduciaries of their
younger siblings. Nor do plaintiffs’ Fourth and Fourteenth Amendment claims against
government agents involve any fiduciary, contractual, or property law considerations. See
Roybal v. City of Albuquerque, No. CIV.08-0181 JB/LFG, 2009 WL 1300048, at *7 (D.N.M.
Feb. 2, 2009). Defendants rely improperly on Baloco v. Drummond Co., Inc, in which the
Eleventh Circuit found privity between two sets children, some of which were half-siblings. 767
F.3d at 1250–51 (noting that the children in the first suit were represented by their mothers as
13

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 14 of 19

their guardians). Although the familial relationship was a factor in finding a substantive legal
relationship, the court established privity primarily because the requested relief implicated
property law considerations. Id. The children all sought to share an award of wrongful death
damages as heirs or legal beneficiaries of the decedent, and thus “successive awards would be
improperly duplicative.” Id. at 1250. In contrast, the younger siblings have requested relief
based on individual harm, not as heirs or legal beneficiaries.
2. Adequate Representation
However, I do find that the younger siblings were adequately represented by the older
siblings in the prior suit. The Supreme Court has clarified that adequate representation requires,
“at a minimum,” that “(1) the interests of the nonparty and her representative were aligned, and
(2) either the party understood herself to be acting in a representative capacity or the original
court took care to protect the interests of the non-party.” Taylor, 553 U.S. at 900 (citations
omitted) (emphasis added). “In addition, adequate representation sometimes requires (3) notice
of the original suit to the persons alleged to have been represented.” Id. The Court noted that
“[r]epresentative suits with preclusive effect on nonparties include properly conducted class
actions, and suits brought by trustees, guardians, and other fiduciaries.” Id. at 895 (citations
omitted).
First, the interests of both sets of children were aligned. Plaintiffs attempt to rely on
Roybal v. City of Albuquerque to show that familial association alone is insufficient to show joint
interest. 2009 WL 1300048, at *8. In Roybal, a New Mexico district court held that a wife had
not acted in a representative capacity for her husband for the purpose of their similar civil rights
claims. See id. at *1. Many of the facts underlying the Roybals’ separate claims were similar:
14

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 15 of 19

They revolved around an alleged wrongful search of their shared home and alleged wrongful
arrests of both. See id. Yet the particulars of the individual claims were distinct. Mrs. Roybal
alleged that she was arrested in her home’s stairway and in retaliation for protesting the entry of
the officers into her home by “pok[ing] one of the officers in the chest.” Id. at *1, 2. Mr. Roybal
alleged that he was arrested for an incident involving excessive force occurring in the garage. Id.
at *2. Defendants in Roybal attempted to argue that “the Roybals’ long marriage, close
relationship, and joint ownership of the home that police entered” was sufficient to establish
privity. Id. at *3. The court disagreed. See id. at *8–9. It held that a “close, intimate
relationship” is insufficient to find privity under Taylor, and therefore that Mrs. Roybal had not
been acting as a representative or fiduciary for her husband. Id. at *8.
In contrast to the facts of Roybal, more than mere familial relationship aligns the younger
and older siblings here. As discussed above, the siblings sought the same relief for the exact
same alleged conduct. Plaintiffs have alleged no relevant facts that might distinguish the two
claims. The two suits are bound by more than mere “genetic relationship;” they are bound by
identical facts, identical claims, and identical requests for relief. In short, they are bound by
identical interests.
The older siblings also vigorously pursued those interests throughout litigation. See Pelt,
539 F.3d at 1287 (“Once the case proceeds to final judgment and is asserted as part of a claim
preclusion defense, the question shifts from incentive to litigate to whether the absent parties’
interests were in fact vigorously pursued and protected.”). The older siblings briefed the issues
in the defendants’ motion to dismiss, submitted objections to the magistrate judge’s
recommendation, appealed the district court’s adoption of the magistrate judge’s
15

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 16 of 19

recommendation to the Tenth Circuit, and then petitioned the Supreme Court for certiorari (not
to mention the parallel litigation and subsequent appeal to the Tenth Circuit regarding the claims
against Gildner, Webb, and Abney).
Second, the older siblings must have understood that their suit positioned them in a
representative capacity for all of their eight siblings, including the three sibling plaintiffs in the
instant complaint. It is true that implied consent by a nonparty to be bound by a former
judgment is not often found. See § 4453 Preclusion by Consent and Estoppel by Conduct, 18A
Fed. Prac. & Proc. Juris. § 4453 (3d ed.). It is also true that the older siblings expressly stated in
their complaint that they brought suit “on their own behalf.” First Amended Complaint at 2,
N.E.L., 2017 WL 1242992 (No. 15-CV-02847-REB-CBS).
Yet there is strong indiction throughout the older siblings’ complaints that the older
siblings understood that their suit would serve as a quasi “test case” for the younger siblings. §
4453 Preclusion by Consent and Estoppel by Conduct, 18A Fed. Prac. & Proc. Juris. § 4453 (3d
ed.). The older siblings’ complaint largely reads as if it were asserting claims on behalf of all ten
of the siblings. The ten siblings are primarily referred to collectively as “the children” or
variations of “[p]laintiffs and their siblings.” The older siblings’ complaint does not differentiate
between the interests of any of the ten siblings, much less between the two distinct sets of
siblings. In fact, the complaint could be resubmitted under the names of any of the siblings
without any alteration save the names at the top (and indeed this is almost precisely what
happened here).
Further, the older siblings here had no apparent reason to believe they might not be acting
in a representative capacity for the younger siblings. This is in contrast to cases in which
16

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 17 of 19

plaintiffs were deemed not in privity after intentionally deciding not to pursue class actions or
group claims. See Pelt, 539 F.3d at 1289 (finding that the prior plaintiffs did not understand that
they were serving in a representative capacity where they intentionally decided not to pursue a
class action based on tensions between the respective parties). The instant case is not one in
which “[t]here is no evidence that plaintiffs and their counsel were working on anyone’s behalf
other than their own.” 5 Id. The language of the complaint, the close familial relation, and the
shared counsel all indicate to the contrary. 6 See Baloco, 767 F.3d at 1250; Trevino, 99 F.3d at
924.
Third, contrary to plaintiffs’ claims, the district court did not need to impose “special
procedures” to protect their interests. ECF No. 29 at 3. Special procedures are necessary only
when plaintiffs in the prior suit did not understand that they acted in a representative capacity.
See Navajo Nation v. Wells Fargo & Co., 344 F. Supp. 3d 1292, 1307 (D.N.M. 2018) (citing
Taylor, 553 U.S. at 900 n.11) (“[S]pecific effort to protect the interests of a nonparty are required
only if the litigating party does not intend to act as a representative of the nonparty’s interests.”).
Here, as discussed above, I find that the older siblings did understand that they acted in a
representative capacity.

5

Plaintiffs do emphasize that they were minors at the time that their older siblings filed suit. ECF No. 12
at 3. Yet this has little bearing on whether the older siblings understood themselves to be acting in a
representative capacity for the younger siblings. If anything, I find it tips in favor of finding that the older
siblings did understand as much. Indeed, the older siblings provided for the interests of their siblings to
the extent that their status as minors mattered. In the beginning of litigation, the older siblings—who at
that time were not minors—moved to redact all identifying information regarding all ten children to
prevent “expos[ing] the identity of the Does’ entire family, including the eight minor children.”
Plaintiffs’ Motion to Proceed Anonymously at 2, N.E.L., 2017 WL 1242992 (No. 15-CV-02847-REBCBS).
6
Note that these factors alone may be insufficient to show privity under Taylor’s rejection of virtual
representation. 553 U.S. at 904. However, I find that these factors are sufficient to show this particular
prong of the adequate representation analysis in this admittedly unusual case.

17

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 18 of 19

Furthermore, even if the older siblings did not understand themselves to be acting as
representatives for their younger siblings, I find that the court engaged in adequate special
procedures to protect the interests of the younger siblings. Special procedures are generally
considered relevant in the context of class actions. See Taylor, 553 U.S. at 900–01 (“In the
class-action context, these limitations are implemented by the procedural safeguards contained in
Federal Rule of Civil Procedure 23.”); see, e.g., Pelt, 539 F.3d at 1284–89 (describing a court’s
duties in protecting absent class members). Indeed, the Supreme Court’s rationale for rejecting
virtual representation was that it could “allow[] courts to ‘create de facto class actions at will.’”
See Taylor, 553 U.S. at 901.
Plaintiffs here do not elaborate on what kind of special procedures should have been
imposed. Plaintiffs and the prior litigants are siblings who share the same counsel, so formal
notice was not necessary. See Taylor, 533 U.S. at 900 n.11 (“[N]otice is required in some
representative suits, e.g., class actions seeking monetary relief . . . . But [the Supreme Court has]
assumed without deciding that a lack of notice might be overcome in some circumstances.”
(citing Richards, 517 U.S. at 801)). Thus finding adequate representation here does not
constitute the kind of common-law class action rejected in Taylor. See id.; cf. Pelt, 539 F.3d at
1289.
Claim preclusion applies to bar plaintiffs’ claims. The younger siblings were in privity
with the older siblings, who obtained a final judgment on the merits on a complaint that shares
identity of the cause of action.

18

Case 1:18-cv-02616-RBJ Document 41 Filed 09/27/19 USDC Colorado Page 19 of 19

ORDER
Defendants’ motion to dismiss, ECF No. 13, is GRANTED. Plaintiffs’ claims against
defendants are dismissed with prejudice.
DATED this 27th day of September, 2019.

BY THE COURT:

___________________________________
R. Brooke Jackson
United States District Judge

19

APPENDIX E

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
N.E.L.; M.M.A.; E.M.M.,

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

June 25, 2019
Elisabeth A. Shumaker
Clerk of Court

Plaintiffs - Appellants,
v.
MONICA GILDNER; ANGELA WEBB;
TINA ABNEY,

No. 18-3059
(D.C. No. 2:17-CV-02155-CM-JPO)
(D. Kan.)

Defendants - Appellees.
_________________________________
ORDER AND JUDGMENT*
_________________________________
Before BACHARACH, PHILLIPS, and EID, Circuit Judges.
_________________________________
Kansas child-and-family-services employees obtained an ex parte order from a
Kansas state court to take ten minor children, including plaintiffs, into immediate
physical custody. They then arranged with Colorado authorities to execute the
Kansas custody order in Colorado, where the children were temporarily located.
Plaintiffs N.E.L. and M.M.A. later sued both Kansas and Colorado officials under
42 U.S.C. § 1983 in the United States District Court for the District of Colorado.

*

After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 2

The District of Colorado determined it lacked personal jurisdiction over the
Kansas defendants and transferred the case against them to the United States District
Court for the District of Kansas. The District of Kansas denied a motion to
re-transfer the case to the District of Colorado, granted the defendants qualified
immunity, and dismissed the case. Plaintiffs appeal the dismissal and the denial of
their motion to re-transfer to Colorado. Exercising jurisdiction under 28 U.S.C.
§ 1291, we affirm.
BACKGROUND
In a related appeal, we affirmed the District of Colorado’s order dismissing the
plaintiffs’ first amended complaint against the Colorado defendants. N.E.L. v.
Douglas Cty., 740 F. App’x 920, 922-27, 934 (10th Cir. 2018), cert. denied,
139 S. Ct. 1320 (2019) (N.E.L. I). After those defendants were dismissed and the
action against the Kansas defendants was transferred to the District of Kansas,
plaintiffs filed their operative second amended complaint (SAC). The SAC added an
additional plaintiff (E.M.M.) and two additional claims.
We detailed plaintiffs’ factual allegations at length in N.E.L. I. See id. at
922-26. We need not repeat that discussion here. Essentially, plaintiffs contend that
the defendants obtained ex parte orders of protective custody from a Kansas court
based on omissions and misrepresentations, then acted in concert with the Colorado
defendants in wrongfully executing the orders, resulting in plaintiffs’ removal from
Jane Doe’s custody and their temporary placement in state custody.

2

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 3

The SAC includes claims for unlawful seizure in violation of the Fourth
Amendment, unlawful detention in violation of the Fourth Amendment, deprivation
of familial association in violation of the Fourteenth Amendment, conspiracy to
deprive plaintiffs of their constitutional rights, exemplary damages, deprivation of
the right to travel, and malicious prosecution and/or abuse of process. The district
court granted the defendants qualified immunity on all claims.
“A motion to dismiss based on qualified immunity imposes the burden on the
plaintiff to show both that [1] a constitutional violation occurred and [2] that the
constitutional right was clearly established at the time of the alleged violation.” Doe
v. Woodard, 912 F.3d 1278, 1289 (10th Cir.), cert. denied, 2019 WL 1116409 (U.S.
May 20, 2019) (No. 18-1173) (internal quotation marks omitted). In deciding the
qualified immunity question the district court considered not only the allegations of
the SAC but also documents the defendants provided in support of their motion to
dismiss. It determined the uncontested facts in these documents showed that “[m]ost
of the claimed ‘misrepresentations and omissions’ set forth in [the SAC] are refuted
. . . or are not material.” Jt. App., Vol. II at 206. The district court concluded based
on the uncontested factual allegations in the Child in Need of Care (CINC) petitions
“combined with the parents’ post-petition conduct, it would be reasonable for an
official to believe an ex parte order of protective custody was justified.” Id. at 207.
On appeal, the plaintiffs argue that (1) the district court construed their
complaint too narrowly and failed to address the defendants’ actions taken in
conspiracy with the Colorado defendants to unlawfully execute the ex parte orders;
3

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 4

(2) the district court erred in deferring to the defendants’ judgment; and (3) clearly
established law prohibited the Kansas defendants from seizing plaintiffs from a
private home without a warrant, a valid court order, exigent circumstances, or
consent. They also argue the district court clearly erred by failing to re-transfer their
case to the District of Colorado.
DISCUSSION
1. Grant of Qualified Immunity
“We review de novo the grant of a motion to dismiss under Rule 12(b)(6) due
to qualified immunity.” Doe, 912 F.3d at 1288. “At the motion to dismiss stage, it is
the defendant’s conduct as alleged in the complaint that is scrutinized for objective
legal reasonableness.” Id. (brackets and internal quotation marks omitted).
A clearly established right “should not be defined at a high level of
generality.” White v. Pauly, 137 S. Ct. 548, 552 (2017) (per curiam) (internal
quotation marks omitted). Instead, “the clearly established law must be
particularized to the facts of the case.” Id. (internal quotation marks omitted).
Although plaintiffs need not cite “a case directly on point for a right to be clearly
established, existing precedent must have placed the statutory or constitutional
question beyond debate.” Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018) (per
curiam) (internal quotation marks omitted). “A clearly established right is one that is
sufficiently clear that every reasonable official would have understood that what he is
doing violates that right.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (per curiam)
(internal quotation marks omitted).
4

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 5

A. Execution of Ex Parte Orders
Plaintiffs argue the district court erred by discussing only the defendants’
conduct in seeking the ex parte orders and ignoring plaintiffs’ claims concerning the
execution of those orders and their subsequent detention. We need not decide
whether the district court failed to fully and individually discuss plaintiffs’
execution- and detention-related claims, because we may affirm on any basis
supported by the record, see Richison v. Ernest Grp., Inc., 634 F.3d 1123, 1130
(10th Cir. 2011), and we elect to do so here.
In N.E.L. I, we determined the Colorado defendants (a social worker and
deputy sheriff) were entitled to qualified immunity in connection with plaintiffs’
claims that they “failed to first register the ex parte Kansas order with a Colorado
court as required by the Colorado UCCJEA, entered Dr. and Mrs. G’s home without a
warrant, and illegally seized [the children],” 740 F. App’x at 929; “relied on the
facially invalid Kansas ex parte order to enter the home,” id.; “deprived [N.E.L. and
M.M.A.] of their Fourteenth Amendment right to familial association by requiring
Mrs. Doe to leave Dr. and Mrs. G’s home[,] by prohibiting N.E.L. and M.M.A. from
leaving with Mrs. Doe[,] by prohibiting N.E.L. and M.M.A. from traveling with Mrs.
Doe, Mr. Doe, and their grandparents[,] and by detaining N.E.L. and M.M.A. for the
purpose of terminating Mr. and Mrs. Doe’s parental rights,” id. at 931; and conspired
to violate N.E.L. and M.M.A.’s Fourth Amendment and Fourteenth Amendment
rights, see id. at 931 n.22. We reasoned plaintiffs failed to show the alleged actions
violated clearly established law. See id. at 929-31.
5

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 6

Likewise, the Kansas defendants are entitled to qualified immunity on
plaintiffs’ seizure and detention-related claims in this case, because plaintiffs have
failed to present clearly established law that supports their Fourth and Fourteenth
Amendment claims. For substantially the reasons stated in N.E.L. I, we affirm the
dismissal on qualified-immunity grounds of plaintiffs’ claims relating to the
execution of the ex parte orders and plaintiffs’ resulting detention.
B. Lawfulness of CINC Petitions and Ex Parte Orders
Plaintiffs also attack the lawfulness of defendants’ conduct in filing the CINC
petitions and obtaining the ex parte orders. They contend defendants misrepresented
or omitted facts to create the impression there was probable cause to believe that
plaintiffs met the definition of “children in need of care” and were in immediate
danger. See SAC ¶ 213, Jt. App., Vol. II at 49 (internal quotation marks omitted).
“[G]overnment officials’ procurement through distortion, misrepresentation and
omission, of a court order to seize a child is a violation of the Fourth Amendment.”
Malik v. Arapahoe Cty. Dep’t of Soc. Servs., 191 F.3d 1306, 1316 (10th Cir. 1999)
(citation and internal quotation marks omitted).1

1

Plaintiffs argue the district court’s conclusion that “it would be
reasonable for an official to believe an ex parte order of protective custody was
justified,” Jt. App., Vol. II at 207, contradicts its earlier findings that (1) “the
allegations in the [SAC]—that defendants sought the ex parte order[s] knowing there
was no emergency and knowing they were omitting and misrepresenting relevant
facts—[establish that they] violate[d] clearly established Tenth Circuit law,” id. at
200, and (2) no travel restrictions prohibited plaintiffs’ travel to Colorado. Assuming
these district court findings are contradictory, we are not bound by them in
conducting our de novo review. Cf. Brokers’ Choice of Am., Inc. v. NBC Universal,
6

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 7

But plaintiffs must show the alleged omissions and misstatements were “so
probative they would vitiate probable cause.” Id. (internal quotation marks omitted).
“[W]e measure probable cause by (1) removing any false information from the
[document supporting a probable cause determination], (2) including any omitted
material information, and then (3) inquiring whether the modified [document]
establishes probable cause.” Patel v. Hall, 849 F.3d 970, 982 (10th Cir. 2017)
(addressing claim that arrest warrant included false information and/or omissions that
vitiated probable cause); cf. Snell v. Tunnell, 920 F.2d 673, 698 (10th Cir. 1990)
(discussing evaluation of probable cause in context of “judicial deception” claim
involving social workers’ investigation).
(1) Reliance on Matters Outside Complaint
As an initial matter, plaintiffs complain the district court improperly relied on
matters outside the SAC without converting the motion to dismiss to a motion for
summary judgment and without giving them notice and an opportunity to present
evidence in opposition to the “summary judgment” motion. “Generally, a district
court can consider . . . materials [outside a complaint] only by converting the motion
to dismiss to a motion for summary judgment.” Lincoln v. Maketa, 880 F.3d 533,
537 n.1 (10th Cir. 2018). But a district court may consider indisputably authentic
documents that are central to the plaintiff’s claim and referred to in the complaint

Inc., 861 F.3d 1081, 1104 (10th Cir. 2017) (“[W]e need not address . . . alleged errors
regarding the district court’s analytical tools because our review is de novo.”).
7

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 8

without converting the motion to one for summary judgment. Pace v. Swerdlow,
519 F.3d 1067, 1072-73 (10th Cir. 2008). “We review for abuse of discretion a
district court’s refusal to convert a Rule 12(b)(6) motion to dismiss into a Rule 56
motion for summary judgment.” Brokers’ Choice of Am., Inc. v. NBC Universal,
Inc., 861 F.3d 1081, 1103 (10th Cir. 2017).
Here, the district court considered the outside documents after concluding
there was no dispute as to their authenticity, plaintiffs had referred to them in the
SAC, and the facts in these documents were central to plaintiffs’ claims. Plaintiffs
fail to show it abused its discretion in doing so.
Plaintiffs argue that even if they conceded the authenticity of the outside
documents, they did not agree that the records’ contents were true. They accuse the
district court of using the CINC petitions to refute the facts they specifically pled in
the SAC. The district court noted that plaintiffs had raised no challenge to the
underlying facts in the CINC petitions. Jt. App., Vol. II at 202 (“[W]hile plaintiffs
allege the CINC petitions were not based on probable cause, they have not contested
the facts in the CINC petitions.”). Although plaintiffs now purport to dispute the
underlying facts in the petitions, their generalized assertions about the source of
defendants’ knowledge of certain facts or the conclusions to be drawn from these
facts fail to present any significant challenge to the specific underlying facts
themselves.

8

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 9

(2) Probable Cause
The factual challenges plaintiffs raise are insufficient to show that defendants
sought the CINC petitions without probable cause, relying on known falsehoods and
omissions, in violation of clearly established law. The facts as summarized by the
district court provided probable cause for filing the CINC petitions. Plaintiffs’
claims of misrepresentations or omissions are insufficient to demonstrate otherwise.
That brings us to the heart of plaintiffs’ claim: that defendants lacked
probable cause to believe that plaintiffs were in immediate danger when they sought
ex parte orders. According to plaintiffs, the motion for the orders, filed by an
assistant district attorney at defendants’ behest, falsely stated to the court that an
emergency existed because the family had fled the state of Kansas. In their opening
brief, plaintiffs make six arguments why the motion and/or orders were not supported
by probable cause, and were based on alleged false statements and omissions made to
the issuing court: (1) a non-emergency hearing had been set on the CINC petitions,
(2) the CINC petitions did not prohibit them from traveling, (3) defendants were
aware of their precise location in Colorado, (4) defendants had no reason to believe
they were in immediate physical danger, (5) the Does had not refused to participate
in family preservation services, and (6) plaintiffs ultimately prevailed in the CINC
proceeding when the judge found no probable cause to remove them from their
parents. None of these challenges establishes that defendants proceeded without
probable cause in violation of clearly established law.

9

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 10

First, the CINC court presumably was aware of its own docket and the fact that
a non-emergency hearing had been set. The omission of that fact did not conceal a
lack of probable cause.
Second, the failure to mention that the CINC petitions lacked travel
restrictions was not a significant omission. The gist of the motions was that the Does
had left the state soon after the initiation of CINC proceedings and shortly before a
scheduled hearing. This timing-related concern remained valid regardless of whether
the plaintiffs were subject to express travel restrictions.
Third, the CINC filings did not state that the children’s whereabouts were
unknown. In fact, the motion for ex parte orders acknowledged that the Does’ food
stamp card was used in Littleton, Colorado on May 2, 2009. This is consistent with
the representation in the SAC that the defendants “had information that the Doe
family was in Littleton, Colorado as of May 2, 2009.” Jt. App., Vol. II at 28 ¶ 99.
We note the SAC further alleges that when they sought the ex parte orders,
defendants knew the “precise” address where the children were located. Id. at 29-30
¶ 108. Given this alleged fact, defendants’ representation in the motion that they
merely knew locations where the Doe family’s food stamp card had been used in
Colorado may seem disingenuous. But disingenuousness is not enough. We must
ask whether inclusion of the precise address where the plaintiffs were staying would
have vitiated probable cause. Again, the core concern was that the children had been

10

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 11

removed from the state after the initiation of CINC proceedings and shortly before a
scheduled hearing, not whether their precise location was known.2
Fourth, although defendants may not have had a basis to be concerned about
plaintiffs’ physical safety, for the reasons we have stated they did have a concern
about their mental well-being. This concern formed the basis for the underlying
petitions and the asserted emergency.
Fifth, the motion requesting ex parte orders asserted that family preservation
services had been offered and that John Doe indicated he was willing to participate in
the services. The motion did not state that the Does had rejected such services. To
the extent the ex parte orders could have created a misleading impression by stating
only that such services had been offered, without disclosing Mr. Doe’s willingness to
accept them, this did not vitiate probable cause. The court found both that reasonable
efforts had been made to avoid removal of the children from their home, and that
such reasonable efforts were not required because an emergency existed. Mr. Doe’s
willingness to participate in family preservation services arguably affected only the
non-emergency-based rationale.

2

The ex parte orders themselves go further, affirmatively stating that the
children’s whereabouts are unknown. But it is unclear that statement can be
attributed to the defendants. The SAC merely asserts, on information and belief, that
the defendants “participated in intentionally crafting the language of the Ex Parte
Orders.” Jt. App., Vol. II at 30 ¶ 112. An allegation on information and belief that
defendants participated in some unspecified way in drafting a court order that
purportedly contained an inaccuracy falls short of plausibly asserting a basis for
liability. Cf. Madonna v. United States, 878 F.2d 62, 66 (2d Cir. 1989) (fraud on the
court must be pled with particularity).
11

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 12

Sixth, the fact that plaintiffs ultimately prevailed in state-court proceedings
does not mean that defendants’ alleged misrepresentations and omissions violated
clearly established law. For the reasons we have stated, plaintiffs fail to show such a
violation.
Whether we would have concluded that an emergency existed under the facts
alleged if the question were presented to us in the first instance is not the issue.
Rather, it is whether the defendants, in making the alleged misrepresentations and
omissions, violated clearly established law by knowingly presenting the need for
emergency seizure and detention without probable cause. They did not. The district
court therefore properly granted qualified immunity concerning this claim.
2. Denial of Motion to Re-Transfer
In the prior appeal we noted plaintiffs had failed to appeal the transfer of their
claims against the Kansas defendants to the District of Kansas. N.E.L. I, 740 F.
App’x at 927. In its order denying their motion to re-transfer, the district court
concluded, based on the prior decision, that it was constrained by the “law of the
case” doctrine. Jt. App., Vol. II at 183 (internal quotation marks omitted). It
determined plaintiffs failed to assert any good reason for departing from that
doctrine. See id. at 184.
The law of the case doctrine does not deprive a transferee court of its power to
correct an erroneous transfer decision. F.D.I.C. v. McGlamery, 74 F.3d 218, 221
(10th Cir. 1996). A litigant dissatisfied with the transfer decision may still “bring[] a
motion to retransfer in the transferee court.” Id. at 222. But the prior transfer
12

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 13

decision of a coordinate court should only be revisited in extraordinary
circumstances, “such as where the initial decision was clearly erroneous and would
work a manifest injustice.” Christianson v. Colt Indus. Operating Corp., 486 U.S.
800, 817 (1988) (internal quotation marks omitted).
The district court determined that plaintiffs failed to demonstrate clear error.
It noted the District of Colorado’s rationale that all the defendants’ conduct took
place in Kansas with the goal of returning the children to Kansas, and that any
contacts with defendants in Colorado were too slight to overcome the fact that most
of the conduct plaintiffs complain of occurred in Kansas. Plaintiffs advance several
arguments in opposition to this conclusion, see Jt. Opening Br. at 23-29, centered on
the allegedly unlawful seizure and/or deprivations they contend took place in
Colorado. But the District of Colorado granted qualified immunity to the Colorado
defendants concerning those claims. For substantially the same reasons cited by the
District of Colorado, we have determined the District of Kansas properly granted
qualified immunity to the Kansas defendants. Thus, plaintiffs cannot show they had
any likelihood of a different result had they been permitted to pursue their claims in
the District of Colorado rather than the District of Kansas, and any error in the
transfer decision was therefore harmless.

13

Appellate Case: 18-3059

Document: 010110194429
010110187357

Date Filed: 07/09/2019
06/25/2019

Page: 14

CONCLUSION
We affirm the district court’s orders dismissing the case and denying
plaintiffs’ motion for re-transfer to Colorado. We grant plaintiffs’ unopposed motion
to seal the CINC records contained in Volume III of the Appendix.
Entered for the Court
Gregory A. Phillips
Circuit Judge

14

APPENDIX F

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 1 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
N.E.L.; M.M.A.,

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

July 3, 2018
Elisabeth A. Shumaker
Clerk of Court

Plaintiffs - Appellants,
v.
DOUGLAS COUNTY, COLORADO;
LESA ADAME, in her individual capacity;
CARL GARZA, in his individual capacity,

No. 17-1120
(D.C. No. 1:15-CV-02847-REB-CBS)
(D. Colo.)

Defendants - Appellees,
and
MONICA GILDNER, in her individual
capacity; ANGELA WEBB, in her
individual capacity; TINA ABNEY, in her
individual capacity,
Defendants.
_________________________________
ORDER AND JUDGMENT*
_________________________________
Before PHILLIPS, KELLY, and McHUGH, Circuit Judges.
_________________________________
Kansas child-and-family-services employees obtained an ex parte order from a
Kansas state court to take physical custody of ten minor children. Because the
children were with their mother visiting her college friends in Douglas County,
*

This order and judgment is not binding precedent, except under the doctrines
of law of the case, res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 2 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 2

Colorado, the Kansas family-services employees somehow arranged for a counterpart
in Colorado, along with a local deputy sheriff, to execute the ex parte Kansas order.1
Two of the minor children, N.E.L. and M.M.A. (after reaching the age of majority),
sued the Kansas and Colorado governmental employees, as well as Douglas County,
Colorado, under 42 U.S.C. § 1983 in the United States District Court for the District
of Colorado.
The Colorado district court dismissed the claims against Douglas County and
the Colorado governmental employees under Federal Rule of Civil Procedure
12(b)(6) and transferred the claims against the Kansas defendants to the United States
District Court for the District of Kansas. N.E.L. and M.M.A. now appeal the
dismissal of their claims against the Colorado defendants.2 Exercising jurisdiction
under 28 U.S.C. § 1291, we affirm.
BACKGROUND
A. The First Amended Complaint’s Allegations3

1

The First Amended Complaint doesn’t specify which Kansas employees
communicated with the Colorado employees or in what order the communications
occurred.
2

N.E.L. and M.M.A. do not appeal the transfer of their claims against the
Kansas defendants.
3

When reviewing Rule 12(b)(6) dismissals, we accept the well-pleaded
allegations of the complaint as true and view them in the light most favorable to the
plaintiff. Jones v. Hunt, 410 F.3d 1221, 1223 (10th Cir. 2005).

2

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 3 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 3

N.E.L., M.M.A., and their eight siblings lived with their parents, Mr. and Mrs.
Doe, in Johnson County, Kansas. In spring 2008, “one of the younger” Doe children
“began exhibiting troubling behavior and making troubling comments” that suggested
Mrs. Doe’s brother, the children’s uncle, had sexually abused her in 2006 or earlier.
J.A. at 15–16 ¶¶ 18–19. Alarmed by these revelations, the Does sought counseling for
the girl and any siblings who may have witnessed the abuse. In June 2008, the Does
reported the alleged sexual abuse to the Kansas Department of Children and Families.
The Does told agency employees that since 2006 they had barred the suspected uncle
and all other members of Mrs. Doe’s family from any contact with the children.4 The
Kansas Department of Children and Families assigned Monica Gildner, a defendant
in this case, to serve as the Does’ social worker.
On June 13, 2008, after the Does made the report, Gildner conducted a safety
assessment of the Doe home and found no evidence that the Does “were neglecting
their children’s physical needs.” Id. at 16 ¶ 26(f). Gildner then referred the allegedly
abused child to a facility called the Sunflower House, where staff interviewed the
child and three of her older siblings. In her Sunflower House interview, the child
repeated her allegations. Gildner never interviewed the child. The child later shared
more details of the abuse with her parents, and the Does reported these additional

4

N.E.L. and M.M.A. don’t disclose why the Does ceased contact with all Mrs.
Doe’s relatives, not just her brother.

3

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 4 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 4

details to the Kansas Department of Children and Families. In response to these
additional allegations, Gildner referred the child back to the Sunflower House.
In December 2008, a second Doe child reported sexual abuse by the same
uncle.5 As with the first child, Gildner referred this child to the Sunflower House for
an interview.
Despite the two children’s reports, “Gildner took a position that the abuse
never occurred,” Id. at 18 ¶ 42, and then “engaged on a course of conduct to smear
Mrs. Doe.” Id. at 18 ¶ 43. Specifically, Gildner “baselessly pronounced that Mrs. Doe
had post-partum depression and mental instability.” Id. at 18–19 ¶ 45. Gildner also
“took a position that Mrs. Doe” and “the Doe children needed counseling to
overcome their supposed false beliefs about the abuse.” Id. at 19 ¶¶ 48, 49.
Mrs. Doe agreed to go to counseling “in an effort to satisfy Gildner’s
outrageous demands that she do so.” Id. at 19 ¶ 50. Despite her efforts, Gildner told
the Does that if they “pursued legal action against the [uncle], either civilly,
criminally, or through further investigation” by the Kansas Department of Children
and Families, “the children would be harmed by ‘borderline emotional abuse.’” Id. at
19 ¶ 51. So the Does “attempted to cease contact with Gildner,” communicating this
desire to Angela Webb and Tina Abney, Gildner’s supervisors at the Kansas
Department of Children and Families (and also defendants in this case). Id. at 19 ¶
53. “Gildner retaliated by threatening to initiate a court action,” and by requiring that
5

The First Amended Complaint doesn’t specify when the alleged abuse
occurred.
4

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 5 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 5

the entire family participate in counseling through Family Preservation Services. Id.
at 20 ¶ 58. Through this counseling, Gildner intended to dissuade the Does and their
children from believing the abuse allegations. Instead of participating in Family
Preservation Services, Mrs. Doe informed Gildner she would “seek counseling
services through Catholic Charities,” and Gildner didn’t object. Id. at 20 ¶ 62.
In February 2009, Gildner received two additional reports that the secondreporting Doe child had been sexually abused.6 When Gildner failed to act, Mr. Doe
filed a formal complaint with the Kansas Department of Children and Families.
Despite the complaint, Gildner remained the Does’ primary contact for the case, and
she opposed having the reporting children undergo further interviews or medical
exams. After Mr. Doe met with Gildner concerning the children’s abuse claims,
Gildner “threatened him” and said that she’d “possibly have to staff the case with the
District Attorney’s Office and possibly get the Court involved” if the Does refused to
participate in Family Preservation Services. Id. at 21–22 ¶¶ 73–74. After Gildner
issued this warning, she met with Abney and Webb. Together, they decided that if the
Does refused to participate in Family Preservation Services, Gildner would ask the
District Attorney to file child-in-need-of-care petitions for the Doe children. Then in

6

The First Amended Complaint doesn’t identify who made these reports to
Gildner.

5

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 6 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 6

March 2009, the Does reported to the Kansas Department of Children and Families
that the same uncle had sexually abused a third child of theirs.7
On April 20, 2009, in the Johnson County, Kansas district court, Gildner filed
ten child-in-need-of-care petitions, one for each Doe child.8 The petitions sought to
terminate the Does’ parental rights, to appoint a permanent custodian for the Doe
children, to remove the children temporarily from the Does’ custody, and to require
the Does to pay child support. That same day, the court set the petitions “for a nonemergency hearing three weeks later, on May 11, 2009,” id. at 25 ¶ 92, and appointed
a Guardian Ad Litem (GAL) for the ten Doe children.
Just eight days after Gildner filed the petitions, Mr. Doe communicated with
Abney to express his willingness to participate in Family Preservation Services, but
Abney referred him to Gildner. Mr. Doe instead communicated with Webb, but she
too referred him to Gildner.
On April 30, 2009, a Doe relative called Gildner and asked her whether the
Does had “left town” and taken their children with them. Id. at 25 ¶ 100. That same
day, Gildner called Mr. Doe and left him a message about Family Preservation
Services but made no further effort to contact him for the next four days.
On May 4, 2009, Gildner “decided to make an uninvited visit to the Doe
home,” even though she knew that the family, except Mr. Doe, had gone to Douglas
7

Again, the First Amended Complaint doesn’t specify when the alleged abuse
happened.
8

At the time, the Doe children ranged in age from six months to thirteen years.
6

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 7 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 7

County, Colorado to visit the Does’ college friends, Dr. and Mrs. G. Id. at 26 ¶ 104.
Mr. Doe met Gildner outside the home, telling her that “all contact needed to be
through his attorney, whose name he provided.” Id. at 26 ¶ 105. When local police
officers asked for Dr. and Mrs. G’s address, Mr. Doe provided it.
On May 5, 2009, Gildner, Abney, and Webb sought an ex parte protectivecustody order for each Doe child.9 That same day, the Kansas state court issued the
orders, concluding (1) that “[r]easonable efforts have been made and have failed to
maintain the family and prevent the unnecessary removal of the [children] from”
their home and (2) that “reasonable efforts are not required to maintain the child[ren]
in the home because an emergency exists which threatens the safety of the
child[ren].” J.A. at 47.10 The court also found that “remaining in the home or
returning home would be contrary to the welfare of the child[ren]” and that
“immediate placement is in the best interest of the child[ren]” because:
after the child in need of care petitions were filed alleging physical,
sexual, mental, or emotional abuse, it is reported that the children have
been taken out of the area. The father was contacted on May 4, 2009,
and he would not provide any information on the whereabouts of the
children. The whereabouts and safety of the children are unknown.
Id.

9

N.E.L. and M.M.A. attached to the First Amended Complaint one of the
Kansas ex parte orders as an example. Because they refer to this example in their
complaint and the order is central to their claims, we consider it. Gee v. Pacheco, 627
F.3d 1178, 1186 (10th Cir. 2010).
10

The court issued an order for each child, but N.E.L. and M.M.A. provide us
with only one order as an example.
7

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 8 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 8

Despite these conclusions, the issuing judge left blank some parts of the
protection-order forms. In the section concerning custody, for example, the judge
didn’t list where the children should be placed once recovered. And the judge didn’t
check the box that, if so marked, would have denied Mr. and Mrs. Doe visitation
rights during their children’s protective custody. Further, the judge didn’t check a
box empowering law-enforcement officers to take physical custody of the children.
Nor did the judge check another box providing for a restraining order (with a
corresponding blank space to identify who would be restrained). And the court didn’t
set a hearing date.
After obtaining the ex parte orders, Gildner, Abney, and Webb began
“working” with Lesa Adame, a social worker at the Colorado Department of Social
Services and the Douglas County Department of Human Services, and Carl Garza, a
deputy in the Douglas County Sheriff’s Office, “in meetings and over the phone and
by other means of electronic communication.” Id. at 40 ¶ 194. Together, the group
“conspired and agreed to deprive” N.E.L., M.M.A., and the eight other Doe children
of their rights. Id. at 41 ¶ 194.
Despite state laws, chiefly the Colorado Uniform Child-Custody Jurisdiction
and Enforcement Act (Colorado UCCJEA), Colo. Rev. Stat. §§ 14-13-101 to -403

8

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 9 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 9

(2009), requiring them to do so, Adame and Deputy Garza didn’t register the Kansas
ex parte protection order with a Colorado court before executing it.11
On May 6, 2009, the day after the court entered the ex parte protection orders,
Adame and Deputy Garza took the orders to Dr. and Mrs. G’s home. Deputy Garza
and Adame arrived at the home in his patrol car and together went to the front door.
After Dr. G answered the door, Adame or Deputy Garza told him that they had a
Kansas court order “to seize custody of all ten” Doe children and “demanded entry
and custody of the children.”12 Id. at 32 ¶ 132. Adame told Dr. G that employees of
the Kansas Department of Children and Families had sought her assistance.
Faced with this alarming situation, Dr. G called an attorney for advice. Acting
on the attorney’s advice, Dr. G asked Adame and Deputy Garza to produce a warrant.
Either Adame or Deputy Garza13 responded that they weren’t required to obtain a

11

See Colo. Rev. Stat. Ann. § 14-13-204 (official comment) (“In order for a
protective order that contains a custody determination to be enforceable in another
State it must comply with the provisions of [the Colorado UCCJEA] and the
[Parental Kidnapping Prevention Act].”); id. § 14-13-102 (official comment) (“The
definition of ‘child-custody proceeding’ has been expanded . . . . The inclusion of
proceedings related to protection from domestic violence is necessary . . . .”); see
also id. § 14-11-101(4) (“Notwithstanding [normal docketing procedures required for
out-of-state decrees], a child-custody determination, as that term is defined in section
14-13-102(3), issued by a court of another state shall be registered in accordance with
section 14-13-305.”).
12

The First Amended Complaint doesn’t specify which person made these
statements.
13

Nor does the First Amended Complaint specify which person made this
statement.

9

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 10 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 10

warrant to enter, claiming that “[w]e do this all the time.” Id. at 32 ¶ 137. After Dr. G
disputed the legality of the entry, Deputy Garza said something to the effect of, “I
don’t care what your lawyer says, we’re coming in and we’re taking these kids.” Id.
at 32 ¶ 139. Deputy Garza wore his sidearm throughout the confrontation, and he
threatened Dr. G “with arrest or contempt for interfering with law enforcement.” Id.
at 32 ¶ 138. Over Dr. G’s objection, Adame and Deputy Garza entered the home.
Inside, Adame announced and began implementing a safety plan,14 which
(1) required Mrs. Doe to leave Dr. G’s house immediately “to ensure safety of the
children”; (2) forbade Mrs. Doe from contacting the children through Dr. G and Mrs.
G; (3) declared that “the children are currently in the custody of Kansas state, [sic]
social services”; (4) advised Mrs. Doe that she must contact Gildner on May 7, 2009;
and (5) advised Dr. G and Mrs. G that they must “follow through with” the safety
plan as agreed.15 Id. at 49. All three adults signed the plan. In the same discussion,
Adame and Deputy Garza told Dr. G that Kansas officials would arrive later to take
physical custody of the Doe children. Later, by phone, Adame prohibited Mr. Doe
and the Doe children’s grandparents from talking to the children. That evening,
seeing the children’s distress, Dr. G and his wife chose to drive through the night to
14

To their First Amended Complaint, N.E.L. and M.M.A. attached the safety
plan that Adame had implemented at Dr. and Mrs. G’s home. Because they refer to
the safety plan in their complaint and it’s central to their claims, we consider it. Gee,
627 F.3d at 1186.
15

The safety plan included a sixth requirement that is redacted or illegible as
scanned into the filed joint appendix.

10

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 11 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 11

take the ten Doe children back to Kansas to turn them over to the state rather than
wait for the Kansas officials to arrive.
B. The Court Proceedings
Years later, on December 31, 2015, N.E.L. and M.M.A. filed a complaint in
the United States District Court for the District of Colorado, naming Adame, Deputy
Garza, Gildner, Abney, Webb, and Douglas County as defendants. Deputy Garza,
Adame, and Douglas County moved to dismiss the complaint, and Gildner, Abney,
and Webb later filed their own motion to dismiss. The magistrate judge
recommended denying both motions after granting N.E.L. and M.M.A. leave to
amend their complaint.
N.E.L. and M.M.A. then filed their First Amended Complaint, alleging under
42 U.S.C. § 1983 that Adame and Deputy Garza16 had violated the Fourth
Amendment by failing to register the Kansas ex parte order with a Colorado court
before executing it, in violation of the Colorado UCCJEA; by entering Dr. and Mrs.
G’s home without a warrant; and by illegally seizing them. They also alleged that
Adame, Deputy Garza, Gildner, Abney, and Webb had interfered with their right to
familial association in violation of the Due Process Clause of the Fourteenth
Amendment.
Based on these deprivations of their rights, N.E.L. and M.M.A. alleged that
Adame, Deputy Garza, Gildner, Abney, and Webb had engaged in a civil conspiracy
16

N.E.L. and M.M.A. also asserted this claim against Gildner, Abney, and
Webb, presumably for precipitating Adame and Deputy Garza’s actions.
11

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 12 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 12

to deprive them of their rights. And they alleged Douglas County’s § 1983 liability
for their Fourth Amendment injuries, based on two theories. First, they alleged that
Douglas County had an “unwritten policy, custom[,] or practice” of seizing children
“based on out-of-state ex parte court orders in violation of the United States
Constitution and Colorado law, including but not limited to the Colorado
[UCCJEA].” J.A. at 44 ¶ 216. Alternatively, they alleged Douglas County had acted
with deliberate indifference in failing to adopt policies requiring compliance, or in
failing to train personnel to comply, with “the United States Constitution and
Colorado law, including but not limited to the Colorado UCCJEA.” Id. at 44 ¶ 218.
Adame, Deputy Garza, and Douglas County moved to dismiss the First
Amended Complaint, contending that the statute of limitations had run for N.E.L. and
M.M.A.’s claims and, alternatively, that absolute, quasi-judicial, or qualified
immunity barred the claims. They also contended that the First Amended Complaint
insufficiently alleged Douglas County’s liability on a custom or policy theory
because it asserted only a single instance of unconstitutional conduct. Addressing
N.E.L. and M.M.A.’s deliberate-indifference claim, they contended that the First
Amended Complaint pleaded no supporting facts. In their motion, Adame and Deputy
Garza acknowledged partly relying on a 2007 state-court standing order to enter Dr.
and Mrs. G’s home. The 2007 state-court standing order permitted law-enforcement
and child-and-family-services personnel to interview alleged child-abuse victims “at
a school, daycare, or other place where the child may be located,” without a court
order or signed consent from a parent or a guardian. Id. at 63.
12

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 13 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 13

Gildner, Abney, and Webb separately moved to dismiss the First Amended
Complaint, alleging that the court lacked personal jurisdiction over them.
The magistrate judge recommended granting Adame, Deputy Garza, and
Douglas County’s motion to dismiss. He concluded that both prongs of the qualifiedimmunity analysis supported dismissing the Fourth Amendment claim against Adame
and Deputy Garza, reasoning: (1) that N.E.L. and M.M.A. hadn’t sufficiently alleged
a constitutional violation, and (2) that they hadn’t shown that Adame and Deputy
Garza had violated clearly established law. Addressing the Fourteenth Amendment
claim against Adame and Deputy Garza, he recommended granting the motion to
dismiss on the first prong of the qualified-immunity analysis—that the plaintiffs had
failed to allege a constitutional violation. He also recommended dismissing the civilconspiracy claim after applying qualified immunity to defeat the underlying claims.
Having recommended dismissing N.E.L. and M.M.A.’s claims against Adame
and Deputy Garza based on qualified immunity, the magistrate judge declined to
address their statute-of-limitations affirmative defense. He next recommended
dismissing N.E.L. and M.M.A.’s claim against Douglas County because he found no
underlying constitutional violation. Addressing the claims against the Kansas
defendants, Gildner, Webb, and Abney, he recommended transferring the claims to
the United States District Court for the District of Kansas under 28 U.S.C. § 1631 in
lieu of dismissing them for lack of personal jurisdiction.
N.E.L. and M.M.A. objected to the magistrate judge’s recommendation on
several fronts. To establish that he had incorrectly recommended dismissing Douglas
13

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 14 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 14

County from the case, N.E.L. and M.M.A. offered a 2012 Douglas County internal
policy as evidence of the county’s deliberate indifference. That policy reads:
Out-of-State Court Orders are not valid on their face in Colorado. When
in contact with a citizen who wants an out-of-state court order enforced,
inform them that you can not [sic] do that as their order has no legal
standing in Colorado. Direct the person to the Douglas County District
Court to obtain a Supplemental Colorado Court Order. Once that has
been issued, the out-of-state order is considered ‘domesticated’ and the
Sheriff’s Office can enforce those provisions that are appropriate. (This
is not true, however, in the case of foreign Protection or Restraining
Orders. Those are enforceable. See PAT-D-201 – Foreign Protection
Orders.)
Id. at 209.
But the district court was unpersuaded and adopted the magistrate judge’s
recommendations. In so doing, the court granted Adame, Deputy Garza, and Douglas
County’s Rule 12(b)(6) motion to dismiss on qualified-immunity grounds and
transferred N.E.L. and M.M.A.’s claims against Gildner, Webb, and Abney to the
District of Kansas.
DISCUSSION
N.E.L. and M.M.A. appeal the district court’s Rule 12(b)(6) dismissal of their
Fourth Amendment and Fourteenth Amendment claims against Adame and Deputy
Garza; the dismissal of their civil-conspiracy claim against Adame and Deputy
Garza; and the dismissal of their claim against Douglas County. N.E.L. and M.M.A.
don’t appeal the district court’s transfer of their claims against Gildner, Webb, and
Abney to the District of Kansas.

14

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 15 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 15

“The legal sufficiency of a complaint is a question of law,” so we review de
novo a district court’s dismissal under Rule 12(b)(6). Smith v. United States, 561
F.3d 1090, 1098 (10th Cir. 2009). In reviewing Rule 12(b)(6) dismissals, we accept
the well-pleaded allegations of the complaint as true and view them in the light most
favorable to the plaintiff. Jones v. Hunt, 410 F.3d 1221, 1223 (10th Cir. 2005). “To
survive a motion to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). A plaintiff may not solely rely on “labels and conclusions” or a
“formulaic recitation of the elements of a cause of action.” Twombly, 550 U.S. at
555. A claim is facially plausible “when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678. “The plausibility standard is not akin to
a ‘probability requirement,’ but it asks for more than a sheer possibility that a
defendant has acted unlawfully.” Id. (quoting Twombly, 550 U.S. at 556). Pleading
facts “that are ‘merely consistent with’ a defendant’s liability” doesn’t meet that
standard. Id. (quoting Twombly, 550 U.S. at 557).
We first address the qualified-immunity issue and then turn to N.E.L. and
M.M.A.’s claim against Douglas County.17

17

Because we conclude that Adame and Deputy Garza are entitled to qualified
immunity, we don’t reach their statute-of-limitations affirmative defense.

15

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 16 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 16

A. Qualified Immunity
Qualified immunity protects government officials from liability for civil
damages if their conduct “does not violate clearly established statutory or
constitutional rights” that a reasonable person would have known about. White v.
Pauly, 137 S. Ct. 548, 551 (2017) (internal quotation marks omitted) (quoting
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)).18 “[Q]ualified immunity protects ‘all
but the plainly incompetent or those who knowingly violate the law.’” Mullenix, 136
S. Ct. at 308 (quoting Malley v Briggs, 475 U.S. 335, 341 (1986)). To overcome a
government official’s qualified immunity defense, a plaintiff must demonstrate (1)
that the official violated a statutory or constitutional right and (2) that the law clearly
establishes that right. Pyle v. Woods, 874 F.3d 1257, 1262 (10th Cir. 2017). We may
dispose of N.E.L. and M.M.A.’s claims on either prong. See id. at 1263. Here, we
dispose of them on the second.
The law clearly establishes a right if “existing precedent . . . place[s] the
statutory or constitutional question beyond debate.” Mullenix, 136 S. Ct. at 308
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)). “The dispositive question is
18

N.E.L. and M.M.A. assert that the district court incorrectly concluded that
clearly established law is proved when the plaintiff proffers case law with closely
analogous facts. They contend that the appropriate test for proving clearly established
law is found in Hope v Pelzer, 536 U.S. 730, 739–40 (2002), which they argue
requires plaintiffs to proffer case law that “only provide[s] ‘fair warning’ that an
officer’s conduct would violate the constitution.” Appellants’ Opening Br. at 25
(quoting Hope, 536 U.S. at 740). But as we have noted, Hope v. Pelzer appears to
have fallen out of favor, yielding to a more robust qualified immunity. See Aldaba v.
Pickens, 844 F.3d 870, 874 n.1 (10th Cir. 2016) (citing Mullenix, 136 S. Ct. at 308,
312 (2015)).
16

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 17 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 17

‘whether the violative nature of particular conduct is clearly established.’” Id.
(quoting al-Kidd, 563 U.S. at 742). A case directly on point from the Supreme Court
or our circuit clearly establishes a right. See White, 137 S. Ct. at 551. The clearlyestablished-law inquiry “must be undertaken in light of the specific context of the
case,” and isn’t met by proving “a broad general proposition.” Mullenix, 136 S. Ct. at
308 (internal quotation marks omitted) (quoting Brosseau v. Haugen, 543 U.S. 194,
198 (2004) (per curiam)). The proffered case law “must be ‘particularized’ to the
facts” of the instant case. White, 137 S. Ct. at 552 (quoting Anderson v. Creighton,
483 U.S. 635, 640 (1987)). And it’s the plaintiff’s burden to identify the relevant
clearly established law. Rios v. Riedel, 456 F. App’x 720, 725 (10th Cir. 2012) (citing
Hilliard v. City & Cty. of Denver, 930 F.2d 1516, 1518 (10th Cir. 1991)). We
conclude that no law clearly establishes that Adame or Deputy Garza violated N.E.L.
and M.M.A.’s Fourth Amendment and Fourteenth Amendment rights. We address
each claim in turn.
1. Fourth Amendment
N.E.L. and M.M.A. argue that Adame and Deputy Garza failed to first register
the ex parte Kansas order with a Colorado court as required by the Colorado
UCCJEA, entered Dr. and Mrs. G’s home without a warrant, and illegally seized
them. Alternatively, N.E.L. and M.M.A. allege that Adame and Deputy Garza relied
on the facially invalid Kansas ex parte order to enter the home. Each of these claims
alleges a Fourth Amendment violation.

17

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 18 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 18

The Fourth Amendment protects “[t]he right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures.”
U.S. Const. amend. IV. But our inquiry is narrower than whether Adame and Deputy
Garza violated the Fourth Amendment. We address only whether our precedent
clearly establishes that they did.
For clearly established law, N.E.L. and M.M.A. point us to cases broadly
discussing the Fourth Amendment warrant requirement and its exceptions,19 and more
helpfully, to two cases where social-services employees attempting to help abused
children allegedly ran afoul of the Fourth Amendment.20
In Roska v. Peterson, 328 F.3d 1230, 1238, 1242 (10th Cir. 2003), we
concluded that state employees violated the Fourth Amendment by entering a home
without a warrant to remove a young boy suffering from Munchausen Syndrome by
19

Appellants’ Opening Br. at 16 (citing Payton v. New York, 445 U.S. 573, 586
(1980) (holding that warrantless entries into a home are presumptively
unreasonable)); Appellants’ Opening Br. at 22 (citing United States v. Leon, 468 U.S.
897, 926 (1984) (holding that evidence gathered as a result of a facially valid search
warrant that is ultimately determined to lack probable cause shouldn’t be
suppressed)); Appellants’ Opening Br. at 16 n.2 (citing United States v. Rhiger, 315
F.3d 1283, 1286 (10th Cir. 2003) (holding that social guests have Fourth Amendment
expectations of privacy in others’ homes)); Appellants’ Opening Br. at 22, 28 (citing
United States v. Moland, 996 F.2d 259, 261 (10th Cir. 1993) (stating that the Leon
good-faith exception is inapplicable to an improperly executed warrant)).
20

Appellants’ Opening Br. at 24 (citing Roska v. Peterson, 328 F.3d 1230,
1238, 1242 (10th Cir. 2003)); Appellants’ Opening Br. at 15 (citing Jones, 410 F.3d
at 1224–25). But see Appellants’ Opening Br. at 24 (citing Gomes v. Wood, 451 F.3d
1122, 1125–27 (10th Cir. 2006) (concerning Fourteenth Amendment claim brought
under § 1983 by parents of child where social services had removed their child from
their home after the child’s pediatrician reported suspected child abuse)).

18

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 19 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 19

Proxy (MSBP) from his parents’ custody. We stressed that the social workers “did
not even attempt to obtain an ex parte order” before entering the Roskas’ home
without a warrant to take the boy, Rusty, into their custody. Id. at 1246. We
determined that because “various doctors had suspected that Rusty was a victim of
MSBP for quite some time, and the record indicate[d] that there was nothing
particularly unusual about Rusty’s condition at the time he was removed,” “no
evidence” existed that could have led “a reasonable state actor to conclude that there
were exigent circumstances” permitting entry without a warrant. Id. at 1240–41.
Here, Adame and Deputy Garza did have an ex parte order when they entered
Dr. and Mrs. G’s home without a warrant and purported to place N.E.L., M.M.A.,
and the eight other Doe children in Kansas’s custody. The social workers in Roska
never even attempted to get such an order. 328 F.3d at 1246. So though Roska may
be generally analogous to the present case, see al-Kidd, 563 U.S. at 742, it is far from
“particularized” to the instant facts, see White, 137 S. Ct. at 552 (quoting Anderson,
483 U.S. at 640). In short, Roska doesn’t clearly establish that Adame and Deputy
Garza acted unreasonably.
In Jones v. Hunt, a woman sued a county sheriff and a social worker under
§ 1983 for illegally seizing her under the Fourth Amendment when she was sixteen.
410 F.3d at 1224–25. There, the county sheriff and social worker had met with her at
school and told her that she couldn’t live with her mother. Id. at 1224. They also
informed her that contrary to a temporary protection order against her father, she had
to live with him. Id. We found this seizure unreasonable under the Fourth
19

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 20 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 20

Amendment because the sheriff and social worker met the girl in “a small, confined
school counselor’s office”; the girl “knew that [the sheriff and social worker] had the
authority to determine her custodial care”; the sheriff and social worker repeatedly
threatened to “arrest her and follow her for at least the next two years, ensuring that
her ‘life would be hell’”; the meeting lasted “an ‘hour or two’”; and she was
“emotionally fragile and distraught” throughout the meeting. Id. at 1226.
Unlike the governmental employees in Jones, Adame and Deputy Garza
purported to place N.E.L. and M.M.A. into Kansas’s custody under the authority of
an ex parte order. That order stated that an emergency threatened the safety of the
Doe children, that “remaining in the home . . . would be contrary to the welfare of the
child[ren],” and that child-in-need-of-care petitions had been filed alleging “physical,
sexual, mental, or emotional abuse.” J.A. at 47. The social worker and county sheriff
in Jones acted contrary to a temporary protection order, not under the authority of
one. 410 F.3d at 1224. So Jones doesn’t clearly establish that Adame and Deputy
Garza acted unreasonably.
Finally, N.E.L. and M.M.A. cite no authority concluding that failing to register
an out-of-state ex parte order with a Colorado court before its execution constitutes a
Fourth Amendment violation. No case they cite even mentions the Colorado
UCCJEA or its registration requirement. Having failed to provide us authority clearly
establishing that violating the Colorado UCCJEA is a Fourth Amendment violation,
N.E.L. and M.M.A. haven’t met their burden. So their Fourth Amendment claim fails
on this theory, too.
20

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 21 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 21

2. Fourteenth Amendment
N.E.L. and M.M.A. next allege that Adame and Deputy Garza deprived them
of their Fourteenth Amendment right to familial association by requiring Mrs. Doe to
leave Dr. and Mrs. G’s home; by prohibiting N.E.L. and M.M.A. from leaving with
Mrs. Doe; by prohibiting N.E.L. and M.M.A. from traveling with Mrs. Doe, Mr. Doe,
and their grandparents; and by detaining N.E.L. and M.M.A. for the purpose of
terminating Mr. and Mrs. Doe’s parental rights.
The Fourteenth Amendment’s Due Process Clause provides that no state shall
“deprive any person of life, liberty, or property, without due process of law.” U.S.
Const. amend. XIV, § 1. Under that provision, “[a] child has a constitutionally
protected liberty interest in a relationship with her parent.” Lowery v. Cty. of Riley,
522 F.3d 1086, 1092 (10th Cir. 2008). To state a claim for interference with familial
association, a plaintiff must sufficiently allege that the government actor “inten[ded]
to interfere with” the family relationship. Trujillo v. Bd. of Cty Comm’rs, 768 F.2d
1186, 1190 (10th Cir. 1985).
Here, N.E.L. and M.M.A. fail to provide us any authority clearly establishing
their right to be free from state interference into their familial relationships on similar
facts.21 In so doing, they have failed to meet their burden. Rios, 456 F. App’x at 725

21

N.E.L. and M.M.A. fail to cite in their opening brief any authority clearly
establishing that Adame and Deputy Garza violated the Due Process Clause of the
Fourteenth Amendment. See Appellants’ Opening Br. at 28–32; Appellants’ Reply
Br. at 24–25; see also Appellees’ Answer Br. at 38 (noting lack of cited authority).
But they do cite to Gomes, 451 F.3d at 1128, a Fourteenth Amendment § 1983 case,
21

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 22 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 22

(citing Hilliard v. City & Cty. of Denver, 930 F.2d 1516, 1518 (10th Cir. 1991)). So
they haven’t shown that the law clearly establishes that Adame and Deputy Garza
violated the Fourteenth Amendment’s Due Process Clause.22
B. Douglas County’s Liability
N.E.L. and M.M.A. alleged that Douglas County (1) had a policy or custom of
seizing children “based on out-of-state ex parte orders in violation of the United
States Constitution and Colorado law, including but not limited to the Colorado
[UCCJEA],” J.A. at 44 ¶ 216; or alternatively, (2) acted with deliberate indifference
by failing to adopt a policy requiring its deputy sheriffs to comply, or in failing to

as clearly establishing their Fourth Amendment claim. See Appellants’ Opening Br.
at 24–25 (arguing that Gomes clearly establishes a parent’s right to a prompt postdeprivation hearing and that, because Colorado didn’t provide the Does such a
hearing, Adame and Deputy Garza unreasonably seized N.E.L. and M.M.A. under the
Fourth Amendment). Even if we were to consider Gomes as authority supporting
N.E.L. and M.M.A.’s Fourteenth Amendment Due Process claim, it wouldn’t help
them. True, broadly, a parent has a right to a post-deprivation hearing under the
Fourteenth Amendment. But that principle sheds no light on a child’s placement into
state custody under the authority of an ex parte order declaring the child in immediate
danger. So Gomes isn’t particularized to this case’s facts and doesn’t clearly establish
that Adame and Deputy Garza violated the Fourteenth Amendment’s Due Process
Clause.
22

Because Adame and Deputy Garza are entitled to qualified immunity against
N.E.L. and M.M.A.’s Fourth Amendment and Fourteenth Amendment claims, they
are also entitled to such qualified immunity against N.E.L. and M.M.A.’s civilconspiracy claim based on the alleged violation of those same rights. See Bisbee v.
Bey, 39 F.3d 1096, 1102 (10th Cir. 1994) (determining that civil-conspiracy claims
under 42 U.S.C. § 1985(3) are subject to a qualified immunity defense); see also
Hale v. Townley, 45 F.3d 914, 921 (5th Cir. 1995) (determining that a conspiracy
claim wasn’t actionable where officers in the case were “alleged to have violated [the
plaintiff’s] First Amendment rights” but were also “entitled to qualified immunity.”).

22

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 23 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 23

train its officers to comply, with “the United States Constitution and Colorado law,
including but not limited to the Colorado UCCJEA,” Id. at 44 ¶ 218. And, they
contend, this policy or custom, or this failure to adopt a policy or train its officers,
led the county’s personnel to violate the Fourth Amendment.
Under Monell v. New York City Department of Social Services, 436 U.S. 658,
690–91 (1978), counties can be liable under § 1983 even when their individual
employees are shielded by qualified immunity. To state a viable Monell claim against
a county, a plaintiff must sufficiently allege that the county has a “‘policy’ or
‘custom’ that caused the plaintiff’s injury.” Bd. of Cty. Comm’rs v. Brown, 520 U.S.
397, 403 (1997) (citing Monell, 436 U.S. at 694); see also Moss v. Kopp, 559 F.3d
1155, 1168 (10th Cir. 2009) (reviewing a plaintiff’s § 1983 claim against a county
under Rule 12(b)(6)). But a county “may not be held liable under § 1983 solely
because it employs a tortfeasor.” Brown, 520 U.S. at 403.
A county policy or custom may take the form of “a formal regulation or policy
statement” or an informal custom “amount[ing] to a widespread practice that,
although not authorized by written law or express municipal policy, is so permanent
and well settled as to constitute a custom or usage with the force of law.” Bryson v.
City of Okla. City, 627 F.3d 784, 788 (10th Cir. 2010) (alteration in original)
(internal quotation marks omitted) (quoting Brammer-Hoelter v. Twin Peaks Charter
Acad., 602 F.3d 1175, 1189–90 (10th Cir. 2010)). When the liability theory rests on a
county’s “failure to act,” the plaintiff must show that the county’s inaction was the
result of “deliberate indifference.” Hinton v. City of Elwood, 997 F.2d 774, 782 (10th
23

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 24 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 24

Cir. 1993) (quoting City of Canton v. Harris, 489 U.S. 378, 385 (1989)). Typically, a
“single incident” of unconstitutional behavior “is not sufficient to impose [municipal]
liability.” Butler v. City of Norman, 992 F.2d 1053, 1055 (10th Cir. 1993).
N.E.L. and M.M.A. argue that Douglas County had either a formal policy or an
unwritten custom that caused their injuries, or alternatively, that the county acted
with deliberate indifference, which caused their injuries. We address all three
theories in turn.
1. Formal Policy
N.E.L. and M.M.A. allege that, in 2009, Douglas County had a formal policy
of complying with a 2007 state-court standing order that, they contend, leads Douglas
County employees to violate the Fourth Amendment. But N.E.L. and M.M.A. didn’t
mention the standing order in their First Amended Complaint or even in their opening
brief to this court. See J.A. at 44 ¶¶ 216–17; Appellants’ Opening Br. at 34–35
(discussing only Douglas County’s (1) informal custom or policy and (2) its
deliberate indifference as the bases for its liability). N.E.L. and M.M.A. first raise
this formal-policy theory of liability in their reply brief on appeal. See Appellants’
Reply Br. at 1–2. So they have waived the argument. United States v. Pickel, 863
F.3d 1240, 1259 (10th Cir. 2017) (determining that when a party “makes [an]
argument for the first time in his reply brief,” it is waived.).
Even absent waiver, we would have concluded that N.E.L. and M.M.A. failed
to sufficiently allege that the standing order caused their seizure in violation of the
Fourth Amendment. The standing order doesn’t authorize county officials to enter
24

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 25 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 25

homes without a warrant. So N.E.L. and M.M.A. haven’t stated sufficient facts to
sustain their formal-policy-based Monell claim.
2. Informal Custom
N.E.L. and M.M.A. allege that the 2012 Douglas County policy concerning the
enforceability of out-of-state court orders and Deputy Garza’s (or Adame’s)23
statement, “we do this all the time,” evince a county custom that caused their illegal
seizure. J.A. at 44 ¶ 216. For a § 1983 claim based on custom to withstand Rule
12(b)(6) dismissal, the plaintiff must sufficiently allege that the custom amounts to a
widespread, permanent, and well-settled practice with the force of law. Moss, 602
F.3d at 1169 (quoting Melton v. Okla. City, 879 F.2d 706, 724 (10th Cir. 1989), rev’d
in part en banc on other grounds, 928 F.2d 920, 932 (10th Cir. 1991)).
To support their argument of a county custom, N.E.L. and M.M.A. first point
us to the Douglas County’s 2012 policy concerning the enforceability of out-of-state
ex parte orders. But N.E.L. and M.M.A. didn’t attach this policy to their First
Amended Complaint or even reference it by name. Instead, the First Amended
Complaint refers vaguely to “Douglas County’s discovery responses, including
written policies produced in this litigation.” J.A. at 44 ¶ 216. And N.E.L. and M.M.A.
fail to allege facts plausibly showing that Douglas County followed this policy in
2009 (when the alleged illegal seizure occurred). See Gee, 627 F.3d at 1186
(permitting consideration of documents outside of the complaint under Rule 12(b)(6)
23

It isn’t clear from the First Amended Complaint whether Deputy Garza or
Adame made this statement.
25

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 26 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 26

when (1) the complaint refers to the documents or incorporates them by reference or
(2) the documents are undisputed, authentic, and central to the plaintiffs’ claims,
among other inapplicable exceptions). So because N.E.L. and M.M.A. didn’t quote or
reference this policy in their First Amended Complaint, and because it hasn’t been
sufficiently alleged as the county’s authentic and undisputed policy in 2009, the
policy fails to meet Gee’s exceptions. Thus, we don’t consider it in our Rule 12(b)(6)
analysis.
We see just one fact allegation in the First Amended Complaint that could
possibly support their Monell county-custom claim—Deputy Garza’s (or Adame’s)
statement, “we do this all the time.” J.A. at 44 ¶ 216. But a single statement doesn’t
suffice to allege a continuing, persistent, and widespread county custom. So N.E.L.
and M.M.A. haven’t alleged sufficient facts to state a custom-based Monell claim
against Douglas County.
3. Deliberate Indifference
N.E.L. and M.M.A. contend that Douglas County’s failure to adopt a policy
mandating compliance with, or its failure to train its deputy sheriffs to comply with,
“the United States Constitution and Colorado law, including but not limited to the
Colorado UCCJEA” amounted to deliberate indifference. Id. at 44 ¶ 218. Deliberate
indifference may be shown “when the [county] has actual or constructive notice that
its action or failure to act is substantially certain to result in a constitutional violation,
and it consciously or deliberately chooses to disregard the risk of harm.” Carr v.

26

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 27 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 27

Castle, 337 F.3d 1221, 1229 (10th Cir. 2003) (quoting Barney v. Pulsipher, 143 F.3d
1299, 1307 (10th Cir. 1998)).
The First Amended Complaint makes the following allegations related to
deliberate indifference:
190. Douglas County failed to adopt and/or implement any policy or
policies prohibiting the unconstitutional seizure of children on the basis
of out-of-state ex parte orders when such policy was needed to prevent
predictable violations by Douglas County personnel.
191. The need for a policy or policies prohibiting the unconstitutional
seizure of children on the basis of out-of-state ex parte orders was so
obvious that Douglas County’s failure to adopt and implement any such
a policy is properly characterized as deliberate indifference.
192. Douglas County was deliberately indifferent to training its
employees, including Adame and Garza, in protecting the Plaintiffs’
procedural and substantive rights under the United States Constitution
and the [Colorado UCCJEA] to be free from unlawful seizure without
probable cause.
193. In the alternative, Douglas County acted with deliberate
indifference in authorizing or in failing to adopt a policy or in failing to
train personnel, including Garza and Adame, to ensure that the Ex Parte
orders to seize Plaintiff and his siblings were executed upon only after
such orders were examined for facial validity as to probable cause.
....
218. In the alternative, prior to seizing Plaintiffs, Douglas County acted
with deliberate indifference in failing to adopt a policy requiring Garza,
or in failing to train personnel, including Garza, to comply with the
United States Constitution and Colorado law, including but not limited
to the Colorado UCCJEA
J.A. at 40 ¶¶ 189–93, 44 ¶ 218.
But none of these facts plausibly show that Douglas County’s failing to adopt
a policy on, or in failing to train its officers on, the enforceability of out-of-state ex
27

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 28 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

Page: 28

parte orders “is substantially certain to result in” illegal seizures or entries into homes
without warrants. Carr, 337 F.3d at 1229 (quoting Barney, 143 F.3d at 1307); see
also Shue v. Laramie Cty. Det. Ctr., 594 F. App’x 941, 946 (10th Cir. 2014)
(affirming a Rule 12(b)(6) dismissal of a deliberate indifference claim where the
complaint failed to aver that the municipality’s failure to act was the “moving force”
behind the plaintiff’s constitutional injury). And even if we were to assume that the
First Amended Complaint plausibly alleges a causal relationship between Douglas
County’s failure to act and the Fourth Amendment violations claimed here, the First
Amended Complaint would still fail to state a claim under Rule 12(b)(6).
As written, the First Amended Complaint’s allegations don’t plausibly show
that Douglas County had (1) “actual or constructive notice” that its failure to act
would lead to illegal seizures or entries into homes without warrants, and (2) that the
county “consciously or deliberately [chose] to disregard the risk of harm.” Carr, 337
F.3d at 1229 (quoting Barney, 143 F.3d at 1307); see Lewis v. McKinley Cty. Bd. of
Cty. Comm’rs, 425 F. App’x 723, 728 (10th Cir. 2011) (affirming a Rule 12(b)(6)
dismissal where the complaint “lack[ed] sufficient allegations to meet the element of
deliberate indifference”). N.E.L. and M.M.A.’s allegations at best show that it’s a
“sheer possibility” that Douglas County’s failure to act led to N.E.L. and M.M.A.’s
injuries, not that the county’s liability is plausible. Iqbal, 556 U.S. at 678. So N.E.L.
and M.M.A. have failed to allege sufficient facts to state a deliberate-indifference
Monell claim against Douglas County.

28

Case 1:15-cv-02847-REB-CBS Document 109 Filed 07/03/18 USDC Colorado Page 29 of 31
Appellate Case: 17-1120

Document: 010110016650

Date Filed: 07/03/2018

CONCLUSION
For the above reasons, we AFFIRM the district court.
Entered for the Court

Gregory A. Phillips
Circuit Judge

29

Page: 29

APPENDIX G

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 1 of 22

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
N.E.L., M.M.A., and E.M.M.,
Plaintiffs,
v.

Case No. 17-2155-CM

MONICA GILDNER, et al.,
Defendants.

MEMORANDUM AND ORDER
Plaintiffs N.E.L., M.M.A., and E.M.M. bring this action against defendants Monica Gildner,
Angela Webb, and Tina Abney, for violations of their constitutional rights under 42 U.S.C. § 1983.
Plaintiffs allege defendants—who at the relevant time were social workers with the Kansas Department
of Children and Families (“DCF”)—engaged in a series of acts which led to plaintiffs’ unconstitutional
seizure and detainment. The matter is now before the court on defendants’ Motion to Dismiss Second
Amended Complaint (Doc. 120). For the reasons set forth below, the court grants the motion.
I.

Background
This case has a long, storied past. It comes before this court after it was transferred from the

District of Colorado on March 14, 2017. Plaintiffs originally filed their complaint in the District of
Colorado on December 31, 2015, alleging constitutional violations against defendants as well as two
Colorado state officials and Douglas County, Colorado. A magistrate judge recommended the district
court grant defendants’ motions to dismiss, finding the Colorado defendants were entitled to qualified
immunity and that the court lacked personal jurisdiction over the Kansas defendants. (Doc. 91.) The
district court judge adopted the recommendations and transferred the claims against the Kansas

-1-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 2 of 22

defendants to this court. (Doc. 98.) Upon transfer, plaintiffs filed a second amended complaint against
defendants. This amended complaint is the subject of the current motion to dismiss.
Accepting the facts in the second amended complaint as true and viewing them in the light most
favorable to the plaintiffs, the court will summarize the incident that gave rise to the current litigation.
Plaintiffs are three of John Doe and Jane Doe’s ten children. In 2008, John Doe, Jane Doe, and
their ten children lived in Johnson County, Kansas. In the spring of 2008, one of the younger children,
who is not a party to this case, began exhibiting troubling behavior and making comments regarding
improper behavior involving a relative of Jane Doe. The parents made a report to authorities at the
Kansas Department of Social and Rehabilitation Services (now known as DCF) and advised them that
none of their children had seen the relative, or any other members of Jane Doe’s family, since 2006.
Defendant Monica Gildner was assigned by her superiors, defendant Angela Webb and defendant
Tina Abney, to oversee the Doe family’s case. Defendants referred the children to Sunflower House for
interviews regarding the alleged abuse. After a criminal investigation into the allegations against the
relative, law enforcement notified defendant Gildner that no charges would be pursued. Gildner then
closed the Doe family’s file. After the file was closed, however, the reporting child shared additional
information, which the parents reported to DCF. Defendant Gildner referred the child again to the
Sunflower House and reopened the DCF file. Another Doe child then reported abuse by the same relative
and was referred to the Sunflower House. The children were also seeing a counselor.
At some point, defendant Gildner took the position that the abuse allegations against the relative
were fabricated and that Jane Doe was suffering from post-partum depression and mental instability.
She recommended the children continue counseling and that Jane Doe begin counseling. John Doe then
attempted to cease contact with defendant Gildner because of her adversarial position to his wife and
him and her “antagonistic, biased, and baseless positions.” Defendants Webb and Abney refused to

-2-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 3 of 22

replace defendant Gildner with a different social worker. At some point after John Doe asked for
defendant Gildner to be taken off the case, Gildner threatened to initiate court action and required that
the entire family participate in Family Preservation Services, which plaintiffs allege was in retaliation
for John Doe’s complaint against her.
In February 2009, defendant Gildner received two more reports regarding the allegations by the
second-reporting Doe child. Shortly thereafter, John Doe filed a formal complaint with DCF regarding
defendant Gildner’s inaction as he was concerned that no medical exams were ordered and no follow up
interviews were being conducted for the child. Defendant Gildner sought a meeting with John Doe to
discuss her concerns about the children being subjected to continued interviews about the allegations
and how the family was going to move forward. Plaintiffs allege defendant Gildner believed the relative
and maternal grandmother’s denials of the alleged abuse over the children’s claims. Defendant Gildner
told John Doe that if he refused to meet with her or participate in recommended services that she may
have to involve the District Attorney’s Office and the court. Plaintiffs allege this meeting and the
imposition of services was in retaliation for their complaint against her.
In March 2009, a third Doe child reported abuse allegations by the same relative to DCF. On
April 20, 2009, the District Attorney’s Office filed Child In Need Of Care (“CINC”) petitions for all ten
of the Doe children in the Johnson County, Kansas District Court. After the petitions were filed, the
court set a non-emergency hearing for May 11, 2009. The children remained in John and Jane Doe’s
custody.
On April 29, 2009, John Doe notified defendant Gildner that he was willing to participate in
Family Preservation Services. On April 30, 2009, defendant Gildner was notified by a relative of the
Doe family that Jane Doe and the children may have left town. Evidence suggested Jane Doe and the
children had gone to Colorado. On May 4, 2009, defendant Gildner went to the Doe home and met John

-3-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 4 of 22

Doe, who told her any contact with him needed to be through his attorney. John Doe provided the
address of where the family was in Colorado to the Overland Park, Kansas police.
On May 5, 2009, defendants sought an ex parte order of protective custody. An application for
the order was filed by the District Attorney’s Office and was granted by the Johnson County District
Court. According to the order, the court found:
1. that remaining in the home would be contrary to the welfare of the children,
2. immediate placement was in the best interest of the children based on allegations of physical,
sexual, mental, or emotional abuse in the CINC petitions and,
3. it was reported that the children had left the area, that John Doe had refused to provide any
information about the whereabouts of the children, and that the whereabouts of the children were
presently unknown.
Plaintiffs allege defendants “fraudulently misrepresented to the court the factual basis for
obtaining the Ex Parte Orders and participated in intentionally crafting the language of the Ex Parte
Order to make it appear that an immediate danger to the children existed when Defendants knew in fact
that no such immediate danger existed or . . . they had no facts upon which to form a reasonable suspicion
that Plaintiffs were in immediate danger . . .” (Doc. 114, at 15–16.)
Plaintiffs allege the following facts in the ex parte order that falsely state or insinuate in a manner
intended to alarm and mislead:


That the parents had committed physical, sexual, mental, or emotional abuse when such
statement had no basis in the facts alleged in the CINC petitions or in the facts known to
defendants.



That John and Jane Doe had refused Family Preservation Services when in fact John Doe had
specifically accepted the offer of Family Preservation Services.

-4-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 5 of 22



That an emergency existed which threatened the safety of the children when defendants knew
the Doe children were not in danger based on their actions:
o in initially closing the DCF file
o in disbelieving that the children’s abuse had actually occurred
o in filing CINC petitions only after John Doe had lodged a complaint against defendant
Gildner
o in not seeking immediate custody of the children upon filing the CINC petitions
o in failing and refusing to contact John and Jane Doe’s attorney or the children’s courtappointed guardian ad litem prior to seeing the ex parte order.



That John Doe would not provide any information on the whereabouts of the children when
he actually instructed defendant Gildner to contact his attorney, which she did not.



That the whereabouts and safety of the children were unknown, when defendants knew that
Jane Doe and the children had gone to Colorado and defendants made no attempt to obtain
information from the children’s guardian ad litem.

Plaintiffs also allege defendants intentionally or recklessly failed to disclose the following facts
that, but for their omission, would have resulted in a denial of the ex parte order:


The CINC petitions contained no prohibition against travel by John or Jane Doe or the
children before the CINC hearing.



The request for the ex parte order was in retaliation for John and Jane Doe’s complaint
against defendant Gildner and/or for their retaining counsel to represent them.



Defendants had failed to contact either the children’s guardian ad litem or John and Jane
Doe’s attorney before seeking the ex parte order.



Defendants disbelieved the children’s allegations of abuse by their relative.

-5-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 6 of 22



Defendants had no reasonable suspicion to believe any of the Doe children were in
imminent danger of physical harm or neglect.



The Doe children did not meet the definition of children in need of care under K.S.A. §
38-2202(d).

Plaintiffs allege that the ex parte orders lacked any objectively reasonable basis for believing the
facts alleged in support were sufficient to establish probable cause to temporarily remove the children
from the custody of their parents, and defendants applied for the orders without an objectively reasonable
basis for believing there was probable cause.
On May 6, 2009, Jane Doe was with her ten children visiting family friends in Douglas County,
Colorado. Lesa Adame, a social worker with the state of Colorado, and Carl Garza, an employee of the
Douglas County, Colorado Sheriff’s Office, went together to the home where Jane Doe and the Doe
children were staying. Adame and Garza told the family friend, Dr. G, that they had a court order from
the State of Kansas to seize custody of all ten of the Doe children. Adame and Garza entered the home
with an order from the Colorado Department of Social Services and the Douglas County Department of
Human Services that required Dr. G and his wife Mrs. G to take custody of the Doe children and follow
through with a safety plan. The order also required Jane Doe to not have any contact with the children.
Dr. and Mrs. G were allowed to personally transport the Doe children to Kansas, and upon arrival in
Kansas, the children were transferred to DCF custody. Dr. G requested temporary custody of the
children or, alternatively, for the children to be placed in the custody of their paternal grandparents. DCF
declined this request and instead separated the children and placed them with foster families.
II.

Legal Standards
Under Rule 12(b)(6), a court may dismiss a complaint for “failure to state a claim upon which

relief can be granted.” Rule 8(a)(2) states that a pleading must contain “a short and plain statement of

-6-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 7 of 22

the claim showing that the pleader is entitled to relief.” To withstand a motion to dismiss under 12(b)(6),
a complaint must contain “enough allegations of fact, taken as true, ‘to state a claim to relief that is
plausible on its face.’” Khalik v. United Air Lines, 671 F.3d 1188, 1190 (10th Cir. 2012) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544 (2007)). A claim is plausible when “the pleaded factual content
allows the court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 663 (2009). When the complaint contains well-pleaded factual
allegations, a court should “assume their veracity and then determine whether they plausibly give rise to
an entitlement to relief.” Id.
Generally, when reviewing a Rule 12(b)(6) motion, a court only considers the contents of the
complaint. See Gee v. Pacheco, 627 F.3d 1178, 1186 (10th Cir. 2010). Exceptions to this rule include:
1) documents that the complaint incorporates by reference, 2) documents referred to in the complaint if
the documents are central to the plaintiffs’ claim and the parties do not dispute the documents’
authenticity, and 3) matters of which a court may take judicial notice. Id.; see also Indus. Constructors
Corp. v. U.S. Bureau of Reclamation, 15 F.3d 963, 964 (10th Cir. 1994) (courts may consider documents
attached to the complaint when reviewing a 12(b)(6) motion); Van Woudenberg v. Gibson, 211 F.3d 560,
568 (10th Cir. 2000) (“[T]he court is permitted to take judicial notice of its own files and records, as well
as facts which are a matter of public record.”), abrogated on other grounds by McGregor v. Gibson, 248
F.3d 946, 955 (10th Cir.2001); GFF Corp. v. Assoc’d Wholesale Grocers, Inc., 130 F.3d 1381, 1384
(10th Cir. 1997) (“[I]f a plaintiff does not incorporate by reference or attach a document to its complaint,
but the document is referred to in the complaint and is central to the plaintiff’s claim, a defendant may
submit an indisputably authentic copy to the court to be considered on a motion to dismiss.”).
In this case, plaintiffs have attached various documents to their second amended complaint,
including a copy of the Ex Parte Order of Protective Custody filed in Johnson County District Court on

-7-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 8 of 22

May 5, 2009 (Doc. 114-1), and a “Safety Plan” from the Colorado Department of Social Services and
Douglas County Department of Human Services (Doc. 114-2). In their motion to dismiss, defendants
attached:
1) Motion for Request for Ex Parte Orders of Protective Custody filed by the Johnson County
District Attorney on May 4, 2009,
2) copies of the CINC petitions for all three plaintiffs filed April 20, 2009 in Johnson County
District Court,
3) copies of the Ex Parte Order of Protective Custody for all three plaintiffs filed May 5, 2009
in Johnson County District Court,
4) copies of the Motion for Pick-Up Order for all three plaintiffs filed May 5, 2009 in Johnson
County District Court,
5) copies of the Order for Pick Up filed May 5, 2009 in Johnson County District court for all
three plaintiffs, accompanied by an affidavit submitted by the District Attorney in support of the
Pick-Up Order,
6) Journal Entry Nunc Pro Tunc filed on May 8, 2009 in Johnson County District Court ordering
the Doe children be placed in custody of the Secretary of Social and Rehabilitation Services.
(Docs. 123-1–14 *SEALED*.)
Because there is no dispute to the authenticity of these documents, and because the plaintiffs
refer to these documents in their complaint and the facts in the documents are central to plaintiffs’ claims,
the court will consider the exhibits without converting the motion into a motion for summary judgment.
III.

Analysis
Plaintiffs’ Second Amended Complaint includes the following claims:
1) Unlawful seizure in violation of the Fourth Amendment,

-8-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 9 of 22

2) Unlawful detention in violation of the Fourth Amendment,
3) Deprivation of familial association in violation of the Fourteenth Amendment,
4) Conspiracy (with the Colorado officials) to deprive plaintiffs of their constitutional rights,
5) Exemplary damages,
6) Deprivation of the right to travel, and
7) Malicious prosecution and/or abuse of process.
All of the claims are related to defendants’ conduct in seeking the ex parte order for protective
custody, which, when it was granted by a judge in Johnson County District Court, resulted in plaintiffs’
removal from Jane Doe’s custody in Colorado and subsequent temporary placement in state custody.
Defendants move to dismiss the complaint arguing 1) the Rooker-Feldman doctrine bars
plaintiffs’ claims, 2) they are entitled to absolute immunity, 3) plaintiffs failed to state a claim as the
seizure was inherently reasonable, 4) plaintiffs failed to state a claim for deprivation of their right to
familial association, 5) plaintiffs failed to state a claim for malicious prosecution or abuse or process, 6)
plaintiffs failed to state a claim for deprivation of the right to travel, 7) they are entitled to qualified
immunity, 8) plaintiffs failed to establish defendant Webb and defendant Abney’s personal involvement,
and 9) the claims are barred by the statute of limitations.
a. Rooker-Feldman
Defendants insist that the Rooker-Feldman doctrine applies to plaintiffs’ claims and, therefore,
this court does not have jurisdiction over the case. Because this implicates whether the court has subject
matter jurisdiction over the case, the court will take up this argument first.
The Rooker-Feldman doctrine “precludes lower federal courts ‘from effectively exercising
appellate jurisdiction over claims actually decided by a state court and claims inextricably intertwined
with a prior state-court judgment.’” PJ ex rel. Jensen v. Wagner, 603 F.3d 1182, 1193 (10th Cir. 2010)

-9-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 10 of 22

(citing Mo’s Express, LLC v. Sopkin, 441 F.3d 1229, 1233 (10th Cir. 2006)). The doctrine extends to
“all state-court decisions—final or otherwise . . . and covers not only claims actually decided by the state
court but issues inextricably intertwined with such claims.” Atkinson-Bird v. Utah, Div. of Child &
Family Servs., 92 F. App’x 645, 647 (10th Cir. 2004). The Supreme Court has recently clarified the
“narrow scope” of the doctrine, noting it applies only to “cases brought by state-court losers complaining
of injuries caused by state-court judgments rendered before the district court proceedings commenced
and inviting district court review and rejection of those judgments.” Wagner, 603 F.3d at 1193 (citing
Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005)). In deciding whether the
doctrine applies, courts should determine whether “the state-court judgment caused, actually and
proximately, the injury for which the federal-court plaintiff seeks redress,” and whether success on the
claims “would require the district court to review and reject [the state court’s] judgments.” Id. For
example, the doctrine would bar a claim for constitutional violations if the alleged violation was the
result of the state court’s order. See Atkinson-Bird, 92 F. App’x at 647 (“[A]n unsuccessful state litigant
cannot challenge an adverse state judgment and circumvent the rule of Rooker-Feldman simply ‘by
bringing a constitutional claim under the civil rights statutes.’”)
Defendants claim the Rooker-Feldman doctrine applies, arguing plaintiffs are effectively seeking
appellate review of the ex parte order of protective custody. Defendants note that orders of temporary
custody are appealable under K.S.A. § 38-2273, therefore the ex parte order was a final, appealable order
and plaintiffs chose not to seek appellate review and are prohibited from seeking such review in this
court. The doctrine further precludes subject matter jurisdiction because the relief plaintiffs seek is
“inextricably intertwined” with the ex parte order.
First, there is no indication the ex parte order was a final, appealable order. The Kansas Court
of Appeals has held that an ex parte order is not appealable because it does not fall under the definition

-10-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 11 of 22

of “temporary custody order” in K.S.A. § 38-2243 and because “[e]x parte orders issued . . . upon a
verified application are designed to be short-lived orders that remain in effect until the temporary custody
hearing. . . .” In re K.W.C., Nos. 112,904–907, 2015 WL 6112013, at *5 (Kan. Ct. App. Oct. 16, 2015).
Regardless, the doctrine applies to all state-court decisions “final or otherwise,” including issues
“inextricably intertwined with such claims.” Atkinson-Bird, 92 F. App’x at 647.
Although defendants argue that plaintiffs’ claims in substance attack the state-court order and/or
are “inextricably intertwined” with the issues in the order, the court finds they do not. Plaintiffs allege
that defendants’ pre-order conduct—including misleading the court with factual misrepresentations and
omissions and seeking an ex parte order fully knowing there was no probable cause to do so—ultimately
led to their illegal seizure. Plaintiffs are not asking for the invalidation of the ex parte order, rather, they
seek relief for defendants’ alleged illegal actions which led to the issuance of that ex parte order. See
Kovacic v. Cuyahoga Cnty. Dep’t of Children & Families, 606 F.3d 301, 310 (6th Cir. 2010) (finding
the Rooker-Feldman doctrine did not apply to plaintiffs’ Fourth Amendment claims and claims for due
process violations because they did not “seek review or reversal of the decision of the juvenile court to
award temporary custody to the state, but instead focus[ed] on the conduct of Family Services and of the
social workers that led up to the juvenile court’s decision to award temporary custody to the County.”).
Because the Supreme Court has advised that the Rooker-Feldman doctrine has a “narrow application,”
the court finds it does not apply in this case and subject matter jurisdiction exists over plaintiffs’ claims.
b. Absolute Immunity
Defendants next argue they have absolute immunity from suit based on the nature of their
functions. Absolute immunity is “necessary to assure that judges, advocates, and witnesses can perform
their respective functions, often controversial, without concern about possible repercussions.” Snell v.
Tunnell, 920 F.2d 673, 687 (10th Cir. 1990). The Supreme Court has applied a “functional approach”

-11-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 12 of 22

when determining whether particular acts of government officials are eligible for absolute immunity,
looking to “the nature of the function performed, not the identity of the actor who performed it.” See
Buckley v. Fitzsimmons, 509 U.S. 259, 269 (1993). The Tenth Circuit has held that “the more distant a
function is from the judicial process, the less likely absolute immunity will attach.” Snell, 920 F.2d at
687. So, for example, an officer applying for a warrant is not absolutely immune from suit, but a
prosecutor seeking an indictment may enjoy absolute immunity. Id. The Tenth Circuit has found
specifically that social workers are not absolutely immune from suits involving their investigative
functions. See Malik v. Arapahoe Cnty. Dep’t of Soc. Servs., 191 F. 3d 1306, 1314 (10th Cir. 1999)
(denying absolute immunity for social workers in a suit related to their “participation in the investigative
act of seeking a placement order). In contrast, the Tenth Circuit has granted absolute immunity for social
workers in suits related to their functions as a testifying witness. See English v. LeBaron, 3 F. App’x
872, 873 (10th Cir. 2001).
Because the facts in the second amended complaint allege defendants committed constitutional
violations when they relied on factual misrepresentations and omissions when they recommended the
District Attorney seek an ex parte order of protective custody, the court finds absolute immunity does
not apply, as defendants’ conduct involved their investigative function.
c. Qualified Immunity
Defendants next argue that if they are not absolutely immune, they are at least entitled to qualified
immunity. Qualified immunity recognizes “the need to protect officials who are required to exercise
their discretion and the related public interest in encouraging the vigorous exercise of official authority.”
Harlow v. Fitzgerald, 457 U.S. 800, 807 (1982). It protects “all but the plainly incompetent or those
who knowingly violate the law.” Malley v. Briggs, 475 U.S. 335, 341 (1986). A defendant is entitled
to qualified immunity unless the plaintiff can show “(1) a reasonable jury could find facts supporting a

-12-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 13 of 22

violation of a constitutional right, which (2) was clearly established at the time of the defendant’s
conduct.” Estate of Booker v. Gomez, 745 F.3d 405, 411 (10th Cir. 2014). The Supreme Court has held
a court has the discretion to consider “which of the two prongs of the qualified immunity analysis should
be addressed first in light of the circumstances in the particular case at hand.” Pearson v. Callahan, 555
U.S. 223, 236 (2009).
Following this instruction from the Supreme Court, the court will first address whether
defendants violated clearly established law. “The relevant, dispositive inquiry in determining whether a
right is clearly established is whether it would be clear to a reasonable officer that his conduct was
unlawful in the situation he confronted.” Saucier v. Katz, 533 U.S. 194, 202 (2001). For a right to be
clearly established, the “contours of the right must be sufficiently clear that a reasonable official would
understand that what he is doing violates that right.” Id. Determining when a law is clearly established
ordinarily requires “a Supreme Court or Tenth Circuit decision on point, or the clearly established weight
of authority from other courts must have found the law to be as plaintiff maintains.” Booker, 745 F.3d
at 427. The Tenth Circuit has adopted a sliding scale approach to determine when law is clearly
established. Id. Under the sliding scale approach, “the more obviously egregious the conduct in light of
prevailing constitutional principles, the less specificity is required from prior case law to establish the
violation.” Id. The question we must answer, therefore, is whether officials—in this case social
workers—“of reasonable competence could disagree about the lawfulness of the challenged conduct.”
Gomes v. Wood, 451 F.3d 1122, 1136 (10th Cir. 2006). If so, the court must grant defendants qualified
immunity.
The Fourth Amendment prohibits the government from unreasonably removing children from
their home. See Burgess v. Houseman, 268 F. App’x 780, 783 (10th Cir. 2008) (finding an unreasonable
seizure when a social worker helped seize and detain a child without a warrant or probable cause to

-13-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 14 of 22

believe the child would be abused if she remained in her mother’s custody); Roska ex rel. Roska v.
Peterson, 328 F.3d 1230, 1244 (finding a child was unreasonably seized within meaning of the Fourth
Amendment when state actors removed him from his home under belief that his health was at risk.).
Plaintiffs maintain that in the Tenth Circuit, the law is clearly established that obtaining a court order to
seize a child through distortion, misrepresentation, and omission is a violation of the Fourth Amendment.
See Malik, 191 F.3d at 1316 (“Officials cannot reasonably assume that the law permits them to obtain a
custody order in retaliation for a parent’s retaining counsel and through reckless omission of probative
facts to a magistrate.”).
In Malik, a police officer and state social worker sought an order from a magistrate judge to
remove a four-year-old girl from her mother’s custody so that they could interview her regarding nude
photographs taken of her. Id. at 1310–13. In seeking the order, the social worker failed to inform the
judge that authorities did not consider the girl to be in imminent danger, that the photographs were five
months old and taken by an uncle who did not live in the area, that the mother had already been
interviewed, that the officer had already cancelled one of the previously scheduled interviews with the
child, and that a medical professional had expressed doubt that the child had bruises on her in the
photographs. Id. at 1311–12. The social worker also failed to mention that the mother had retained an
attorney who had insisted on certain conditions for the child to be interviewed, and proposed alternative
interview dates should officials agree to the conditions. Id. at 1310. The magistrate judge granted the
order and once the child had been removed from her mother’s custody, another officer allegedly told the
mother, “this wouldn’t have happened if you hadn’t gotten an attorney.” Id. at 1312. The Tenth Circuit
found the officer and social worker were not entitled to qualified immunity because “[o]fficials’ desire
to circumvent an attorney’s attempt to negotiate protective conditions for an interview does not rise to
the level of an extraordinary circumstance dangerous to the child . . .,” because the magistrate judge’s

-14-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 15 of 22

order was procured because of relevant factual omissions, and because it was clearly established that an
individual’s rights are violated when a police officer retaliates against him for hiring an attorney. Id. at
1315–16.
Defendants, however, note that the Tenth Circuit has found qualified immunity for social workers
in suits against them for violations resulting from the removal of children. In Gomes v. Wood, for
example, the Tenth Circuit found that because officers of reasonable competence could disagree as to
whether an immediate threat to the safety of the child did not exist, the social worker—who had
recommended removal of a child who had suffered a skull fracture—was entitled to qualified immunity.
451 F.3d at 1137. In granting qualified immunity, the Tenth Circuit emphasized that “considerable
deference should be given to the judgment of responsible government officials in acting to protect
children from perceived imminent danger or abuse.” Id. Further, qualified immunity should only be
denied if, when presented with all relevant information in the case, a reasonable official would have
“understood that there were no ‘emergency circumstances which pose an immediate threat to [the
child’s] safety.’” Id. In deciding whether officials have a reasonable suspicion of threat to a child, courts
must consider “all relevant circumstances, including the state’s reasonableness in responding to a
perceived danger, as well as the objective nature, likelihood, and immediacy of danger to the child.” Id.
at 1131.
The court agrees with plaintiffs that the allegations in the second amended complaint—that
defendants sought the ex parte order knowing there was no emergency and knowing they were omitting
and misrepresenting relevant facts—does violate clearly established Tenth Circuit law. Yet the Tenth
Circuit has recognized the difficulty social workers face in making “on-the-spot judgments on the basis
of limited and often conflicting information . . . with limited resources to assist them,” and has
emphasized that courts must consider all relevant circumstances when deciding whether an official acted

-15-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 16 of 22

within the bounds of the law. Id. at 1138, 1131. Therefore, the court must consider not only plaintiffs’
allegations but also the uncontested documents provided by defendants in support of their motion to
dismiss to determine whether any official could disagree with the reasonableness of defendants’ conduct.
As mentioned above, plaintiffs claim constitutional violations based on defendants’ alleged
omissions and misrepresentations in seeking the ex parte order of protective custody. Plaintiffs argue
defendants knew no exigencies existed to justify removing them from their mother’s custody and that
the ex parte order was invalid, and therefore, their removal was a seizure under the Fourth Amendment.
Again, the Tenth Circuit has instructed us to give deference to officials who are acting to protect children,
and to consider all the relevant circumstances. In reviewing the documents attached to defendants’
motion to dismiss, the court will briefly summarize defendants’ and the Johnson County District
Attorney’s positions in regard to plaintiffs, their siblings, and John and Jane Doe.
In the Motion for Request For Ex Parte Orders of Protective Custody, the Johnson County District
Attorney stated that CINC petitions had been filed for all ten children and that the facts alleged in the
petitions “pursuant to the investigation of [DCF], remained the primary concern the State has for the
welfare of the minor children.” (Doc. 123-1 *SEALED*, at 2.) After the petitions were served on the
parents, John Doe contacted defendant Abney to express his willingness to cooperate with the DCF
investigation and services. This information was passed along to defendant Gildner. Defendant Webb
contacted John Doe and he also expressed to her he wanted to work with Family Preservation as soon as
possible, and that he intended to cooperate with DCF. On May 1, defendant Gildner received a message
from the children’s maternal grandmother, who stated that one of her children had driven by the Doe
home and had seen them loading luggage into their vehicle, and that later the home was dark and the
family’s vehicle was gone. The family’s social worker for SRS benefits stated that the family’s food
stamp card had been used in Colorado on May 2 and May 3. The District Attorney then stated “[b]ased

-16-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 17 of 22

on this information, [DCF] has reason to believe that [Jane Doe] and the children have left the State of
Kansas. Based upon these activities as well as the facts as outlined in the petitions filed of record, the
State believes that the children may be at imminent risk for harm.” (Doc. 123-1 *SEALED*, at 3.)
Because the motion for the ex parte order was based partially on the allegations in the CINC
petitions, it is necessary to summarize those here. It is important to note that while plaintiffs allege the
CINC petitions were not based on probable cause, they have not contested the facts in the CINC petitions.
According to the petitions, filed by the Johnson County District Attorney, DCF began working with the
Doe family in June 2008 after allegations of sexual abuse of one of the non-plaintiff children arose. This
non-plaintiff child alleged that a maternal relative had touched her inappropriately. The Doe family was
estranged from the maternal relatives because Jane Doe felt it was inappropriate that this same maternal
relative had been tickling her children.
The non-plaintiff reporting child as well as two other non-plaintiff children were interviewed
about the allegations. The maternal relative was also interviewed by police regarding the allegations,
which he denied.

Because the allegations were unsubstantiated, DCF closed the case.

DCF

recommended Jane Doe seek counseling to address anger toward her family, as she had reported she had
been sexually abused by a relative.
In November 2008, DCF received another report alleging the original reporting non-plaintiff
child had disclosed additional information about the alleged sexual abuse by the maternal relative. The
child was again interviewed, but the details were inconsistent with the original report. In December
2008, another non-plaintiff child reported that she and the original reporting non-plaintiff child were
given pills, shown dead animals, and forced to watch pornography on the maternal relative’s computer.
Jane Doe reported that the maternal relative threatened to kill the children if they told anyone about the
alleged abuse and that he gave the children injections, showed them pornography on his computer, and

-17-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 18 of 22

forced them to watch animals being shot and mutilated. She also alleged the relative pushed his mother
down the stairs in front of the children.
DCF notified law enforcement about these allegations and concern was expressed regarding Jane
Doe’s mental stability as she recently had given birth and had a history of post-partum depression. DCF
was concerned that because of the “fantastic nature” of the allegations, Jane Doe may be experiencing
delusions related to the allegations. After further interviews of the children, law enforcement executed
a search warrant for the computers in the maternal relative’s home. There was no pornography found
on any of the computers. Based on the children’s statements, an elder abuse investigation was also
initiated, but was closed as the allegations were unconfirmed. Through this investigation, however,
officials found out that the maternal relative and Jane Doe’s mother and father had loaned the Doe family
tens of thousands of dollars to help with necessities with the understanding the Doe family would pay
them back. When the maternal relative confronted John and Jane Doe about how the money was being
spent, John and Jane Doe became upset and cut off contact with the maternal side of the family. John
and Jane Doe had also been involved with several lawsuits and had legal issues related to passing bad
checks. Jane Doe had allegedly been soliciting money on the internet and the family had to file for
bankruptcy. The maternal side of the family had expressed concern for the children’s physical and
emotional well-being and Jane Doe’s mental health and safety. DCF had also received documentation
that Jane Doe had been participating in online chat groups for victims of sexual abuse and had been
asked to leave due to people being uncomfortable with her and feeling that she had been lying about
allegations she had been reporting.
The family initially had accepted DCF’s offer of Family Preservation Services, but later declined,
stating the children were going to continue therapy and that Jane Doe was going to begin therapy
elsewhere. In March 2009, John Doe called DCF to express his disappointment with their services.

-18-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 19 of 22

Shortly after, DCF was informed by Leawood, Kansas and Kansas City, Missouri Police Departments
that law enforcement and the FBI were involved in an investigation regarding allegations that the
maternal relative had taken some of the Doe children to a bar in Kansas City, Missouri, had given them
shots, stripped them naked, and made them lick a dead rat. Both agencies declined to further investigate
the allegations based on lack of information.
DCF expressed concern about the “fantasticality” of the allegations and the high frequency of
reports from the family. DCF believed that much of the information reported by the Doe family was
untrue based on reports from others interviewed during the investigation. John Doe had reported he
would continue to seek action against the maternal relative, including filing a lawsuit, and DCF was
concerned about the emotional impact this would have on the children due to their continued exposure
to interviews and investigations because of their parents’ action. DCF reported they had attempted to
discuss these concerns with John and Jane Doe, but the first meeting was rescheduled, and the second
meeting was canceled by John Doe, who had expressed he no longer wanted to cooperate with DCF.
DCF believed John and Jane Doe were unwilling to listen to DCF’s concerns regarding their children
and DCF remained concerned with the children’s emotional well-being and safety, as Jane Doe was the
primary caregiver, was home with the children all day, and was potentially suffering from mental health
issues. DCF believed that, based on reports, the source of much of the information regarding the
allegations was from Jane Doe, not the children. And John and Jane Doe had become increasingly
uncooperative in the investigation, and had recently denied DCF requests to interview the children.
The petition then stated that reasonable efforts have been provided to prevent removal of the
children from the home, including ensuring the children were safe from the alleged perpetrator in the
original investigation, and that the children and Jane Doe had been participating in therapy. DCF noted,
however, that financial support from the maternal relatives had been cut off, and that the family declined

-19-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 20 of 22

Family Preservation Services and had been declining to cooperate with DCF. The petition then stated it
was contrary to the children’s welfare to remain in the home and that placement out of the home was in
the best interest of the child due to: concerns about how the children’s emotional and physical needs
were being met, the continued on-going investigations and fantastic allegations being made against the
maternal relative and the impact this had on the children’s emotional health, and Jane Doe’s mental
stability.
As mentioned above, the court set a hearing on the petitions for May 11, 2009. On May 5, 2009,
the Johnson County District Attorney filed an affidavit in support of a pick-up order of the children after
the ex parte order of protective custody was issued. In the affidavit, the Johnson County District Attorney
claimed that on May 5, defendant Gildner responded to the Doe family home after it was reported John
Doe was seen there. He informed defendant Gildner he would not divulge the whereabouts of his
children and that any communication would need to go through his attorney. The District Attorney stated
the pick-up order was necessary “to assure the juvenile’s continuing placement, is necessary as there is
no assurance that said juvenile will appear for hearing in this Court, and is made in the best interest of
the child and the community.” (Doc. 123-11 *SEALED*, at 3.)
The court finds it is important to outline the facts from the Johnson County documents as they
refute many of the “misrepresentations and omissions” plaintiffs rely on to support their argument that
defendants violated their constitutional rights. For example, plaintiffs allege that defendants had
represented that “the parents had committed physical, sexual, mental, or emotional abuse when such
statement had no basis in the facts alleged in the CINC petitions or in the facts known to defendants.”
As the details from the CINC petitions make clear, defendants had concern that the children were subject
to at least emotional and mental abuse, and the facts alleged provided support for this concern. Plaintiffs
also claim “that John and Jane Doe had refused Family Preservation Services when in fact John Doe had

-20-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 21 of 22

specifically accepted the offer of Family Preservation Services.” In the motion for the ex parte order,
the District Attorney specifically states that after the CINC petitions were filed, John Doe accepted the
offer of Family Preservation Services and stated he was willing to cooperate with DCF. Further,
plaintiffs claim that defendants knew the Doe children were not in danger because they initially closed
their file, disbelieved the children’s abuse had actually occurred, and didn’t seek immediate custody of
the children upon filing the CINC petitions. The motion for the ex parte order, however, states that the
allegations in the CINC petition, combined with the parents taking the children out of state, created an
immediate need to take custody of the children. The CINC petition itself stated it was contrary to the
children’s welfare to remain in the home and that placement out of the home is in the best interest of the
child due to: concerns about how the children’s emotional and physical needs are being met, the
continued on-going investigations and fantastic allegations being made against the maternal relative and
the impact this has on the children’s emotional health, and Jane Doe’s mental stability. (Emphasis
added.)
Based on a review of the Johnson County documents, the court can distinguish this case from the
facts of Malik, which plaintiffs rely on to show the law was clearly established. In Malik, the evidence
showed the officials had no reason to remove the child from the home beyond the fact that they were
having difficulty scheduling the child for an interview. There were no facts that the child was in danger,
and the social worker omitted material facts about the situation when seeking an order from the
magistrate judge. Here, the District Attorney, likely based on a recommendation from defendants, sought
an ex parte order of protective custody based on the allegations in the CINC petition and the parents’
post-petition conduct—removing the children from the state and not being forthcoming about the
children’s whereabouts. Most of the claimed “misrepresentations and omissions” set forth in plaintiffs’
complaint are refuted by the Johnson County documents or are not material. Plaintiffs do claim that

-21-

Case 2:17-cv-02155-CM-JPO Document 135 Filed 03/07/18 Page 22 of 22

there were no travel restrictions placed on the family in the time period between the filing of the petition
and the hearing, and therefore it was unreasonable to use the family’s travel to justify the ex parte order.
The court has not found any travel restrictions in any of the documents. The court, however, has to give
reasonable deference to defendants’ judgment in deciding when a child may be in danger.
The court therefore finds that reasonable officials could disagree as to whether there was a threat
to plaintiffs’ safety. And based on the factual allegations in the CINC petition—which have not been
contested—combined with the parents’ post-petition conduct, it would be reasonable for an official to
believe an ex parte order of protective custody was justified.
For these reasons, the court finds defendants are entitled to qualified immunity because the law
is not clearly established that their conduct violated plaintiffs’ constitutional rights.
IT IS THEREFORE ORDERED that defendants’ Motion to Dismiss Second Amended
Complaint (Doc. 120) is granted.
This case is closed.

Dated March 7, 2018, at Kansas City, Kansas.

s/ Carlos Murguia
CARLOS MURGUIA
United States District Judge

-22-

APPENDIX H

Case 1:15-cv-02847-REB-CBS Document 98 Filed 03/13/17 USDC Colorado Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Robert E. Blackburn
Civil Action No. 15-cv-02847-REB-CBS
N.E.L., and
M.M.A.,
Plaintiffs,
v.
DOUGLAS COUNTY, COLORADO,
MONICA GILDNER, in her individual capacity,
ANGELA WEBB, in her individual capacity,
TINA ABNEY, in her individual capacity
LESA ADAME, in her individual capacity, and
CARL GARZA, in his individual capacity,
Defendants.

ORDER OVERRULING OBJECTIONS TO AND ADOPTING
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
Blackburn, J.
The matters before me are (1) the Recommendation of United States
Magistrate Judge re Motion to Dismiss [#91], filed January 27, 2017; and (2)
Plaintiffs’ Objections to the Recommendation on Pending Motions [#93], filed
February 10, 2017. I overrule the objections, approve and adopt the recommendation,
grant the Douglas County defendants’ motion to dismiss, grant the Kansas defendants’
motion to dismiss for lack of personal jurisdiction in this forum, and transfer the claims
against the Kansas defendants to the United States District Court for the District of
Kansas.

Case 1:15-cv-02847-REB-CBS Document 98 Filed 03/13/17 USDC Colorado Page 2 of 7

As required by 28 U.S.C. § 636(b), I have reviewed de novo all portions of the
recommendation to which objections have been filed. I have considered carefully the
recommendation, the objections, the underlying motions, and all applicable caselaw.
The recommendation is thorough and well-reasoned, and I approve and adopt it in all
relevant respects.
The magistrate judge found that defendants Lesa Adame and Carl Garza, the
two Douglas County, Colorado, employees who executed the ex parte orders issued by
the Johnson County, Kansas, court, were entitled to qualified immunity from plaintiffs’
claims under the Fourth and Fourteenth Amendments.1 Although I do not concur with
some of the magistrate judge’s analysis of the Fourth Amendment Claim,2 I do agree
that, assuming arguendo plaintiffs have stated a constitutional right, they have failed to
demonstrate that such right was clearly established on May 6, 2009. See Pearson v.
Callahan, 555 U.S. 223, 236, 129 S.Ct. 808, 818, 172 L.Ed.2d 565 (2009) (courts may
“exercise their sound discretion in deciding which of the two prongs of the qualified
immunity analysis should be addressed first in light of the circumstances in the
particular case at hand”).3

1

Ms. Adame was employed by Douglas County as a social worker, and OfficerGarza was
employed by the Douglas County Sheriff’s Office.
2

Specifically, I believe the magistrate judge misread the complaint in finding plaintiffs were not
seized because they were already in the custody of the state of Kansas by virtue of the ex parte orders.
(Recommendation at 19-20.) Plaintiffs plainly allege that claim was false (see First Am. Compl. ¶¶ 143144 at 21, ¶ 150 at 22); indeed, the magistrate judge himself discussed how the ex parte orders did not
contain any affirmative order, let alone a directive to take the children into custody (Recommendation at
10).
3

I find it appropriate to exercise that discretion in this instance on several of the bases which
have been identified as justifying addressing the clearly established prong first: (1) because the
constitutional violation alleged “‘is so factbound that the decision provides little guidance for future cases’”;
(2) because “discussing both elements risks ‘bad decisionmaking’ because the court is firmly convinced

2

Case 1:15-cv-02847-REB-CBS Document 98 Filed 03/13/17 USDC Colorado Page 3 of 7

As the magistrate judge’s cogent and competent discussion of these decisions
amply demonstrates (see Recommendation at 20-22), neither of the two Tenth Circuit
decisions on which plaintiffs rely in attempting to satisfy their burden in this regard
involve facts sufficiently similar to those alleged here such that a reasonable official in
Ms. Adame’s and Officer Garza’s circumstances would have understood their actions
violated the Fourth Amendment. See Dodds v. Richardson, 614 F.3d 1185, 1206 (10th
Cir. 2010), cert. denied, 131 S.Ct. 2150.4 Additionally, I note that in these and the
other cases to which plaintiffs point, state officers seized and removed a child from the
parent. Gomes v. Wood, 451 F.3d 1122, 1126 (10th Cir. 2006); Jones v. Hunt, 410
F.3d 1221, 1224-25 (10th Cir. 2005), cert. denied, 127 S.Ct. 676. See also Wooley v.
City of Baton Rouge, 211 F.3d 913, 917-18 (5th Cir. 2000). Here, the opposite
occurred – Ms. Adame and Officer Garza allegedly required plaintiffs’ mother, Mrs. Doe,
to leave, but left the children where they first encountered them, in the home of Mrs.
Doe’s friends, Dr. and Mrs. G. Plaintiffs have presented no authority, and the court has

the law is not clearly established and is thus inclined to give little thought to the existence of the
constitutional right”; and (3) because “the doctrine of ‘constitutional avoidance’ suggests the wisdom of
passing on the first constitutional question because ‘it is plain that a constitutional right is not clearly
established but far”from obvious whether in fact there is such a right.’” See Kerns v. Bader, 663 F.3d
1173, 1180-81 (10th Cir. 2011) (quoting Pearson, 129 S.Ct. at 818-21).
4

The two other federal appellate court decisions to which plaintiffs cite hardly constitute “the
clearly established weight of authority from other courts,” even if those decisions were on point. Harman
v. Pollock, 586 F.3d 1254, 1261 (10th Cir. 2009). Moreover, plaintiffs’ reliance on the Sixth Circuit’s
unpublished decision in Wendrow v. Michigan Department of Human Services, 534 Fed. Appx. 516 (6th
Cir. Aug. 28, 2013), which carries no precedential weight, see Braggs v. Perez, 73 Fed. Appx. 147, 148
(6th Cir. 2003), cert. denied, 124 S.Ct. 2113 (2004), is inapposite in any event, as it post-dates the
allegedly unconstitutional actions in this case by more than four years, see Reichle v. Howards, 566 U.S.
658, —, 132 S.Ct. 2088, 2093, 182 L.Ed.2d 985 (2012) (right must be clearly established “by prior case
law” “at the time of the challenged conduct”). See also Ashcroft v. al-Kidd, 563 U.S. –, 131 S.Ct. 2074,
2083, 179 L.Ed.2d 1149 (2011) (“[E]xisting precedent must have placed the statutory or constitutional
question beyond debate.”).

3

Case 1:15-cv-02847-REB-CBS Document 98 Filed 03/13/17 USDC Colorado Page 4 of 7

found none, in which officers were found to have seized a child under closely analogous
circumstances. Qualified immunity thus is proper as to this claim.
Likewise, Ms. Adame and Officer Garza are entitled to qualified immunity from
plaintiffs’ substantive due process claim. Here, the magistrate judge relied on the first
prong of the qualified immunity analysis, concluding plaintiffs failed to plead a viable
claim of violation of their Fourteenth Amendment right to familial association because
these defendants’ alleged interference (as opposed to the arguably more substantial
interference that occurred once the children returned to Kansas) was limited and
incidental to the legitimate goal of keeping the children safe pending their return to
Kansas. See Silvan v. Briggs, 309 Fed. Appx. 216, 223 (10th Cir. Jan. 23, 2009) (citing
Nicholson v. Scoppetta, 344 F.3d 154, 172 (2nd Cir. 2003)).5 I thus concur with the
magistrate judge’s conclusion that plaintiffs have failed to state a claim for violation of
their constitutional right of familial association as against Ms. Adame and Officer
Garza.6
In the absence of a viable claim that either Ms. Adame or Officer Garza violated
their constitutional rights, it should go without saying that plaintiffs cannot sustain a

5

Plaintiffs’ objection – that Ms. Adame and Officer Garza may be liable because they allegedly
conspired with the Kansas defendants in the subsequent, lengthier detention of the children – assumes
what it would seek to prove. Plaintiffs first must prove these defendants violated their civil rights before
they may be held liable for civil conspiracy to violate those rights. See United Brotherhood of
Carpenters & Joiners of America, Local 610, AFL-CIO v. Scott, 463 U.S. 825, 833, 103 S.Ct. 3352,
3358, 77L.Ed.2d 1049 (1983).
6

Moreover, and although the magistrate judge did not reach the second prong of the qualified
immunity test, his analysis further makes plain that plaintiffs have failed to satisfy their burden to show the
right was clearly established as to these defendants. Although the issue was fairly joined in the apposite
motion to dismiss (see Motion To Dismiss Amended Complaint at 8-10 [#57], filed May 12, 2016 ),
plaintiffs’ response failed to address this claim at all, much less attempt to demonstrate the right was
clearly established.

4

Case 1:15-cv-02847-REB-CBS Document 98 Filed 03/13/17 USDC Colorado Page 5 of 7

claim for civil conspiracy to violate those rights against them. See United Brotherhood
of Carpenters & Joiners of America, Local 610, AFL-CIO v. Scott, 463 U.S. 825,
833, 103 S.Ct. 3352, 3358, 77L.Ed.2d 1049 (1983). Moreover, in the absence of an
underlying constitutional violation by one of its employees, Douglas County, Colorado,
cannot be held liable for allegedly maintaining an unconstitutional policy or practice.
Trigalet v. City of Tulsa, Oklahoma, 239 F.3d 1150, 1155-56 (10th Cir.), cert. denied,
122 S.Ct. 40 (2001). These claims therefore also must be dismissed.
As for the motion to dismiss for lack of personal jurisdiction filed by defendants
Monica Gildner, Angela Webb, and Tina Abney (the “Kansas defendants”), there is no
need for this court to engage in a festooned reiteration of the magistrate judge’s incisive
and well-reasoned analysis. It is pellucid that this court lacks personal jurisdiction over
these defendants. All Mses. Gildner’s, Webb’s, and Abney’s relevant actions took
place in Kansas, under the auspices of a Kansas court, for the purpose of returning the
children to Kansas. The mere fortuity that plaintiffs happened to be staying temporarily
in Colorado at the time is far too ephemeral a contact to support a conclusion that the
Kansas defendants purposefully directed their actions toward this forum. Even if it did, I
agree with the magistrate judge that exercising personal jurisdiction over these
defendants in this forum would offend due process.
Neither plaintiffs nor the Kansas defendants have objected to the magistrate
judge’s recommendation that these claims be transferred to the District of Kansas as
contemplated by 28 U.S.C. § 1631. This recommendation also is prescient and welltaken. Given that the statute of limitations may have expired since the case was filed,

5

Case 1:15-cv-02847-REB-CBS Document 98 Filed 03/13/17 USDC Colorado Page 6 of 7

the interests of justice plainly dictate that these claims should be transferred rather than
dismissed outright.
While the substantive viability of plaintiffs’ claims against the Kansas defendants
thus remains for determination by a court of competent jurisdiction, the Douglas County
defendants are entitled to a judgment in their favor. See Cain v. Graf, 1998 WL 654987
at *2 (10th Cir. Sept. 21, 1998). It is pellucid in this instance that “the claims under
review [are] separable from the others remaining to be adjudicated and . . . the nature of
the claims already determined [is] such that no appellate court would have to decide the
same issues more than once even if there were subsequent appeals.'" Stockman's
Water Co., LLC v. Vaca Partners, L.P., 425 F.3d 1263, 1265 (10th Cir. 2005) (quoting
Curtiss-Wright Corp. v. General Electric Co., 446 U.S. 1, 8, 100 S.Ct. 1460, 1465, 64
L.Ed.2d 1 (1980) (alterations in Stockman's). There is no just reason to delay entry of
judgment in favor of the Douglas County defendants while the factually distinct claims
against the Kansas defendants are adjudicated in a different federal court. Pursuant to
Fed. R. Civ. P. 54(b), I therefore will direct the entry of final judgment in favor of the
Douglas County defendants.
THEREFORE, IT IS ORDERED as follows:
1. That the Recommendation of United States Magistrate Judge re Motion
to Dismiss [#91], filed January 27, 2017, is approved and adopted as an order of this
court;
2. That the objections stated in Plaintiffs’ Objections to the Recommendation
on Pending Motions [#93], filed February 10, 2017, are overruled;

6

Case 1:15-cv-02847-REB-CBS Document 98 Filed 03/13/17 USDC Colorado Page 7 of 7

3. That the Motion to Dismiss Amended Complaint [#57], filed May 12, 2016
by defendants Lesa Adame, Carl Garza, and Douglas County, Colorado, is granted;
4. That the Motion to Dismiss First Amended Complaint with Memorandum
in Support or, in the Alternative, Motion for Summary Judgment [#65], filed May
26, 2016, by defendants Tina Abney, Monica Gildner, and Angela Webb is granted in
part and denied in part as follows:
a. That the motion is granted to the extent it seeks dismissal for lack of
personal jurisdiction over these defendants in this forum; and
b. That in all other respects, the motion is denied without prejudice;
5. That plaintiffs’ claims against defendants Lesa Adame, Carl Garza, and
Douglas County, Colorado, are dismissed with prejudice;
6. That plaintiffs’ claims against defendants Tina Abney, Monica Gildner, and
Angela Webb are dismissed without prejudice;
7. That, there being no just reason for delay, pursuant to Fed. R. Civ. P. 54(b),
judgment with prejudice shall enter on behalf of defendants Lesa Adame, Carl Garza,
and Douglas County, Colorado, and against plaintiffs, N.E.L. and M.M.A., on all claims
for relief and causes of action asserted in this action; and
8. That this case is transferred to the United States District Court for the District
of Kansas (500 State Ave, Kansas City, Kansas 66101).
Dated March 13, 2017, at Denver, Colorado.
BY THE COURT:

7

APPENDIX I

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 1 of 38

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 15-cv-02847-REB-CBS
N.E.L. and
M.M.A.,
Plaintiffs,
v.
DOUGLAS COUNTY, COLORADO;
MONICA GILDNER, in her individual capacity;
ANGELA WEBB, in her individual capacity;
TINA ABNEY, in her individual capacity;
LESA ADAME, in her individual capacity; and
CARL GARZA, in his individual capacity.
Defendants.

RECOMMENDATION ON PENDING MOTIONS TO DISMISS

Magistrate Judge Craig B. Shaffer
This matter comes before the court on the Motion to Dismiss Amended Complaint (doc.
# 57) filed by Defendants Lesa Adame, Carl Garza, and Douglas County (hereinafter referred to
collectively as the “Douglas County Defendants”), and the Motion to Dismiss First Amended
Complaint with Memorandum in Support or, in the alternative, Motion for Summary Judgment
(doc. # 65) filed by Defendants Monica Gildner, Angela Webb, and Tina Abney (hereinafter
referred to collectively as the “Kansas Defendants”). These motions have been fully briefed by
the parties.
On March 1, 2016, this matter was referred to the Magistrate Judge to, inter alia, “hear
and make recommendations on dispositive matters that have been referred.” By separate

1

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 2 of 38

memoranda, both of the pending motions have been referred to this court for recommendation. I
have carefully reviewed the motions, all related briefing and attached exhibits, the entire court
file, and the applicable case law.
PROCEDURAL HISTORY
This action was commenced with the filing of the original Complaint on December 1,
2015. The First Amended Complaint (doc. #55), filed on April 29, 2016, asserts six claims for
relief. The First Claim asserts a Fourth Amendment violation and contends that all Defendants
“approved and/or conducted an unlawful seizure . . . by which Plaintiffs were deprived of their
liberty without due process when they were prohibited . . . from any movement or travel with
their mother, father and grandparents.” The Second Claim is brought against Defendants
Gildner, Webb and Abney and asserts that Plaintiffs’ Fourth Amendment rights were violated
when they were “held against their will for five days prior to a hearing on the CINC petitions.”
The Third Claim is brought against Defendants Gildner, Webb, Abney, Adame, and Garza and
asserts a violation of Plaintiffs’ Fourteenth Amendment right to maintain a familial relationship
with their parents, siblings, and grandparents. The Fourth Claim alleges that Defendants
Gildner, Abney, Webb, Adame and Garza conspired to deprive Plaintiffs of their constitutional
rights. The Fifth Claim contends that Plaintiffs are entitled to exemplary damages because “[t]he
actions of Gildner, Abney, Webb, Adame and Garza were attended by retaliation, malice, ill will,
intent and/or recklessness, [and] callous disregard of Plaintiffs’ rights, or indifference to
Plaintiffs’ rights.” Finally, the Sixth Claim alleges that Defendant Douglas County violated
Plaintiffs’ Fourth Amendment rights by adopting an unlawful policy that authorized county
sheriff’s personnel “to seize Plaintiffs based on an out-of-state ex parte order in violation of the

2

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 3 of 38

United States Constitution and Colorado law,” or through deliberate indifference by failing to
“adopt a policy requiring . . . or in failing to train personnel . . . to comply with the United States
Constitution and Colorado law.”
As the parties are well-familiar with the underlying circumstances of this case, I will only
briefly summarize those facts and circumstances that are necessary to place the pending motions
and this Recommendation in context.
It appears that Mr. and Mrs. Doe had their first contact with the Kansas Department of
Social and Rehabilitation Services1 in June 2008 after one of the Doe children2 began exhibiting
troubling behavior and making troubling comments that allegedly stemmed from improper
interaction with that child by one of Mrs. Doe’s relatives. See First Amended Complaint at ¶¶ 17
and 21. Later, other Doe children reported having suffered abuse from the same suspected
relative. Id. at ¶¶ 38, 65 and 77. During the time period relevant to this case, the Kansas
Defendants were employed by SRS/DCF. The Kansas Defendants’ contacts with the Doe family
continued into 2009 and eventually became contentious. As some point, Mr. Doe apparently
“communicated to [Ms.] Webb and [Ms.] Abney that he did not wish to have further contact with
[Ms.] Gildner due to the animosity created by her antagonistic, biased and baseless positions.”
Id. at ¶ 55. In February 2009, Mr. Doe “filed a formal complaint with SRS/DCF” against Ms.
Gildner. Id. at ¶ 66. The actual cause of this deteriorating situation is a matter of some dispute

1

This state agency is now called the Kansas Department of Children and Families, and is
referenced in the First Amended Complaint as “SRS/DCF.” See First Amended Complaint, at
¶5.
2

The Plaintiffs in this action, N.E.L. and M.M.A., are two of the Does’ ten children.
Although Plaintiffs have reached the age of majority, during the relevant time period, both were
minors.
3

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 4 of 38

and wholly irrelevant to the disposition of the pending motions.
On or about April 20, 2009, ten Child-in-Need of Care (CINC) petitions were filed in the
District Court for Johnson County, Kansas by the District Attorney’s Office. Those petitions
“requested termination of Mr. and Mrs. Doe’s parental rights, appointment of a permanent
custodian for Plaintiffs and their siblings, temporary removal of Plaintiffs and their siblings from
their Parents’ custody, and an order of child support.” Id. at ¶ 86. The Johnson County District
Court set a non-emergency hearing on these petitions for May 11, 2009. On May 5, 2009,
SRS/DCF sought Ex Parte Orders of Protective Custody in the District Court of Johnson County.
Although Mr. and Mrs. Doe dispute the information proffered in support of the petitions for
those orders, the District Court entered Ex Parte Orders on May 5, 2009.
On that same day, Mrs. Doe and her children were visiting long-standing family friends,
Dr. and Mrs. G, who were living in unincorporated Douglas County, Colorado. At some point,
Defendants Adame and Garza were made aware of the Ex Parte Orders issued by the Johnson
County District Court and they went to the G’s residence.3 After some discussion on May 6,
2009, Mrs. Doe left the G residence. Later that same day, Dr. G and his wife drove the Doe
children back to Kansas where they were placed in the temporary custody of SRS/DCF.
In moving to dismiss the First Amended Complaint, the Douglas County Defendants
contend that Plaintiffs’ claims are barred by the applicable statute of limitations, as well as the
doctrines of absolute and qualified immunity. The Douglas County Defendants further insist that

3

On May 6, 2009, Ms. Adame was a social worker either employed by the Colorado
Department of Social Services or the Douglas County Department of Human Services, and Mr.
Garza was employed by the Douglas County Sheriff’s Office. See First Amended Complaint, at
¶¶ 10 and 11.
4

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 5 of 38

the First Amended Complaint fails to state a viable claim for relief against Douglas County. The
Kansas Defendants have moved to dismiss the claims against them based upon a lack of personal
jurisdiction. In the alternative, the Kansas Defendants insist that Plaintiffs’ claims are barred by
the statute of limitations and the doctrines of absolute or qualified immunity, and that Plaintiffs’
alleged Fourth Amendment violation fails to state a cognizable claim for relief. Plaintiffs
naturally take strong exception to all of these arguments.
ANALYSIS
I.

The Douglas County Defendants’ Motion
Rule 12(b)(6) states that a court may dismiss a complaint for “failure to state a claim

upon which relief can be granted.” See Fed. R. Civ. P. 12(b)(6). In deciding a motion under
Rule 12(b)(6), the court must “accept as true all well-pleaded factual allegations . . . and view
these allegations in the light most favorable to the plaintiff.” Casanova v. Ulibarri, 595 F.3d
1120, 1124-25 (10th Cir. 2010) (quoting Smith v. United States, 561 F.3d 1090, 1098 (10th Cir.
2009)). However, a plaintiff may not rely on mere labels or conclusions “and a formulaic
recitation of the elements of a cause of action will not do.” See Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555 (2007). Rather, the court’s analysis is two-fold.
First, the court identifies “the allegations in the complaint that are not entitled to
the assumption of truth,” that is those allegations that are legal conclusions, bare
assertions, or merely conclusory. Second, the court considers the factual
allegations “to determine if they plausibly suggest an entitlement to relief.” If the
allegations state a plausible claim for relief, such claim survives the motion to
dismiss. Notwithstanding, the court need not accept conclusory allegations
without supporting factual averments.
Wood v. Wells Fargo Bank, N.A., No. 13-cv-01731-CMA-KMT, 2013 WL 5763101, at *2 (D.
Colo. Oct. 23, 2013) (internal citations omitted).

5

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 6 of 38

As the Tenth Circuit explained in Ridge at Red Hawk, L.L.C. v. Schneider, 493 F.3d
1174, 1177 (10th Cir. 2007),
the mere metaphysical possibility that some plaintiff could prove some set of facts
in support of the pleaded claims is insufficient; the complaint must give the court
reason to believe that this plaintiff has a reasonable likelihood of mustering
factual support for these claims.
“The burden is on the plaintiff to frame ‘a complaint with enough factual matter (taken as true)
to suggest’ that he or she is entitled to relief.” Robbins v. Oklahoma, 519 F.3d 1242, 1247 (10th
Cir. 2008) (quoting Bell Atl. Corp., 555 U.S. at 556). The ultimate duty of the court is to
“determine whether the complaint sufficiently alleges facts supporting all the elements necessary
to establish an entitlement to relief under the legal theory proposed.” Forest Guardians v.
Forsgren, 478 F.3d 1149, 1160 (10th Cir. 2007).
Plaintiffs attached to the First Amended Complaint a redacted Ex Parte Order of
Protective Custody, dated May 5, 2009 (Exhibit 1) (doc. #55-1) and a redacted document entitled
Colorado Department of Social Services, Douglas County Department of Human Services Safety
Plan, dated May 6, 2009 (Exhibit 2) (doc. #55-2). The parties also have attached exhibits to their
briefs in support of or in opposition to the Douglas County Defendants’ motion to dismiss.
Those exhibits consist of judicial records from Colorado’s Eighteenth Judicial District
(Defendants’ Exhibit A, doc. # 57-1 and Plaintiffs’ Exhibit 3, doc. #67-3) and the District Court
for Johnson County, Kansas (Plaintiffs’ Exhibit 2, doc. #67-2 and Plaintiffs’ Exhibit 4, doc. #674). The parties also included as exhibits excerpts from the Colorado Code of Regulations, 12
CCR 2509-2 (Defendants’ Exhibit B, doc. #57-2 and Exhibit C, doc. #76-1).4

4

The Kansas Defendants and Plaintiffs also attached exhibits to their briefs in support of
or in opposition to the Kansas Defendants’ motion to dismiss. Most of those exhibits are
6

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 7 of 38

Generally, a court considers only the contents of the complaint when ruling on a Rule
12(b)(6) motion. Gee v. Pacheco, 627 F.3d 1178, 1186 (10th Cir. 2010). Exceptions to this
general rule include: documents incorporated by reference in the complaint; documents referred
to in and central to the complaint, when no party disputes their authenticity; and “matters of
which a court may take judicial notice.” Id. (quoting Tellabs, Inc. v. Makor Issues & Rights,
Ltd., 551 U.S. 308, 322 (2007)). Cf. Gilbert v. Bank of Am. Corp., No. 11-cv-00272-BLW, 2012
WL 4470897, at *2 (D. Idaho Sept. 26, 2012) (noting that a court may take judicial notice “of the
records of state agencies and other undisputed matters of public record” without transforming a
motion to dismiss into a motion for summary judgment). Cf. Catchai v. Fort Morgan Times, No.
15-cv-00678-MJW, 2015 WL 6689484, at *4 (D. Colo. Nov. 3, 2015) (in ruling on the pending
motion to dismiss, the court acknowledged its ability to take judicial notice of court records from
Morgan County District Court); Reyes v. Hickenlooper, 84 F. Supp. 3d 1204, 1207 (D. Colo.
2015) (noting that the court could take judicial notice of court filings from other cases without
converting a Rule 12(b)(6) motion into a summary judgment motion). While the court has read
and considered the parties’ exhibits, I will analyze the issues and arguments under the standard
governing motions to dismiss under Rule 12(b)(6).
A.

Defendants’ Claim to Absolute Immunity

Defendants Adame and Garza contend that all claims against them must be dismissed
based on the doctrine of absolute or quasi-judicial immunity because on May 6, 2009 they were
simply executing orders issued by a Kansas court. Plaintiffs argue in response that “absolute
immunity does not apply because the Kansas Ex Parte Orders were not facially valid” and

judicial records subject to judicial notice by this court.
7

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 8 of 38

because “Adame and Garza exceeded the scope of the orders.” See Response to Douglas
Defendants’ Motion to Dismiss, at 12.
The Tenth Circuit has held that “enforcing a court order or judgment is intrinsically
associated with a judicial proceeding” and that “[a]bsolute immunity for officials assigned to
carry out a judge’s orders is necessary to insure that such officials can perform their function
without the need to secure permanent legal counsel.” Valdez v. City & Cty. of Denver, 878 F.2d
1285, 1289 (10th Cir. 1989) (“it is simply unfair to spare the judges who give orders while
punishing the officers who obey them”). See also Moss v. Kopp, 559 F.3d 1155, 1163-1168
(10th Cir. 2009) (holding that “[j]ust as judges acting in their judicial capacity are absolutely
immune from liability under section 1983, ‘official[s] charged with the duty of executing a
facially valid court order enjoy [ ] absolute immunity from liability for damages in a suit
challenging conduct prescribed by that order”) (quoting Turney v. O’Toole, 898 F.2d 1470, 1472
(10th Cir. 1990). “The ‘fearless and unhesitating execution of court orders is essential if the
court’s authority and ability to function are to remain uncompromised.’” Coverdell v. Dep’t of
Soc. & Health Servs., 834 F.2d 758, 765 (9th Cir. 1987). Cf. Smeal v. Alexander, No. 5:06 CV
2109, 2006 WL 3469637, at *6 (N.D. Ohio Nov. 30, 2006) (“quasi-judicial immunity extends to
those persons performing tasks so integral or intertwined with the judicial process that they are
considered an arm of the judicial officer who is absolutely immune”).
“[F]or the defendant state official to be entitled to quasi-judicial immunity, the judge
issuing the disputed order must be immune from liability in his or her own right, the officials
executing the order must act within the scope of their own jurisdiction, and the officials must
only act as prescribed by the order in question.” Moss, 559 F.3d at 1163. The doctrine of quasi-

8

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 9 of 38

judicial immunity further requires that the court order in question be “facially valid.” Id. at
1164. The Tenth Circuit has recognized, however, that a court order may be “facially valid”
even if that order is infirm or erroneous as a matter of state law.
“State officials ‘must not be required to act as pseudo-appellate courts
scrutinizing the orders of judges,’ but subjecting them to liability for executing an
order because the order did not measure up to statutory standards would have just
that effect.” Further, “[t]o allow plaintiffs to bring suit any time a state agent
executes a judicial order that does not fulfill every legal requirement would make
the agent ‘a lightning rod for harassing litigation aimed at judicial orders.”
“Simple fairness requires that state officers ‘not be called upon to answer for the
legality of decisions which they are powerless to control.’”
Id. at 1165 (internal citations omitted).
Plaintiffs contend that the First Amended Complaint “alleges specifically that the [Ex
Parte Orders] were facially invalid by being issued from a Kansas court and being incomplete,
such that Adame and Garza could see for themselves that no one from ‘Kansas State Social
Services’ was granted custody by the [Ex Parte Orders].” See Plaintiffs’ Response to Douglas
Defendants’ Motion to Dismiss, at 14 (emphasis in original). Plaintiffs also argue a Kansas
judge “had no jurisdiction to issue ex parte orders for execution in Colorado.” Id. at 15
(emphasis in original).
The Ex Parte Orders in question purportedly were issued “pursuant to K.S.A. 38-2242"5

5

This statute provides that a court “upon verified application, may issue ex parte an order
directing that a child be held in protective custody and, if the child has not been taken into
custody, an order directing that child be taken into custody.” A court may issue such an ex parte
order “only after the court has determined there is probable cause to believe the allegations in the
application are true.” “If the court issues an order of protective custody, the court may also enter
an order restraining any alleged perpetrator of physical, sexual, mental or emotional abuse of the
child from residing in the child’s home; visiting, contacting, harassing or intimidating the child,
other family member or witness; or attempting to visit, contact, harass or intimidate the child,
other family member or witness.”
9

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 10 of 38

and specifically state that the District Court of Johnson County, Kansas found, in part, that
“[r]easonable efforts are not required to maintain the child in the home because an emergency
exists which threatens the safety of the child,” that “remaining in the home or returning home
would be contrary to the welfare of the child,” and that “immediate placement is in the best
interest of the child.” See Exhibit 1 (doc. #55-1) attached to First Amended Complaint. The
Orders further noted allegations of “physical, sexual, mental or emotional abuse.” These
documents bear the caption “EX PARTE ORDER OF PROTECTIVE CUSTODY and the
signature of “Kathleen L. Sloan, Judge of the District Court,” and apparently ere time-stamped
by the Clerk of the District Court on “2009 May -5 PM 3:40.” Although these court filings set
forth “findings” of fact, Judge Sloan did not direct any action to be taken based upon those
findings. So, for example, the Ex Parte Order did not explicitly require that the identified child
be taken into custody. The district judge also did not check the box that “FURTHER
ORDERED that any duly authorized law enforcement officer of the jurisdiction where the
child(ren) can be found shall take the child(ren) named above into custody and deliver the
child(ren) to” a specified location or government official. Judge Sloan also did not indicate that
a “restraining order shall be filed against” anyone.” In short, from the face of the Ex Parte
Order, it is difficult to discern exactly what actions Judge Sloan required or even contemplated.
As this matter comes before the court on a motion to dismiss, I must confine my analysis
to the well-pled facts (but not conclusory allegations) contained in the First Amended Complaint
and the exhibits properly before the court. The court is required to construe those facts and
documents in a light most favorable to Plaintiffs.
The First Amended Complaint contends that the Ex Parte Orders issued by Judge Sloan

10

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 11 of 38

were not based upon probable cause and falsely presented or omitted material facts concerning
Mr. and Mrs. Doe and their children. There are no well-pled facts in the First Amended
Complaint that would suggest Defendants Adame or Garza were aware of these alleged
deficiencies in the Ex Parte Orders. But see Moss, 559 F.3d at 1165 (“Simple fairness requires
that state officers ‘not be called upon to answer for the legality of decisions which they are
powerless to control.’”).
However, there is a fundamental problem with the Douglas County Defendants’
invocation of quasi-judicial immunity. As the Tenth Circuit has explained, “an official charged
with the duty of executing a facially valid court order enjoys absolute immunity from liability for
damages in a suit challenging conduct prescribed by that order.” Valdez, 878 F.2d at 1286
(emphasis added). Stated differently the government official is entitled to quasi-judicial
immunity because he or she is taking actions commanded by the court orders in question. Cf.
Martin v. Bd. of Cty. Comm’rs, 909 F.2d 402, 405 (10th Cir. 1990) (holding that quasi-judicial
immunity protects defendants from damage claims directed to the conduct prescribed in the court
order itself, but not to the manner of its execution). Here, Judge Sloan’s Ex Parte Orders simply
make findings of fact; nothing is specifically or inferentially “ordered.”6 Therefore, the rationale

6

At some point, Judge Sloan apparently realized that her Ex Parte Orders did not mandate
any specific action. Exhibits attached to the Kansas Defendants’ motion to dismiss include two
documents captioned “Pick Up Order,” dated May 5, 2009 and time stamped 3:40 PM. These
Orders state that “on the 5TH DAY OF MAY, 2009, [each Plaintiff] was placed in the care,
custody and control of [the State of Kansas] with authority for suitable placement” and direct
“ANY LAW ENFORCEMENT AGENCY” to take said child into your custody and transport
said child to court approve Juvenile Intake and Assessment Center.” See Exhibits I and J (doc.
## 64-9 and 64-10) attached to Motion to Dismiss. Another exhibit proffered by the Kansas
Defendants consists of a “Journal Entry Nunc Pro Tunc” filed in the District Court of Johnson
County on May 8, 2009 purporting to “correct[ ] the Ex Parte Orders of Custody filed on May 5,
2009 . . . to read as follows: THE COURT HEREBY ORDERS THAT the above named children
11

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 12 of 38

for quasi-judicial immunity seems to be lacking in this case. I recommend that the motion to
dismiss be denied to the extent Defendants Adame and Garza are relying in whole or in part on
the doctrine of absolute or quasi-judicial immunity.
B.

Defendants’ Claim to Qualified Immunity

Even if Defendants Adame and Garza are not protected by quasi-judicial immunity, they
are entitled to qualified immunity for conduct performed within the scope of their official duties.
“The doctrine of qualified immunity protects government officials from liability for civil
damages insofar as their conduct does not violate clearly established statutory or constitutional
rights of which a reasonable person would have known.” Messerschmidt v. Millender, 565 U.S.
535, 132 S. Ct. 1235, 1244 (2012) (internal quotation marks and citations omitted). See also
Duncan v. Gunter, 15 F.3d 989, 992 (10th Cir. 1994) (same). Stated differently, the affirmative
defense of qualified immunity “protects all but the plainly incompetent [government official] or
those who knowingly violate the law.” Holland ex rel. Overdorff v. Harrington, 268 F.3d 1179,
1185 (10th Cir. 2001). Whether Defendants Adame and Garza are entitled to qualified immunity
is a legal question. Wilder v. Turner, 490 F.3d 810, 813 (10th Cir. 2007).
In resolving a motion to dismiss based on qualified immunity, the first prong of the
court’s analysis asks “whether the facts that a plaintiff has alleged . . . make out a violation of a
constitutional right.” Pearson v. Callahan, 555 U.S. 223, 232 (2009). This determination turns

shall be placed in the custody of: The Secretary of Social and Rehabilitation Services.” See
Exhibit K (doc. # 64-11), attached to Motion to Dismiss. The foregoing orders are not
referenced in the First Amended Complaint, and it is not clear whether Defendants Adame and
Garza ever received the foregoing court filings prior to arriving at the G’s residence on May 6,
2009. But again, on a motion to dismiss the court must construe the allegations in a light most
favorable to Plaintiffs.
12

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 13 of 38

on the substantive law regarding the constitutional right at issue. See McGettigan v. Di Mare,
173 F. Supp. 3d 1114, 1121 (D. Colo. 2016) (citing Casey v. City of Fed. Heights, 509 F.3d
1278, 1282-83 (10th Cir. 2007)).
Under the second prong of the qualified immunity doctrine, the plaintiff must show that
the right at issue was “clearly established” at the time of the defendant’s alleged violation.7
Saucier v. Katz, 533 U.S. 194, 201 (2001), overruled on other grounds by Pearson v. Callahan,
555 U.S. 223 (2009). “The clearly established inquiry examines whether the contours of the
constitutional right were so well-settled, in the particular circumstances presented, that every
reasonable . . . official would have understood that what he is doing violates that right.” Lane v.
Yohn, No. 12-cv-02183-MSK-MEH, 2013 WL 4781617, at *3 (D. Colo. Sept. 6, 2013) (internal
quotation marks and citation omitted), appeal dismissed, No. 13-1392 (10th Cir. Oct. 31, 2013).
“[T]he salient question . . . is whether the state of the law at the time of [the] incident provided
‘fair warning’” to Defendants Adame and Garca that their alleged conduct was unconstitutional.
Tolan v. Cotton,

U.S. , 134 S. Ct. 1861, 1866 (2014) (quoting Hope v. Pelzer, 536 U.S. 730,

741 (2002)). “To satisfy this prong, the burden is on the plaintiff to point to Supreme Court or
Tenth Circuit precedent (or the clear weight of other circuit courts) that recognizes an actionable
constitutional violation in the circumstances presented.” Havens v. Johnson, No. 09-cv-01380MSK-MEH, 2014 WL 803304, at *7 (D. Colo. Feb. 28, 2014) (citing Schwartz v. Booker, 702

7

The court has the discretion to decide “which of the two prongs of the qualified
immunity analysis should be addressed first in light of the circumstances in the particular case at
hand.” Herrera v. City of Albuquerque, 589 F.3d 1064, 1070 (10th Cir. 2009). However,
“[q]ualified immunity is applicable unless” the plaintiff can satisfy both prongs of the inquiry.
Id.
13

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 14 of 38

F.3d 573, 587-88 (10th Cir. 2012)), aff’d, 783 F.3d 776 (10th Cir. 2015). “It is not necessary for
the plaintiff to adduce a case with identical facts, but the plaintiff must identify some authority
that considers the issue not as a broad general proposition, but in a particularized sense . . . .”
Havens, 2014 WL 803304, at *7. There must be “a substantial correspondence between the
conduct in question and prior law allegedly establishing that the defendant's actions were clearly
prohibited.” Duncan v. Gunter, 15 F.3d 989, 992 (10th Cir. 1994) (internal quotation marks and
citations omitted).
In the past, the Tenth Circuit has employed a “sliding scale” in applying the second prong
of the qualified immunity doctrine: “[t]he more obviously egregious the conduct in light of
prevailing constitutional principles, the less specificity is required from prior case law to clearly
establish the violation.” Casey, 509 F.3d at 1284 (quoting Pierce v. Gilchrist, 359 F.3d 1279,
1298 (10th Cir. 2004)). “As long as the unlawfulness of the [defendant’s] actions was ‘apparent’
‘in light of pre-existing law,’ then qualified immunity is inappropriate.” Estate of Booker v.
Gomez, 745 F.3d 405, 433-34 (10th Cir. 2014) (quoting Hope, 536 U.S. at 739).
The Supreme Court recently shed additional light on how the second prong of the
qualified immunity doctrine should be applied in the context of a Fourth Amendment claim. In
vacating the decision of a divided panel of the Tenth Circuit, the Supreme Court in White v.
Pauly, 580 U.S. __, 2017 WL 69170, at *4 (Jan. 9, 2017), reiterated that clearly established law
“should not be defined ‘at a high level of generality’” and “must be ‘particularized’ to the facts
of the case.” Otherwise, “‘[p]laintiffs would be able to convert the rule of qualified immunity . .
. into a rule of virtually unqualified liability simply by alleging violation of extremely abstract
rights.’” Id. The lower court in White “failed to identify a case where an officer acting under

14

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 15 of 38

similar circumstances as [the defendant] was held to have violated the Fourth Amendment.” Id.
at *5. The Supreme Court’s per curiam opinion emphasized that White “present[ed] a unique set
of facts and circumstances” and that “alone should have been an important indication to [lower
courts] that [the defendant] did not violate a ‘clearly established’ right.” Id.
1. Plaintiffs’ First Claim Alleging A Fourth Amendment Violation
Plaintiffs’ First Claim asserts that Defendants Adame and Garza violated their Fourth
Amendment right to be free from unlawful seizure.
A violation of the Fourth Amendment requires an intentional acquisition of physical
control. Brower v. County of Inyo, 489 U.S. 593, 596 (1989). A seizure for purposes of the
Fourth Amendment occurs when “government actors have, ‘by means of physical force or show
of authority, . . . in some way restrained the liberty of a citizen.’” JL v. N.M. Dep’t of Health,
165 F. Supp. 3d 996, 1042 (D. N.M. 2015) (quoting Graham v. Connor, 490 U.S. 386, 395 n. 10
(1989)).
[A] person is “seized” only when, by means of physical force or a show of
authority, his freedom of movement is restrained. Only when such restraint is
imposed is there any foundation whatsoever for invoking constitutional
safeguards. The purpose of the Fourth Amendment is not to eliminate all contact
between the policy and the citizenry, but “to prevent arbitrary and oppressive
interference by enforcement officials with the privacy and personal security of
individuals.” * * * We conclude that a person has been “seized within the
meaning of the Fourth Amendment only if, in view of all of the circumstances
surrounding the incident, a reasonable person would have believed that he was
not free to leave. Examples of circumstances that might indicate a seizure, even
where the person did not attempt to leave, would be the threatening presence of
several officers, the display of a weapon by an officer, some physical touching of
the person of the citizen, or the use of language or tone of voice indicating that
compliance with the officer’s request might be compelled.
United States v. Mendenhall, 446 U.S. 544, 553-54 (1980) (internal citations omitted). Cf.
United States v. Beamon, 576 F. App’x 753, 757 (10th Cir. 2014) (“until a citizen’s liberty is
15

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 16 of 38

actually restrained, there is no seizure” for purposes of the Fourth Amendment).
Every “seizure,” however, does not necessarily equate to a constitutional violation,
because the Fourth Amendment only prohibits “unreasonable” seizures. See JL, 165 F. Supp. 3d
at 1043. Cf. Kernats v. O'Sullivan, 35 F.3d 1171, 1177 (7th Cir. 1994) (to state a violation of the
Fourth Amendment, a plaintiff must allege both that a defendant’s conduct constituted a seizure
and that the seizure was unreasonable). The Fourth Amendment’s “central requirement” is one
of reasonableness. See Brower, 489 U.S. at 599 (emphasizing that a seizure “alone is not enough
for § 1983 liability; the seizure must be unreasonable”) (internal quotation marks omitted).
“[C]ourts have long recognized that the reasonableness of a seizure depends not just on why or
when it is made, but also on how it is accomplished.” Fisher v. City of Las Cruces, 584 F.3d
888, 894 (10th Cir. 2009) (citation omitted). “[T]o determine whether a seizure is reasonable,
which is the Fourth Amendment’s ‘ultimate standard,’ a court must balance the government’s
interest in conducting the seizure against the individual’s interest in being free from arbitrary
governmental interference.” JL, 165 F. Supp. 3d at 1043 (internal citations omitted).
The First Amended Complaint alleges the following pertinent facts which, for purposes
of the pending motion, the court will presume are true and construe in a light most favorable to
Plaintiffs. On May 6, 2009, Mrs. Doe and all of her children were visiting Dr. and Mrs. G at
their home in Douglas County, Colorado. See First Amended Complaint at ¶ 123. On that same
day, Defendants Adame and Garza, “at the instigation of the Kansas SRS/DCF, Gildner, Abney
and Webb,” went to the home of Dr. and Mrs. G “to carry out official business on behalf of the
Douglas County Sheriff’s Office, the Department of Human Services for Douglas County, and
the Colorado Department of Social Services.” Id. at ¶ 125. Either Defendant Adame or

16

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 17 of 38

Defendant Garza told Dr. G that “they were in possession of a court order from the State of
Kansas to seize custody of all ten of the Doe’s children and demanded entry and custody of the
children.”8 Id. at ¶ 132. Defendant Adame also “represented to Dr. G that she had been
contacted by the Kansas SRS/DCF.” Id. at ¶ 133. On the advice of an “attorney-friend [on the]
telephone, Dr. G asked Defendants if they had a warrant or an order issued by a Colorado court.
Id. at ¶ 135. Defendants allegedly responded that they were not required to have a warrant to
enter the residence and “that they ‘do this all the time.’” Id. at ¶¶ 136-137. Plaintiffs allege that
at some point during this exchange, Defendant Garza “became belligerent, raised his voice and
threatened Dr. G with arrest or contempt for interfering with law enforcement.” Id. at ¶ 138.
Deputy Garza allegedly also stated that he and Defendant Adame were “coming in and we’re
taking these kids.” Id. at ¶ 139. Throughout the incident, Defendant Garza was wearing a
sidearm. Id. at ¶ 130. Plaintiffs allege that “[d]ue to the Colorado Agents’ visible weapon, their
false claims of legal authority, their use of force, intimidation, and loud and belligerent
demeanor, Dr. G was powerless to prevent them from entering his house over his objection.” Id.
at ¶ 140.
Once inside the G’s residence, Defendants Adame and Garza “falsely claimed that
Plaintiffs and the other Doe children were in the custody of the State of Kansas.” Id. at ¶ 143.
Although they allegedly found no evidence of “emergency conditions” that threatened the safety
of the Plaintiffs or the other Doe children, Defendants Adame and Garza “commanded Mrs. Doe
to vacate the G’s home immediately.” Id. at ¶ 142. Plaintiffs allege that Defendants Adame and

8

Based upon other allegations in the First Amended Complaint, it would appear that
Plaintiffs are alluding to the Ex Parte Orders issued by the District Court for Johnson County,
Kansas on May 5, 2009. See First Amended Complaint at ¶¶ 150 and 172.
17

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 18 of 38

Garza Defendants “issued summary orders inside the G’s house, both verbal and written, without
a supporting court order, without prior notice, hearing or probable cause, which the G’s, Mrs.
Doe and the Doe children were forced to obey by virtue of the Colorado Agents’ threats of force,
intimidation and false claims of legal authority.”9 Id. at ¶ 146.
The First Amended Complaint also alleges that Defendant Adame signed a document that
Plaintiffs refer to as the “Colorado Order.” That document purportedly required Dr. and Mrs. G
“to take custody of the Doe’s children” and prohibited Mrs. Doe from having any “contact,
physical or verbal with any of the children, including any communication through Dr. G and his
wife Mrs. G or any third party.” Id. at ¶¶ 147 and 151-52. Plaintiffs further assert that in a later
telephone conversation with Dr. G, Defendant Adame “prohibit[ed] Dr. G from allowing Mr.
Doe, or even his parents, to talk to the children on the phone or have any contact with them.” Id.
at ¶ 153. Defendants Adame and Garza purportedly “informed the G’s that government agents
from Kansas would arrive at an unspecified time/day to take physical custody of the Doe
children from Dr. and Mrs. G.” Id. at ¶ 161. That same day, after the exchange with Defendants
Adame and Garza, Dr. G and his wife “personally transported the ten Doe children to Kansas
from Colorado” and “delivered the Doe children the next day to the custody of SRS/DCF in

9

Compare Siliven v. Ind. Dep’t of Child Servs., 635 F.3d 921, 926-27 (7th Cir. 2011)
(recognizing, in a case where a parent agreed to remove their minor child from the family home
and place him with his grandmother home when told that the child otherwise would be placed in
foster care, that a Fourth Amendment seizure may occur where “coercive conduct on the part of
the police . . . indicates cooperation is required;” the court concluded, however, that the
defendants’ conduct did not rise to the level of a Fourth Amendment violation because the
information available to defendants “[was] sufficient to warrant a prudent caseworker in
believing that [the minor child] was in danger”). See also Schattilly v. Daugharty, 656 F. App’x
123, 129-30 (6th Cir. 2016) (holding that officials did not violate the plaintiff’s constitutional
rights by threatening removal proceedings in order to obtain consent to temporary placement).
18

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 19 of 38

Johnson County. Id. at ¶¶ 164 and 166.
The so-called “Colorado Order” is attached to the First Amended Complaint as Exhibit 2.
Notably, the word “order” does not appear any where in that document. To the contrary, Exhibit
2 is captioned “Colorado Department of Social Services, Douglas County Department of Human
Services” and entitled “Safety Plan.” In addition to the provisions cited in the First Amended
Complaint, the Safety Plan apparently required Mrs. Doe “to contact Kansas casework; Monica
Gildner on 5/7/09.” At the bottom of the single-page document is space for the signatures of
“Safety Plan Participants and Parents” which is prefaced by the following:
Family Agreement with Safety Plan
We have participated in the development of and reviewed this safety plan and
agree to work with the provisions and services as described above.10
Exhibit 2 bears two illegible signatures and is dated May 6, 2009.
This court finds the allegations in the First Amended Complaint are insufficient to allege
a violation of Plaintiffs’ Fourth Amendment rights by either Defendant Adame or Garza.11 As
noted earlier, Fourth Amendment seizure requires an intentional acquisition of physical control.
If I credit Plaintiffs’ own allegations, Defendants Adame and Garza announced that Plaintiffs
and the other Doe children already “were in the custody of the State of Kansas.” See First

10

Colorado law provides that a county department of social services and “any person who
is believed to be responsible for the abuse or neglect of a child” may enter into a safety plan
agreement. See Colo. Rev. Stat. § 19-3-309.5. That statute further provides that “[p]articipation
in a safety plan agreement by an county department and by any person who is believed to be
responsible for child abuse or neglect shall be at the discretion of the person who is believed to
be responsible for the child abuse or neglect.”
11

It bears noting that the First Amended Complaint does not assert any Fourth
Amendment claims on behalf of Dr. and Mrs. G, or Mrs. Doe.
19

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 20 of 38

Amended Complaint at ¶ 143. If that allegation is accepted as true, the Safety Plan Agreement
executed on May 6, 2009 did not further restrict Plaintiffs’ freedom of movement. That seems
consistent with Dr. and Mrs. G’s understanding and subsequent actions, since it is undisputed
that they returned Plaintiffs and their siblings to Kansas that same night. While the First
Amended Complaint portrays the Defendants (and particularly Deputy Garza) as intimidating,
loud and belligerent, those behaviors did not change Plaintiffs’ status or restrict their
movements. I also do not find that the Safety Plan executed on May 6, 2009 was unreasonable
for purposes of the Fourth Amendment in light of the findings contained in Judge Sloan’s Ex
Parte Orders which apparently were available to Defendants Adame and Garza.
Finally, and most importantly, I do not find that Plaintiffs have sustained their burden
under the second prong of the qualified immunity analysis. As the Supreme Court re-affirmed in
White, the clearly established law element “must be ‘particularized’ to the facts of the case” and
“should not be defined ‘at a high level of generality.” In challenging Defendants’ claim of
qualified immunity under the Fourth Amendment, Plaintiffs’ response brief relies on four
reported decisions. In Jones v. Hunt, 410 F.3d 1221 (10th Cir. 2005), the court held that a
sixteen year old student was “seized” within the meaning of the Fourth Amendment when she
was confronted at school and coerced into returning to live with her father. The Tenth Circuit
noted that the deputy sheriff and social worker repeatedly threatened the student with arrest if
she did not comply with their directives. The Tenth Circuit also found that the Fourth
Amendment seizure “was not ‘justified at its inception’” since there was no indication that the
child’s mother was suspected of abusive or neglectful behavior. In Gomes v. Wood, 451 F.3d
1122 (10th Cir. 2006), parents brought a due process claim under the Fourteenth Amendment

20

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 21 of 38

after their minor daughter was removed from their home and placed in protective custody. In
holding that the defendants were entitled to qualified immunity from the plaintiffs’ claim for
damages under the Fourteenth Amendment, the appellate court acknowledged that “[s]ocial
workers face extreme difficulties in trying simultaneously to help preserve families and to serve
the child’s best interests” and are required to “balance the parents’ interest in the care, custody
and control of their children with the state’s interest in protecting the children’s welfare.” Id. at
1138.
Plaintiffs also rely on two appellate decisions from other Circuits.12 The facts in
Wendrow v. Michigan Department of Human Services, 534 F. App’x 516 (6th Cir. 2013) are
demonstrably different from those in this case. In Wendrow, the Sixth Circuit held that a thirteen
year old child was seized when she was removed from class and then interviewed by prosecutors
and police officers in a separate area on school grounds. The child in question had been
diagnosed with Asperger’s syndrome. The court concluded that “it was objectively unreasonable
for [defendants] to subject [this child] to an interview of this type without consent.” In Wooley
v. City of Baton Rouge, 211 F.3d 913 (5th Cir. 2000), a panel of the Fifth Circuit held that a
minor child was “seized” in violation of the Fourth Amendment when he was physically
removed from his home without a warrant or probable case. The court specifically found that it
was not “objectively reasonable for the officers to believe that [the minor child] was in danger of

12

I am not convinced these two cases demonstrate “the clearly established weight of
authority from other courts” as contemplated by the qualified immunity doctrine. See PJ ex rel.
Jensen v. Wagner, 603 F.3d 1182, 1196-97 (10th Cir. 2010) (“A right is clearly established
‘when a Supreme Court or Tenth Circuit decision is on point, or if the clearly established weight
of authority from other courts shows that the right must be as [the] plaintiff maintains.”) (quoting
Harman v. Pollock, 586 F.3d 1254, 1260 (10th Cir. 2009).
21

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 22 of 38

imminent harm” and further noted that the judicial order in the officers’ possession “in no way
indicated that [the minor child’s] safety might be jeopardized.” Indeed, the appellate court noted
that “the police were not informed of any abuse prior to arriving” at the child’s home.
Here, Plaintiffs were not taken into custody by Defendants Adame and Garz. Defendants
were in possession of court orders that specifically found that “an emergency exists which
threatens the safety of” the Plaintiffs, that “remaining in the home or returning home would be
contrary to the welfare of the child, and that “immediate placement is in the best interest of the
child.” Judge Sloan’s Ex Parte Orders also referred to allegations of physical, sexual, mental, or
emotional abuse involving these children. Echoing the Supreme Court’s observation in White, I
find that Plaintiffs have “failed to identify a case where an officer acting under similar
circumstances as [the defendant] was held to have violated the Fourth Amendment.”
Accordingly, I recommend that Defendants Adame and Garza be dismissed from the first claim
for relief on the basis of qualified immunity.
2. Plaintiffs’ Third Claim Alleging A Fourteenth Amendment Violation
In their Third Claim, Plaintiffs allege that Defendants Adame and Garza “caus[ed]
Plaintiffs to be deprived of their familial associations in violation of the 14th Amendment.” See
First Amended Complaint at ¶ 208. More specifically, Defendants Adame and Garza allegedly
prohibited “Plaintiffs from leaving [the G’s residence] with their mother and . . . prohibit[ed]
Plaintiffs, through written and verbal orders, from movement and travel with their mother, father,
and grandparents.” Plaintiffs further allege that Defendants Adame and Garza knew their
“actions could and did result in Plaintiffs’ detention.” Id. at ¶ 205.
In moving to dismiss this claim, Defendants Adame and Garza argue, in rather cursory

22

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 23 of 38

fashion, that they placed only “limited restrictions” on Plaintiffs’ interaction with their parents
that lasted “for a single day when [Plaintiffs] left [Colorado] without the permission or even
knowledge of Garza or Adame.” See Motion to Dismiss, at 9. Defendants insist that they “are
not aware of any Constitutional right to uninterrupted familial relations in the face of credible
evidence of imminent danger of abuse” and that they
acted reasonably when they determined that to protect the Plaintiffs and their
siblings, it was best to separate them from their parents and leave them in the care
of a family friend of the parents for a short time pending further investigation.
Id. Plaintiffs’ analysis of their Fourteenth Amendment claim is equally perfunctory.
In addition to the factual allegations enumerated in support of Plaintiffs’ Fourth
Amendment claim, the First Amended Complaint avers that after Plaintiffs and their siblings
returned to Johnson County on May 7, 2009, “SRS/DCF disregarded the children’s best interest
and proceeded arbitrarily to separate them from each other, from their parents, from their
grandparents, from the G.’s and from anyone known to them, causing the children obvious
mental and physical anxiety, needless worry and grief.” See First Amended Complaint at ¶ 168.
The Due Process Clause of the “Fourteenth Amendment provides that no state shall
‘deprive any person of life, liberty, or property, without due process of law.’” Estate of DiMarco
v. Wyo. Dept. of Corrections, 473 F.3d 1334, 1339 (10th Cir. 2007) (quoting the Due Process
Clause of the U.S. Const. amend. XIV, § 1). “The Supreme Court’s interpretation of this clause
recognizes two different kinds of constitutional protection: procedural due process and
substantive due process.” McKinney v. Pate, 20 F.3d 1550, 1555 (11th Cir. 1994). “In its
substantive mode, the Fourteenth Amendment provides protection against arbitrary and
oppressive government action, even when taken to further a legitimate governmental objective.”

23

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 24 of 38

Seegmiller v. LaVerkin City, 528 F.3d 762, 767 (10th Cir. 2008). One strand of the substantive
due process doctrine “protects an individual’s fundamental liberty interest, while the other
protects against the exercise of governmental power that shocks the conscience.” Id. Plaintiffs’
Third Claim fails under either application of the substantive due process doctrine.
The “protections of substantive due process have for the most part been accorded to
matters relating to marriage, family, procreation, and the right to bodily integrity.” Becker v.
Kroll, 494 F.3d 904, 923 (10th Cir. 2007) (quoting Albright v. Oliver, 510 U.S. 266, 272 (1994)).
See also Planned Parenthood of Se. Penn. v. Casey, 505 U.S. 833, 851 (1992) (acknowledging
that constitutional protections extend to personal decisions relating to, inter alia, family
relationships and child rearing, and that Supreme Court precedents “have respected the private
realm of family life which the state cannot enter”). As the Tenth Circuit noted in Starkey ex rel.
A.B. v. Boulder County Social Services, 569 F.3d 1244, 1253 (10th Cir. 2009) (internal citations
omitted),
“[T]he Due Process Clause of the Fourteenth Amendment protects the
fundamental right of parents to make decisions concerning the care, custody, and
control of their children.” But this right to family integrity “has never been
deemed absolute or unqualified.” “Courts have recognized that the constitutional
right to familial integrity is amorphous and always must be balanced against the
governmental interest involved.”
Cf. Tenenbaum v. Williams, 193 F.3d 581, 601 (2d Cir. 1999) (“It does not follow from the
principle that brief seizures of people may be unreasonable and therefore violate the Fourth
Amendment that brief removals [of minor children] from their parents to protect them from
abuse are ‘without any reasonable justification in the service of a legitimate government
objective’ under the Due Process Clause.”) (quoting County of Sacramento v. Lewis, 523 U.S.
833, 846 (1998)).
24

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 25 of 38

The Tenth Circuit also addressed the constitutionally protected right of familial
association in Silvan W. v. Briggs, 309 F. App’x 216, 223 (10th Cir. 2009). There, the court
acknowledged that:
The substantive component of the Fourteenth Amendment “protects an
individual’s fundamental liberty interests” and guards “against the exercise of
governmental power that shocks the conscience.” * * * The right of familial
association arises from the concept of ordered liberty. It is violated when
government officers intend to interfere with a protected relationship and the
reason for interfering “constitute[s] an undue burden on [the plaintiffs’]
associational rights.”
Id. (internal citations omitted). In Silvan, the Tenth Circuit found no evidence that plaintiffs’
familial association rights were unduly burdened where defendants acted “on the basis of a
reasonable suspicion of past and impending harm.” The court concluded that plaintiffs’
associational rights “[did] not outweigh the government’s ‘interest in protecting [the minor child]
from abuse and from situations where abuse might occur.’” Id. (citing Griffin v. Strong, 983 F.2d
1544, 1547 (10th Cir. 1993)). Cf. Vigil v. S. Valley Acad., No. 06-2309, 247 F. App’x 982, 988
(10th Cir. 2007) (“a plaintiff claiming a violation of the right to familial association must show
that the defendant had the specific intent to interfere with the family relationship”). Cf.
Camuglia v. City of Albuquerque, 448 F.3d 1214, 1222 (10th Cir. 2006) (noting that to properly
allege a substantive due process violation, “a plaintiff must do more than show that the
government actor intentionally or recklessly caused injury to the plaintiff by abusing or misusing
government power”) (quoting Moore v. Guthrie, 438 F.3d 1036, 1040 (10th Cir. 2006)).
Although I accept as true the well-pled allegations of the First Amended Complaint, I do
not find that Plaintiffs have alleged facts that rise to the level of a plausible substantive due

25

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 26 of 38

process violation by Defendants Adame and Garza.13 Stated differently, the allegations in the
First Amended Complaint do not plausibly demonstrate that Defendants Adame and Garza on
May 6, 2009 intended to interfere with a protected relationship or that the Safety Plan they put in
place on that day constituted “an undue burden” on Plaintiffs’ right of familial association.
Plaintiffs’ allegations make clear that even if Defendants’ underlying assumptions may
have been incorrect or misguided, they were acting in response to the Ex Parte Orders issued by
the District Court of Johnson County. See First Amended Complaint at ¶ 132 (Defendants
represented that “they were in possession of a court order from the State of Kansas”). Cf. Cox v.
Warwick Valley Cent. Sch. Dist., 654 F.3d 267, 275 (2d Cir. 2011) (to prove a due process
violation of the right to familial association, it is not enough to show that the government action
was “incorrect or ill-advised”). The allegations in the First Amended Complaint also
demonstrate Defendants’ appreciation of their limited role on May 6, 2009. See First Amended
Complaint at ¶¶ 143 and 161 (Defendants Adame and Garza stated that “Plaintiffs and the other
Doe children were in the custody of the State of Kansas” and that “government agents from
Kansas would arrive at a unspecified time/day to take physical custody of the Doe children from
Dr. and Mrs. G”). The Safety Plan put in place by Defendants Adame and Garza specifically
directed Mrs. Doe to contact Ms. Gildner, the social worker in Kansas, the very next day (May 7,
2009), presumably to discuss the children’s current and future situation. Cf. Cox, 654 F.3d at

13

In reaching this conclusion, the court expresses no views as to the actions of other
Defendants taken either before or after May 6, 2009. Under § 1983, the court must consider to
what extent, if at all, Defendants Adame and Garza personally participated in the alleged
constitutional violations because to assert a viable claim under § 1983, the plaintiff must
plausibly allege that the defendant’s own individual actions violated the Constitution. See, e.g.,
Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009).
26

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 27 of 38

275 (“Absent truly extraordinary circumstances, a brief deprivation of custody is insufficient to
state a substantive due process custody claim.”); Silvan, 309 F. App’x at 223 (in finding that the
defendants had not violated plaintiffs’ familial association rights, the court noted “the relatively
short duration” of the child’s placement with her aunt and uncle and cited with favor Nicholson
v. Scoppetta, 344 F.3d 154, 172 (2d Cir. 2003) which held that “brief removals generally do not
rise to the level of a substantive due process violation, at least where the purpose of the removal
is to keep the child safe during investigation and court confirmation of the basis for removal”);
Wofford v. Evans, No. 7:02CV00762, 2002 WL 32985799, at *7 (W.D. Va. Dec. 17, 2002)
(holding that state action that affects a familial relationship only incidentally is not cognizable in
a § 1983 due process claim). There is absolutely no allegation that Defendant Adame or
Defendant Garza had any role or input in the subsequent decision by Kansas authorities to
separate the Doe children “from each other, from their parents, from their grandparents, from the
G’s and from anyone known to them.”
Finally, in finding that Defendants Adame and Garza must be dismissed from Plaintiffs’
Third Claim on the basis of qualified immunity, I remain mindful of the Tenth Circuit’s
observations regarding the “difficult and essential” judgments that social workers must make
when they are confronted with allegations of child abuse and are forced to make “on-the-spot
judgments on the basis of limited and often conflicting information.” Gomes, 451 F.3d at 1138.
Cf. Hedger v. Kramer, No. CIV-13-0654-HE, – F. Supp. 3d –, 2016 WL 3945816, at *9 (W.D.
Okl. Jul. 19, 2016) (heeding “the Tenth Circuit’s admonition that ‘considerable deference should
be given to the judgment of responsible government officials in acting to protect children from
perceived imminent danger or abuse”), appeal pending. “‘[I]f officers of reasonable competence

27

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 28 of 38

could disagree’ about the lawfulness of the challenged conduct, then ‘[qualified] immunity
should be recognized.” Gomes, 451 F.3d at 1136 (quoting Malley v. Briggs, 475 U.S. 335, 341
(1986)).
“Officials do not lose their qualified immunity because of a mistaken, yet
reasonable belief, nor do officials lose their immunity because of a reasonable
mistake as to the legality of their actions.” “[T]he purpose of the qualified
immunity doctrine is to provide ample room for mistaken judgments and to
protect ‘all but the plainly incompetent or those who knowingly violate the law.’”
Dupree v. City of Jacksonville, No.4:08CV00327 JMM, 2009 WL 1392578, at *6 (E.D. Ark.
May 13, 2009) (internal citation omitted).
Accordingly, I recommend that Defendants Adame and Garza be dismissed from
Plaintiffs’ Third Claim for Relief based upon the doctrine of qualified immunity.14
C.

The Claim Against Defendant Douglas County

The Sixth Claim in the First Amended Complaint asserts that “[u]nder 42 U.S.C. § 1983,

14

If the substantive claims against Defendants Adame and Garza are dismissed pursuant
to this Recommendation, those Defendants also must be dismissed under Plaintiffs’ Fourth
Claim which alleges they participated in a conspiracy to deprive Plaintiffs of their constitutional
rights. See Fernandez v. N. Kern State Prison, No. 1:16-cv-1612 AWI JLT, 2016 WL 7324708,
at *6 (E.D. Cal. Dec. 16, 2016) (holding that “[b]ecause Plaintiff’s complaint fails to allege any
substantive claims . . . it follows that Plaintiff’s claim for civil conspiracy must be dismissed”).
Cf. Aleynikov v. McSwain, No. 15-1170 (KM), 2016 WL 3398581, at *19 (D. N.J. Jun. 15, 2016)
(citing the “established rule . . . that a cause of action for civil conspiracy requires a separate
underlying tort as a predicate for liability;” because the court found no violation of the plaintiff’s
constitutional rights, the companion conspiracy claim was dismissed), clarified on other issues,
2016 WL 5340513 (D. N.J. Sep. 22, 2016); Everling v. Ragains, No. 1:14-cv-00024-TWP-DML,
2015 WL 1319707, at *5 (S.D. Ind. Mar. 23, 2015) (holding that in the absence of an underlying
substantive claim, plaintiff’s conspiracy cause of action must be dismissed; “[b]ecause all the
federal claims under 42 U.S.C. § 1983 are barred by prosecutorial immunity, there is no
underlying cause of action on which to base a conspiracy claim”). Also, because this court is
recommending Defendants Adame’s and Garza’s dismissal based upon qualified immunity, there
is no need to address their statute of limitations affirmative defense.
28

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 29 of 38

Douglas County is liable for causing Plaintiffs to be seized and deprived of their liberty in
violation of the 4th Amendment of the United States Constitution.” Plaintiffs allege in
conclusory fashion that “Douglas County had adopted an unwritten policy, custom, or practice
by which it authorized county sheriff’s personnel to seize Plaintiffs based on out-of-state ex
parte court orders in violation of the United States Constitution and Colorado law.” See First
Amended Complaint, at ¶ 216.
This claim cannot survive if Defendants Adame and Garza are dismissed from this
action. It is axiomatic that a local government body cannot be liable for damages if the plaintiff
suffered no constitutional injury at the hands of a government employee. See, e.g., City of Los
Angeles v. Heller, 475 U.S. 796, 799 (1986) (per curiam); Estate of Larsen ex rel. Sturdivan v.
Murr, 511 F.3d 1255, 1264 (10th Cir. 2008). Cf. Maco v. Baldwin Union Free Sch. Dist., No.
CV 15-3958, 2016 WL 4028274, at *6 (E.D.N.Y. Jul. 26, 2016) (“[W]here there is no underlying
violation of a plaintiff’s constitutional rights, any claim for municipal liability necessarily fails
as well.”); Bonilla, v. City of York, No. 1:14-CV-2238, 2016 WL 3165619, at *12 (M.D. Pa. Jun.
7, 2016) (“[T]here is no municipal liability under Monell where there is no underlying violation
of a constitutional right by the individual officers.”), appeal pending; Caputo v. Rio Ranche
Police Dep’t, No. CIV 05-321-JB/DJS, 2006 WL 4063020, at *9 (D.N.M. Jun. 30, 2006) (while
the acts of a single employee may sometimes give rise to a Monell claim, “such a Monell claim
still requires that a constitutional violation occurred”).

II.

The Kansas Defendants’ Challenge to Personal Jurisdiction
Where a defendant is moving to dismiss under Fed. R. Civ. P. 12(b)(2) for lack of

personal jurisdiction and under Fed. R. Civ. P. 12(b)(6) for failure to state a cognizable claim for
29

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 30 of 38

relief, the court should first address the challenge to personal jurisdiction. “The question of
personal jurisdiction must be addressed before a court can reach the merits of a case, because ‘a
court without jurisdiction over the parties cannot render a valid judgment.’” Doe v. May, No.
14-cv-01740-WJM-NYW, 2015 WL 8519519, at *3 (D. Colo. Nov. 16, 2015) (quoting Omi
Holdings, Inc. v. Royal Ins. Co. of Canada, 149 F.3d 1086, 1091 (10th Cir. 1998)), rec. adopted,
2015 WL 8479808 (D. Colo. Dec. 10, 2015).
In every action, the plaintiff bears the burden of establishing personal jurisdiction over a
non-resident defendant. See Wenz v. Memery Crystal, 55 F.3d 1503, 1505 (10th Cir. 1995). “In
the preliminary stages of litigation, Plaintiff’s burden is light.” Walker v. Wegener, No. 11-CV3238-PAB-KMT, 2012 WL 1020673, at *3 (D. Colo. Mar. 2, 2012) (citing Wenz, 55 F.3d at
1505), rec. adopted, 2012 WL 1020954 (D. Colo. Mar. 26, 2012). “Where, as here, there has
been no evidentiary hearing, and the motion to dismiss for lack of personal jurisdiction is
decided on the basis of affidavits and other materials, Plaintiff[ ] need only make a prima facie
showing that jurisdiction exists.” Id. at *3 (internal citation omitted). See also Pytlik v. Prof’l
Res., Ltd., 887 F.2d 1371, 1376 (10th Cir. 1989) (Plaintiff “has the duty to support jurisdictional
allegations in a complaint by competent proof of the supporting facts if the jurisdictional
allegations are challenged by an appropriate pleading”). This court must resolve any factual
disputes in Plaintiffs’ favor. See Beyer v. Camex Equip. Sales & Rentals, Inc., No. 10-CV01580-WJM-MJW, 2011 WL 2670588, at *2 (D. Colo. July 8, 2011) (“Any factual conflicts
must be resolved in the plaintiff’s favor.”), aff'd, 465 F. App'x 817 (10th Cir. 2012). “However,
‘only the well pled facts of plaintiff’s complaint, as distinguished from mere conclusory
allegations, must be accepted as true.” Wise v. Lindamood, 89 F. Supp. 2d 1187, 1189 (D. Colo.

30

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 31 of 38

1999). The court also should accept as true those facts presented in defendant’s affidavits or
exhibits that remain unrefuted by plaintiff. See Glass v. Kemper Corp., 930 F. Supp. 332, 337
(N.D. Ill. 1996).
Here, both the Kansas Defendants and Plaintiffs have attached exhibits to their motion
and response brief, respectively. “A court may consider material outside of the pleadings in
ruling on a motion to dismiss for lack of . . . personal jurisdiction,” without converting “the
motion into one for summary judgment; ‘the plain language of Rule 12(b) permits only a
12(b)(6) motion to be converted into a motion for summary judgment.’” 1-800-Contacts, Inv. v.
Mem’l Eye, PA, No. 1:08-CV-983 TS, 2009 WL 1586654, at *1 n.1 (D. Utah, Jun. 4, 2009). Cf.
Rich Food Servs., Inc. v. Rich Plan Corp., No.5:99-CV-677-BR, 2001 WL 36210598, at *9 n.2
(E.D.N.C. May 12, 2001) (“Rule 12(b) does not impose a restriction on [a] trial court in
considering matters outside the pleadings in ruling on a motion to dismiss pursuant to Rule
12(b)(2) for lack of personal jurisdiction”); Sunwest Silver, Inc. v. Int’l Connection, Inc. 4 F.
Supp. 2d 1284, 1285 (D. N.M. 1998) (“The submission of affidavits in connection with a motion
to dismiss for lack of personal jurisdiction does not convert the motion into one for summary
judgment, thus, the court examines this jurisdictional issue pursuant to the standards applicable
to a Rule 12(b)(2) motion.”).
“To obtain personal jurisdiction over a nonresident defendant in a diversity action, a
plaintiff must show both that jurisdiction is proper under the laws of the forum state and that the
exercise of jurisdiction would not offend due process.” Intercon, Inc. v. Bell Atl. Internet Sols.,
205 F.3d 1244, 1247 (10th Cir. 2000) (citation omitted). Because Colorado's long-arm statute
permits the exercise of any jurisdiction that is consistent with the United States Constitution, the

31

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 32 of 38

personal jurisdiction inquiry under Colorado law “collapses into the single due process inquiry.”
Id. at 1247 (citation omitted). See also Beyer, 2011 WL 2670588, at *3 (The court “need only
address the constitutional question of whether the exercise of personal jurisdiction over
[Defendants] comports with due process.”).
“The Due Process Clause permits the exercise of personal jurisdiction over a nonresident
defendant so long as there exist minimum contacts between the defendant and the forum State.”
Intercon, 205 F.3d at 1247 (internal quotation marks and citation omitted). The minimum
contacts requirement protects a defendant from “being subject to the binding judgment of a
forum with which [it] has established no meaningful contacts, ties, or relations.” Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 471-72 (1985) (internal quotation marks and citation omitted).
The defendant must have “fair warning that a particular activity may subject [it] to the
jurisdiction of a foreign sovereign.” Id. at 472. “[T]he question of whether a non-resident
defendant has the requisite minimum contacts with the forum state to establish in personam
jurisdiction must be decided on the particular facts of each case.” Benton v. Cameco Corp., 375
F.3d 1070, 1076 (10th Cir. 2004) (internal quotation marks omitted).
In this case, Plaintiffs are asserting the court has specific personal jurisdiction over the
Kansas Defendants. “The inquiry whether a forum State may assert specific jurisdiction over a
nonresident defendant focuses on the relationship among the defendant, the forum, and the
litigation.” Walden v. Fiore , 571 U.S. __, 134 S. Ct. 1115, 1121 (2014). As the Supreme Court
explained in Walden, the
“minimum contacts” analysis looks to the defendant’s contacts with the forum
State itself, not the defendant’s contacts with persons who reside there. . . . But
the plaintiff cannot be the only link between the defendant and the forum. Rather,
it is the defendant’s conduct that must form the necessary connection with the
32

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 33 of 38

forum State that is the basis for its jurisdiction over him.
Id. at 1122. Cf. Giduck v. Niblett, No. 13CA0775, 2014 WL 2986670, at *5 (Colo. App. Jul. 3,
2014) (“[i]n properly viewing the focus of the minimum contacts analysis, . . . it is the
defendants, not plaintiffs or third parties, who must create contacts with the forum state . . . .”),
cert. dismissed, Aug. 28, 2015.
“[A] court may, consistent with due process, assert specific jurisdiction over a
nonresident defendant if the defendant has purposefully directed his activities at residents of the
forum, and the litigation results from alleged injuries that arise out of or relate to those
activities.” Intercon, 205 F.3d at 1247 (citation omitted). “[P]urposeful direction exists when
there is ‘an intentional action . . . expressly aimed at the forum state . . . with [the] knowledge
that the brunt of the injury would be felt in the forum state,” and the “plaintiff’s injuries must
‘arise out of [the] defendant’s forum-related activities.” Anzures v. Flagship Restaurant Group,
819 F.3d 1277, 1280 (10th Cir. 2016) (quoting Dudnikov v. Chalk & Vermillion Fine Arts, Inc.,
514 F.3d 1063, 1071-72 (10th Cir. 2008)). “This purposeful availment requirement ensures that
a defendant will not be haled into a jurisdiction solely as a result of random, fortuitous, or
attenuated contacts, or of the unilateral activity of another party or a third person.” Rambo v.
Am. S. Ins. Co., 839 F.2d 1415, 1419 (10th Cir. 1988) (quoting Burger King, 471 U.S. at 47475). Cf. New Frontier Media, Inc. v. Freeman, 85 P.3d 611, 614 (Colo. App. 2003) (contacts
that exist with a state due to a plaintiff’s unilateral acts have been held insufficient to establish
personal jurisdiction).
For this court to assert personal jurisdiction over the Kansas Defendants, there must be
more than “mere injury to a forum resident.” Walden, 134 S. Ct. at 1125. Indeed, the Tenth

33

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 34 of 38

Circuit has acknowledged that “personal jurisdiction cannot be based on a [defendant’s]
interaction with a plaintiff known to bear a strong connection to the forum state.” Rockwood
Select Asset Fund XI(6)-1, LLC v. Devine, Millimet & Branch, 750 F.3d 1178, 1180 (10th Cir.
2014) (citing Walden, 134 S. Ct. at 1122-26)). In this case, it seems clear that on May 6, 2009,
Plaintiffs did not qualify as residents of Colorado or have a strong connection with Colorado.15
In reaching that conclusion, I find instructive the Colorado Supreme Court’s analysis in Brandt
v. Brandt, 268 P.3d 406 (Colo. 2012). Although that case arose under the Uniform Child
Custody Jurisdiction and Enforcement Act and considered when a non-issuing jurisdiction could
modify an out-of-state custody order, the Colorado Supreme Court held that a determination of
where a parent and child “presently reside” for purposes of a residency determination must be
based on a “totality of the circumstances determination.” Id. at 415. Factors that should be
weighed include:
the length and reasons for the parents’ and the child’s absence from the issuing
state; their intent in departing from the state and returning to it; . . . where they
maintain a home, car, driver’s license, job, professional licensure, and voting
registration; where they pay state taxes; the issuing state’s determination of
residency based on the facts and the issuing state’s law; and other circumstances
demonstrated by evidence in the case.
Id. This court has not been provided with any evidence that would suggest Plaintiffs qualified as
“residents” of Colorado on May 6, 2009. With the recommendation to dismiss the claims against
Defendants Douglas County, Adame, and Garza, the remaining parties to this action were all
Kansas residents at the time of the relevant conduct in 2009.

15

The First Amended Complaint alleges that at all relevant times in 2009, Plaintiffs, as
well as their parents, and their siblings, were residents of the State of Kansas and resided in
Johnson County, Kansas. See First Amended Complaint at ¶ 16.
34

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 35 of 38

Moreover, I do not find that the Kansas Defendants’ very brief contact with Colorado
officials is sufficient to demonstrate that these Defendants “purposefully directed” their activities
at this forum with “[the] knowledge that the brunt of the injury would be felt in the forum state.”
I also do not find that any violation of Plaintiffs’ constitutional rights arose “out of [the]
defendant’s forum-related activities.”
The First Amended Complaint alleges that on April 20, 2009, Defendant Gildner
allegedly enlisted the assistance of Assistant District Attorney Jaclynn J.B. Moore, “who filed
ten Child-in Need-of-Care (“CINC”) petitions in the District Court for Johnson County, Kansas.”
See First Amended Complaint at ¶ 85. A “non-emergency hearing” on those petitions was set for
May 11, 2009 in the District Court for Johnson County. Id. at ¶ 92. Thereafter, on May 4, 2009,
Assistant District Attorney Donald W. Hymer, Jr. moved for issuance of Ex Parte Orders of
Protective Custody Pursuant to K.S.A 38-2242 in the District Court of Johnson County, Kansas.
Id. at ¶ 111. See also Exhibit A (doc. #64-1) attached to Motion to Dismiss. Cf. Fitzgerald v.
Zakheim & Lavrar, P.A, 90 F. Supp. 3d 867, 873 (D. Minn. Feb. 11, 2015) (holding that the
defendant law firm did not “purposely direct” its actions at a Minnesota resident when it
obtained from a Florida state court a writ of garnishment aimed at an individual the defendant
believed resided in Florida). Plaintiffs contend that after Dr. and Mrs. G returned the Doe
children to Kansas on May 7, 2009, “SRS/DCF [the Kansas Defendants’ employer] . . .
proceeded arbitrarily to separate them from each other, from their parents, from their
grandparents, from the G’s and from anyone known to them.” The “purposeful activities” which
form the basis for the instant action all took place in Kansas and the consequences of the Kansas
Defendants’ conduct also were felt in that state. Accordingly, I do not find that the Kansas

35

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 36 of 38

Defendants had sufficient contacts with Colorado to permit this court to exercise specific
personal jurisdiction over those individuals.
“Even if defendant’s actions created sufficient minimum contacts,” the court “must still
consider whether the exercise of personal jurisdiction over defendant would offend traditional
notions of fair play and substantial justice.” Intercon, 205 F.3d at 1247 (internal quotation marks
and citation omitted). “This inquiry requires a determination of whether the district court’s
exercise of jurisdiction over defendant is reasonable in light of the circumstances surrounding
the case.” Id. The court considers the following factors in deciding whether the exercise of
jurisdiction is reasonable: “(1) the burden on the defendant, (2) the forum state’s interest in
resolving the dispute, (3) the plaintiff’s interest in receiving convenient and effective relief, (4)
the interstate judicial system’s interest in obtaining the most efficient resolution of controversies,
and (5) the shared interest of the several states in furthering fundamental substantive social
policies.” Id. at 1249.
In assessing the reasonableness of jurisdiction, we also take into account the
strength of a defendant’s minimum contacts. [T]he reasonableness prong of the
due process inquiry evokes a sliding scale: the weaker the plaintiff’s showing on
minimum contacts, the less a defendant need show in terms of unreasonableness
to defeat jurisdiction.
Emp’rs Mut. Cas. Co. v. Bartile Roofs, Inc., 618 F.3d 1153, 1161-62 (10th Cir. 2010) (internal
citations omitted). The Supreme Court has cautioned that “jurisdictional rules may not be
employed in such a way as to make litigation ‘so gravely difficult and inconvenient’ that a party
unfairly is at a ‘severe disadvantage’ in comparison to his opponent.” Burger King, 471 U.S. at
478.
On balance, I am not convinced that exercising personal jurisdiction over the Kansas

36

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 37 of 38

Defendants in Colorado would comport with traditional notions of fair play and substantial
justice. Colorado does not appear to be the most efficient place to litigate the dispute, and
certainly does not have a greater interest in protecting the interests of the children in this case
than Kansas. To the contrary, this action arises out of orders issued by the District Court for
Johnson County, Kansas. I have no reason to believe that proceeding against the Kansas
Defendants in that forum would impose undue burdens on Plaintiffs or impair their ability to
resolve their claims on the merits. Basic notions of due process mandate that this case proceed,
if at all, in the District of Kansas.
In lieu of dismissing the claims against the Kansas Defendants, the court may exercise its
discretion and transfer the remaining claims and parties to the District of Kansas pursuant to 28
U.S.C. § 1631. That statute provides that if a court finds that it lacks personal jurisdiction, it
“shall, if it is in the interests of justice, transfer such action . . . to any other such court in which
the action . . . could have been brought at the time it was filed.” Cf. Doe v. May, 2015 WL
8519519, at *5; Reynolds v. Henderson & Lyman, No. 13-cv-03283-LTB, 2014 WL 5262174, at
*4-5 (D. Colo. Oct. 14, 2014). It would appear that Plaintiffs could have brought their claims
against the Kansas Defendants originally in that forum. I further find that transferring this action
to the District of Kansas would further the interests of justice, particularly if Plaintiffs’ claims
might be time-barred if filed anew in that jurisdiction. At this point, I cannot say with certainty
that Plaintiffs’ claims against the Kansas Defendants are “unlikely” to have merit, just as I will
not presume that Plaintiffs are pursuing their claims in bad faith. On balance, I recommend that
the action and the remaining claims against Defendants Gildner, Webb and Abney be transferred

37

Case 1:15-cv-02847-REB-CBS Document 91 Filed 01/27/17 USDC Colorado Page 38 of 38

to the District of Kansas.16
CONCLUSION
Accordingly, for the reasons set forth above, this court RECOMMENDS that the Motion
to Dismiss Amended Complaint (doc. #57) filed by Defendants Lesa Adame, Carl Garza, and
Douglas County be GRANTED and that the claims against those defendants be dismissed with
prejudice. I further RECOMMEND that Defendants Monica Gildner, Angela Webb, and Tina
Abney’s Motion to Dismiss First Amended Complaint with Memorandum in Support or, in the
alternative, Motion for Summary Judgment (doc. #65) be DENIED WITHOUT PREJUDICE,
and that this case and the claims against Defendants Gildner, Webb, and Abney be transferred to
the United States District Court for the District of Kansas pursuant to 28 U.S.C. § 1631.
DATED this 27th day of January, 2017.
BY THE COURT:
s/ Craig B. Shaffer
United States Magistrate Judge

16

In view of this Recommendation, the court need not address the substantive arguments
advanced in the Kansas Defendants’ motion to dismiss. Those arguments should be resolved by
the assigned judicial officer in the District of Kansas.
38

